 THE FEDERAL BUREAU OF
    INVESTIGATION’S
   IMPLEMENTATION OF
INFORMATION TECHNOLOGY
   RECOMMENDATIONS
     U.S. Department of Justice
   Office of the Inspector General
            Audit Division

        Audit Report 03-36
         September 2003
FEDERAL BUREAU OF INVESTIGATION’S IMPLEMENTATION
  OF INFORMATION TECHNOLOGY RECOMMENDATIONS


                          EXECUTIVE SUMMARY

      Following the September 11, 2001, terrorist attacks, the
Attorney General and the Director of the Federal Bureau of Investigation
(FBI) made clear that prevention of terrorism is the top priority of the
Department of Justice (DOJ) and the FBI. Effective use of information
technology (IT) is crucial to the FBI’s ability to meet this priority as well as its
other critical responsibilities. For FY 2003, the FBI allocated nearly
$606 million to information technology projects.

      As computer technology has advanced, federal agencies have become
increasingly dependent on information systems to carry out operations and
process, maintain, and report essential information. The FBI’s computerized
information systems affect many mission-critical activities, such as financial
management, security of sensitive and classified data, and investigative
work.

       Recognizing the importance and vulnerability of data processed,
maintained and reported by the FBI, the Office of the Inspector General
(OIG), the General Accounting Office (GAO), and other entities have
conducted audits, investigations, and reviews of the FBI’s management of IT.
For years, reviews have found major weaknesses associated with the FBI’s
IT. The FBI has made upgrading its information technology one of its top ten
priorities.

      To assess the FBI’s progress in improving its IT, the OIG conducted this
audit of the FBI’s implementation of prior OIG and GAO recommendations.
To perform our audit, we conducted 27 interviews with officials from the FBI,
OIG, and GAO. The FBI officials interviewed were from the Inspection
Division, Information Resources Division, and National Infrastructure
Protection Center. Additionally, we reviewed over 100 documents including
prior GAO and OIG reports, Congressional testimony, and documentation on
the FBI’s process for tracking the resolution of recommendations.




                                       -i–
1. Policies and Procedures for Following-Up on Report
   Recommendations

       The Office of Management and Budget (OMB) and DOJ have issued
policies and procedures for following-up on recommendations of audit
reports. According to OMB Circular A-50, audit follow-up is an integral part of
good management, and is a shared responsibility of agency management and
auditors. OMB Circular A-50 requires agencies to establish systems to assure
the prompt and proper resolution and implementation of audit
recommendations. These systems are to provide for a complete record of
action taken on both monetary and non-monetary findings and
recommendations.

      Department of Justice Order 2900.6A, Audit Follow-Up and Resolution,
established Departmental policies and criteria for the follow-up and
resolution of audit findings and recommendations to ensure that all OIG
audit reports are adequately and timely resolved, and that all resolution
actions are consistent with the governing laws and regulations. The order
states that the head of the DOJ component is responsible for overall audit
resolution and follow-up activities within his or her organizational unit and is
accountable to the Deputy Attorney General. Further, the DOJ component
should establish an audit follow-up and resolution system that ensures
written comments on audit findings and recommendations are made within
four months after the issuance of the report.

        The order also states that DOJ components should assign a high
priority to the immediate implementation of the order so that the DOJ will be
in full compliance with the legislative and regulatory requirements pertaining
to the timely resolution of audits. Although subjective, the timeliness of
corrective actions is assessed on a recommendation-by-recommendation
basis due to the inherent difficulties associated with implementing certain
recommendations.

      When issuing other OIG reports that contain recommendations, such
as special investigations or reviews, the OIG elicits responses from
components regarding planned corrective actions. When received by the
OIG, the responses are reviewed to determine whether the planned
corrective actions meet the intent of the recommendations. Periodically, the
OIG makes subsequent inquiries with components to monitor the
implementation of these actions. As with audit reports, component
managers are ultimately responsible for ensuring that recommendations are
implemented in a timely manner.


                                     - ii –
2. The FBI’s Implementation of IT Recommendations

      Since 1990, OIG reports have identified numerous deficiencies with the
FBI’s IT program, including outdated infrastructures, fragmented
management, ineffective systems, and inadequate training. While the FBI
has implemented many of the recommendations contained in these reports
(93 out of 148), significant further actions are necessary to ensure that the
FBI’s IT program effectively supports its mission. For example, recent audits
and reviews conducted by the OIG have found repeated deficiencies with the
FBI’s IT control environment and compliance with information security
requirements.

      These repeated deficiencies indicate that, in the past, FBI management
had not paid sufficient attention to improving its IT program. Until recently,
the FBI lacked an effective system of management controls to ensure that
recommendations issued by the OIG are implemented in a timely and
consistent manner. However, current FBI leadership has stated that they
are committed to enhancing controls to ensure recommendations are
implemented in a consistent and timely manner. The FBI has recently
established a system to facilitate the tracking and implementation of
recommendations. Additionally, the FBI expects significant improvements
from its current IT modernization efforts, which the FBI believes will correct
many of the deficiencies identified by the OIG.

A. OIG Reports on the FBI’s IT

      To assess the FBI’s progress in implementing recommendations
directed toward improving its information technology, the audit examined
the following OIG reports that related to the FBI’s use and management of
IT:

     •    the 1990 audit report on the FBI’s automated data processing
          (ADP) controls;

     •    the 2002 audit report on the FBI’s IT investment management
          (ITIM);

     •    five detailed reports issued in support of annual financial statement
          audits for FYs 1996 through 20011 on the FBI’s control environment
          over its IT systems;


     1
         The OIG issued one report for FYs 1996 and 1997.

                                         - iii –
      •   three audit reports pursuant to the Government Information
          Security Reform Act (GISRA) issued for FYs 2001 and 2002; and

      •   two special investigative reports that contained FBI IT-related
          recommendations issued in 1999 and 2002.

      For the 1990 ADP audit report and the 2002 ITIM report, we examined
similarities between the reports’ findings to assess the FBI’s progress in
improving its IT. For the OIG’s detailed IT reports, FY 2001 GISRA audit
report, and special reports, we obtained the status of FBI IT-related
recommendations. The table below summarizes the status of FBI IT-related
recommendations contained in these reports.

Summary of the Status of IT Recommendations Issued to the FBI

                      Number of Open     Number of Closed     Total Number of
   Report Name       Recommendations     Recommendations     Recommendations
OIG Detailed
Financial IT Reports          22                83                  105
OIG FY 2001 GISRA
Audit Report                  17                 6                   23
OIG Special Reports           16                 4                   20
               Total          55                93                  148
Source: OIG analyses as of April 2003

      The following sections provide background information on these
reports and an assessment of the FBI’s progress toward implementing
IT-related recommendations contained in these reports.

(1) Reports on the FBI’s ADP Controls and IT Investment
    Management

      In 1990, the OIG issued an audit report entitled, “The FBI’s Automatic
Data Processing General Controls.” This report found 11 major internal
control weaknesses, many of which were still applicable 12 years later.
Specifically, the report found the following.

      1. The FBI’s phased implementation of its 10-year Long Range
         Automation Strategy, scheduled for completion in 1990, was
         severely behind schedule.

      2. The FBI’s Information Resources Management program was
         fragmented and ineffective, and the FBI’s Information Resources
         Management official did not have effective organization-wide
         authority.
                                   - iv –
       3. The FBI had not developed and implemented a data architecture.2

       4. The FBI had not adequately involved top management in
          FBI Headquarters (FBIHQ) or the field offices in systems
          development through an Executive Review Committee.

       5. The FBI’s major mainframe investigative systems were labor
          intensive, complex, untimely, and non-user friendly and few
          special agents used these systems.

      Many of the weaknesses identified in the 1990 report on ADP controls
were mentioned again in the 2002 audit report on the FBI’s ITIM. In
December 2002, the OIG issued a report entitled, “The FBI’s Management of
IT Investments.” The OIG concluded that the FBI had not effectively
managed its IT investments because it had not fully implemented the
management processes associated with successful IT investments.

      The ITIM report contained 30 recommendations directed toward
improving the FBI’s management of its IT investments. Because our
evaluation of the FBI’s progress toward implementing recommendations was
close to the final issuance of the ITIM report, we did not assess the FBI’s
progress in implementing the recommendations. However, our 2002 ITIM
report found that many of the weaknesses described in the 1990 report on
the FBI’s ADP controls still existed.

       •   The FBI’s IT infrastructure was severely outdated.

       •   The FBI’s Information Resources Management program was
           decentralized. The FBI had completed several restructurings,
           including one in February 2002 that was intended to give the
           Information Resources Management program more authority over
           the divisions that manage IT.

       •   The FBI still had not completed an enterprise architecture
           framework, which included the technical and data architecture.

       •   The FBI did not have formally established IT investment review
           boards or committees until March 2002.



       2
         Data architecture is the identification and definition of major types of data within
an organization.

                                            -v–
      •   The FBI’s major investigative systems remained labor intensive,
          complex, non-user friendly, and many special agents still did not
          use these systems.

      The OIG concluded that the FBI’s ability to completely and timely
implement the 30 recommendations listed in the ITIM report will, in part,
depend on management’s commitment to do so. This management
commitment must be incorporated into a comprehensive process to ensure
that the recommendations are tracked and implemented.

(2) Reports on the FBI’s Control Environment over its Financial
    IT Systems

      The OIG conducts annual financial statement audits of the FBI, with
the most recent report covering FY 2001. Financial statement audits are
intended to play a central role in (1) providing more reliable and useful
financial information to decision-makers, and (2) improving the adequacy of
internal controls and underlying financial management systems. In support
of the FBI’s annual financial statement audits, the OIG has issued detailed
reports since FY 1996 on the effectiveness of the FBI’s general and
application controls over IT systems used to process financial transactions.

     To conduct these reviews, the OIG used the GAO’s Federal Information
System Controls Audit Manual (FISCAM). The FISCAM describes the
computer-related controls by category that auditors should consider when
assessing the integrity, confidentiality, and availability of computerized data.

       We found that the FBI made progress in correcting deficiencies
identified in the detailed reports supporting the annual financial statement
audits from FY 1996 to 2001. Of the 105 recommendations contained in
these reports, 83 have been implemented and closed, and 22 are still open.
The following table summarizes the status of the FBI’s IT control
environment recommendations by FISCAM category.




                                     - vi –
             Status of the FBI’s Financial IT Control Environment
                   Recommendations by FISCAM Category

                           Number of Open       Number of Closed         Total Number of
 FISCAM Category          Recommendations       Recommendations         Recommendations

Entity-Wide Security
Program Planning and
Management Controls                2                     6                       8
Access Controls                    10                    32                      42
Application Software
Development and
Change Controls                    2                      6                      8
System Software
Controls                           0                      7                      7
Segregation of Duty
Controls                           1                      4                      5
Service Continuity
Controls                           2                     15                      17
Application Controls               5                     10                      15
Other Financial-
Related IT Areas3                   0                     3                      3
                 Total             22                    83                     105
Source: OIG analyses as of April   2003

      By implementing 83 of the recommendations, the FBI improved its IT
internal control environment. The FY 2001 report did not contain any
system software control deficiencies.4 The FBI also made progress toward
correcting deficiencies in entity-wide security program planning, access
controls, application software development and change controls, segregation
of duties, service continuity, and application controls.

     Despite the progress, however, as of April 2003 material weaknesses5
remained in the following general control areas:


       3
           These recommendations were not identified by FISCAM categories.
       4
         The FISCAM distinguishes system software controls from application software
development and change controls. Beginning on page 12, we provide more detailed
information on these general control areas.
       5
          As defined by the American Institute of Certified Public Accountants, a material
weakness is a reportable condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial statements being audited may occur and not be detected by employees in the
normal course of performing their assigned functions.

                                          - vii –
      •   entity-wide security program planning and management –
          increasing the risk that the integrity of sensitive information can be
          compromised;

      •   access controls – increasing the risk of erroneous or fraudulent
          financial transactions; and

      •   application software development and change controls –increasing
          the risk of inaccurate and unauthorized software changes.

      In addition to these material weaknesses, other vulnerabilities existed
in the following internal control areas:

      •   segregation of duty controls – increasing the risk that erroneous or
          fraudulent transactions could be processed, improper program
          changes could be implemented, and computer resources could be
          damaged or destroyed;

      •   service continuity controls – increasing the risk that during an
          extended outage or disaster, information system processing
          functions and vital business operations will be damaged and unable
          to function since critical information and computer resources would
          be unavailable or inaccessible; and

      •   application controls – increasing the risk of inaccurate valuation or
          allocation of data, and unauthorized transactions.

       We also noted that 30 of the both open and closed recommendations
were repeated in subsequent reports on the FBI’s financial IT systems’
control environment. For example, the OIG’s review for FY 1998 reported
that an automated tool was used to perform an assessment of the technical
controls over the FBI’s Finance Division Local Area Networks (LAN). The
assessment found weaknesses in three areas of security: account
restrictions, system monitoring, and data confidentiality. In FY 1999,
another automated tool was used to perform the assessment of the technical
controls over the FBI’s Finance Division LANs. Although corrective action
had been initiated on the prior weaknesses found, the OIG reported that
these weaknesses still existed during FY 1999. The FY 2000 review stated
that auditing remained disabled on the Finance Division’s Windows NT and
Novell NetWare environments. In addition, according to the OIG FY 2001
review, although FBI management had stated that corrective actions have
been taken with respect to the recommended settings for account
restrictions, system monitoring, and data confidentiality, the conditions

                                     - viii –
continued to be identified during the annual financial statement audit
process. Because of the uncorrected deficiencies identified in these audits,
the FBI is at increased risk to failures in its financial management and
computer security functions.

(3) Computer Security Reports in Response to GISRA

      Beginning in FY 2001, the OIG was required by GISRA to perform an
independent evaluation of the DOJ’s information security program and
practices using standards developed by the GAO and the
National Institute of Standards and Technology (NIST).6 In May 2002,
pursuant to GISRA, the OIG issued an audit report on the FBI’s investigative
and administrative mainframe systems.

       The NIST, in conjunction with GISRA, issued guidance detailing the
specific controls that should be documented by federal agencies in their
system security plan. The purpose of the security plan is to provide an
overview of the security requirements of the system and describe the
controls in place or planned for meeting those requirements. The system
security plan also delineates responsibilities and expected behavior of all
individuals who access the system.

      The NIST separated the security plan controls into three major control
areas: (1) management controls, (2) operational controls, and
(3) technical controls. Within each of the three control areas, there are a
number of subordinate categories of controls. For example, technical
controls include password management, logon management, account
integrity management, and system auditing management.

       We found that the FBI made some progress in correcting deficiencies
reported in the OIG FY 2001 GISRA audit. Of the 23 recommendations
contained in the report, 6 have been implemented and closed, and 17 are
still open. The following table summarizes the status of the FBI’s FY 2001
GISRA audit report recommendations by category.




      6
          The NIST is a non-regulatory entity of the U.S. Department of Commerce.

                                          - ix –
Status of the FBI’s FY 2001 GISRA Report Recommendations by
                           NIST Category

                        Number of Open    Number of Closed     Total Number of
   NIST Category       Recommendations    Recommendations     Recommendations
Management Controls               4              2                     6
Operational Controls              2              2                     4
Technical Controls               11              2                    13
                 Total           17             6                     23
Source: OIG analyses as of April 2003

      By implementing six of the recommendations, the FBI improved the
security of its investigative and administrative mainframe systems at its
Headquarters and Clarksburg Data Centers. These improvements included
(a) defining and documenting all criticality levels used to classify
applications, (b) establishing optimal operating system capacities and
implementing procedures to alleviate the near capacity usage, (c) fully
implementing and using the System Access Request function to document
user logon and verify that user access is commensurate with assigned
responsibilities, and (d) ensuring that the communication carrier signals are
not connected to unencrypted network devices.

      Despite the progress made, as of April 2003 vulnerabilities remained in
the following areas:

      •   security policies, procedures, standards, and guidelines;

      •   system and network backup and restoration controls;

      •   password management;

      •   logon management;

      •   account integrity management;

      •   system auditing management; and

      •   system patches.

       The OIG assessed these vulnerabilities as a high-to-moderate risk for
the protection of the FBI’s administrative and investigative mainframe
systems from unauthorized use, loss, or modification. These vulnerabilities
occurred because DOJ and FBI security management had not enforced
compliance with existing security policies, developed a complete set of
policies to effectively secure the administrative and investigative
                                      -x–
mainframes, or held FBI personnel responsible for timely correction of
recurring findings. Further, the report stated that the lack of timely and
effective oversight from DOJ and FBI management caused inconsistencies in
the implementation of security guidelines and resulted in a weakened
security infrastructure.

      The FY 2002 GISRA report on the Automated Case Support (ACS) and
DRUGX systems, like the FY 2001 GISRA report, noted repeated deficiencies
in general control areas. Specifically, vulnerabilities were noted within
password management, logon management, account integrity management,
system auditing management, and system patches. The report further
stated that, if not corrected, these security vulnerabilities threaten the ACS
system and its data with the potential for unauthorized use, loss, or
modification.

      According to the FY 2002 GISRA reports, the FBI did not maintain a
system of recording, tracking progress, ensuring attention to, or determining
the completion of action in response to any information security vulnerability
uncovered during a non-OIG review. As a result, the FY 2002 GISRA reports
recommended that the FBI determine the responsible organization for
tracking and maintaining all vulnerabilities identified during audits and
reviews. In addition, the reports recommended that the FBI develop a
mechanism for tracking the vulnerabilities and the status of the associated
corrective actions resulting from all IT audits and reviews. Since September
2002, the FBI has been developing new procedures and databases to assist
with the audit resolution and follow-up process. FBI officials informed us
that the Inspection Division now manages the audit follow-up and resolution
process for both OIG and GAO audits. Additionally, for system audits, the
FBI has reported that its Information Assurance Section has taken steps to
centrally manage the status of vulnerabilities and corrective actions.

(4) Reports on Special Investigations of the FBI

      Since 1998, the OIG has issued two special investigation reports
containing significant FBI IT-related recommendations:

      •   the 1999 report on the DOJ’s Campaign Finance Task Force
          investigation (Campaign Finance); and

      •   the 2002 report on the FBI’s investigation into the
          Oklahoma City Bombing case (McVeigh).



                                     - xi –
       These reports, among other issues, considered the policies and
procedures related to the management of information within the FBI, the
dissemination of the information to organizations outside the FBI, and the
effectiveness of the information technology utilized by the FBI. The reports
cited deficiencies in the FBI’s management of IT, and provided
20 recommendations directed toward correcting these deficiencies.7 The
table below summarizes the status of the special investigation
recommendations made to the FBI by report.

  Status of Special Investigation Recommendations by Report

                     Number of Open       Number of Closed      Total Number of
  Report Name       Recommendations       Recommendations      Recommendations
Campaign Finance
Report                        5                    0                    5
McVeigh Report               11                    4                   15
            Total            16                    4                   20
Source: OIG analyses as of April 2003


      We found the FBI’s current and planned corrective actions, including
the implementation of Trilogy, has the potential to address 16 of the
20 recommendations that we examined from the Campaign Finance and
McVeigh reports. However, the ultimate success of Trilogy will not be
determined until at least June 2004 when the final phases of the project are
scheduled for completion.

      The following section provides background information on Trilogy,
since its successful completion is critical to not only addressing OIG
recommendations, but also to the future of the FBI’s IT program.

(a) Background on Trilogy

       Trilogy is an IT modernization project designed to upgrade the FBI’s:
(1) hardware and software or Information Presentation Component (IPC),
(2) communication networks or Transportation Network Component (TNC),
and (3) User Application Component (UAC). The IPC and TNC upgrades will
provide the physical infrastructure needed to run the applications from the
UAC. The UAC is intended to replace five of the FBI’s primary investigative
applications in order to reduce agents’ reliance on paperwork and improve
efficiency. Through the creation of the Virtual Case File (VCF), a web-based

      7
         We included recommendations related to document management because FBI
documents are generally produced electronically or managed in automated databases and
systems.

                                        - xii –
“point-and-click” case management system, agents are expected to have
multi-media capability that will allow them to scan documents, photos, and
other electronic media into the case file.

      In November 2000, Congress appropriated $100.7 million for the first
year of the $379.8 million Trilogy project, which was to be funded over a
3-year period. In January 2002, Congress supplemented the FY 2002
Trilogy budget with $78 million to expedite the deployment of all three
components. This supplemental appropriation increased the total funding of
Trilogy to approximately $458 million. Even with these additional funds, the
FBI missed its July 2002 milestone date for completing the “Fast Track”
portion of the IPC and TNC phases.

      In April 2003, the FBI Director reported to the Senate Appropriations
Committee that over 21,000 new desktop computers and nearly 5,000
printers and scanners have been deployed (IPC phase). Additionally, the FBI
reported that it completed the Trilogy Wide Area Network (TNC phase) on
March 28, 2003. The new network, which has been deployed to 622 sites,
provides increased bandwidth and three layers of security. According to the
FBI, the network is highly expandable, so additional capacity or even
additional sites could be added as needed. This network replaces the FBI’s
dated local area and wide area networks, enabling FBI personnel to transmit
data at much greater speeds. Further, the FBI expects to use the network
to transport the Investigative Data Warehouse, which will link 31 FBI
databases for single-portal searches and data mining. Also, the network
lays the foundation for improved information sharing with partner agencies,
and other new applications, such as the VCF.

      The VCF will serve as the backbone of the FBI’s information systems,
replacing the FBI’s paper files with electronic case files that include multi-
media capabilities. The FBI expects to deploy the VCF in three releases.
The initial VCF release will consolidate data from the current ACS and
IntelPlus systems and has a targeted completion date of December 2003.
This release is intended to allow different types of users, such as agents,
analysts, and supervisors, to access information from their desktop
computers that is specific to their individual needs. This VCF release is also
intended to enhance the FBI’s capability to set and track case leads, index
case information, and move document drafts more quickly through the
approval process with digital signatures.

      The second and third releases are intended to upgrade three other
investigative applications into the VCF: the Integrated Intelligence
Information Application (IIIA), Telephone Application, and Criminal Law

                                    - xiii –
Enforcement Application. These releases have a targeted completion date of
June 2004 and are intended to provide agents with Audio/Video Streaming
capability and content management capability. According to FBI
documentation, content management should help agents access information
from the FBI’s data warehouse, regardless of where in the system the
information was entered, providing a single query for all of the FBI’s systems
that are connected to the Investigative Data Warehouse.

      The OIG ITIM report, issued in December 2002, stated that the VCF,
which is recognized by FBI officials as the most important aspect of the
Trilogy project in terms of improving agent performance, was at high risk of
not being completed within the funding levels appropriated by Congress.
FBI officials confirmed the OIG’s assessment in January 2003 when they told
us that an additional $138 million8 was needed to complete Trilogy, bringing
the total project cost to $596 million. Despite the cost overruns, FBI officials
stated that they still expect to deliver the first release of VCF in
December 2003, and that funding for the second and third releases of the
VCF has been secured.

       The following sections provide further details on the IT and document
management related deficiencies noted in Campaign Finance and McVeigh
reports, as well as an assessment of the how the VCF will address these
deficiencies.

(b) Campaign Finance Report

       In July 1999, the OIG issued a report entitled, “Handling of FBI
Intelligence Information Related to the Justice Department’s Campaign
Finance Investigation” (Campaign Finance). In response to a request by the
Attorney General, the OIG reviewed the FBI’s practices for disseminating
intelligence information associated with the Campaign Finance Task Force
(Task Force) investigation.

      With respect to the use and maintenance of the FBI’s computer
database systems, deficiencies were noted in: the Task Force’s familiarity
with the FBI’s databases, the FBI’s practices and policies that limited the
usefulness of the databases, the training of FBI personnel on the ACS
system, and the entry of foreign names into the FBI’s databases. These
findings highlighted the need for FBI and Task Force personnel to be familiar
with information search techniques within the FBI’s databases, how
information should be entered into the databases in order to take advantage

      8
          Of this amount, $57 million was needed for the VCF.

                                          - xiv –
of search capabilities, and potential errors in data entry to ensure that all
possible searches within the databases are conducted. Of the Campaign
Finance report’s 18 recommendations, 5 pertained to the IT-related
deficiencies. These five recommendations related to revising the FBI’s ACS
and IIIA systems to require the uploading of documents and mandatory
indexing of names, and training the users of these systems.

        Regarding the uploading of documents, the FBI issued
Electronic Communications (EC) in July 2000 and June 2002 that required all
e-mails and ECs to be uploaded into the ACS system, unless otherwise
prohibited by their sensitive nature. Additionally, FBI officials stated that
with the VCF, documents will have to be uploaded since the VCF will contain
all official records and case files.

      Regarding the mandatory indexing of names, FBI officials stated that
the VCF will facilitate indexing on various web-based documents by
providing data fields in searchable databases. The index of data fields,
except for narrative fields, will be automatically created once the document
is approved and entered into the VCF. Agents and analysts can then search
the index of data fields by using search screens or viewing the serialized
document.

      Regarding training, FBI officials said that they increased the
ACS system training for veteran agents and have plans in place to train FBI
employees and task force members on the VCF. Additionally, the FBI
continues to offer training on the “Romanization” of foreign names, including
those in Arabic and Chinese.

       Despite the FBI’s progress in taking corrective actions, a more
comprehensive enterprise-wide solution to the underlying deficiencies will
not occur until the VCF is implemented. As a result, some of these
deficiencies have gone uncorrected for over three years.

(c) McVeigh Report

      In March 2002, the OIG issued a report entitled, “An Investigation of
the Belated Production of Documents in the Oklahoma City Bombing
Case” (McVeigh). This report analyzed the causes for the belated production
of many documents in the Oklahoma City bombing case.

      The McVeigh report concluded that the belated production of case-
related documents resulted in part from the following long-standing
problems at the FBI: (1) antiquated and inefficient computer systems,

                                    - xv –
(2) inattention to information management, and (3) inadequate quality
control systems. The report further stated that the FBI’s troubled
information management systems were likely to have a continuing negative
effect on the FBI’s ability to properly investigate crimes.

       The report stated that the FBI had not given sufficient attention to
correcting deficiencies in information management and the ACS system. The
findings of the report relating to information technology showed that the
ACS system is extraordinarily difficult to use, has significant deficiencies, and
is not suitable for the FBI in the 21st century. The report noted that
inefficiencies and complexities with the ACS system, combined with the lack
of a true information management system, were significant factors in the
FBI’s failure to provide hundreds of investigative documents to the
defendants in the Oklahoma City bombing case. To overcome these
problems, the report made recommendations on how future information
systems should be developed.

       The McVeigh report provided 21 recommendations to the FBI,
15 of which directly related to IT. Eleven of the fifteen recommendations
pertain to correcting deficiencies associated with the FBI’s investigative
systems, including the tracking of leads and other records management
policies. FBI officials have stated that the VCF, when implemented, will
address these 11 recommendations.

        In May 2003, FBI officials stated that agents will be required to use the
VCF, since all official case records and files (up to the Secret level) will be
within the application. According to the FBI, unlike the currently used ACS
system, agents will not be able to circumvent the use of the VCF. However,
the FBI still has not finalized its policies for how agents will utilize VCF from
remote locations. Additionally, the VCF has only been approved for use up
to the Secret classification level, so Top Secret and Sensitive
Compartmented Information (SCI) records will still be maintained in a SCI
facility.

      FBI officials stated that the VCF will streamline the workflow process
by including electronic signatures and reducing the number of required
forms. Under the FBI’s current investigative process, a case file is started by
using one of the FBI’s many different standardized forms. The use of these
forms will be replaced by the “intake” function of the VCF, which will simplify
the initiation of a case file by eliminating the use of these forms. As a result,
the VCF will essentially replace all paper copies of investigative events.



                                     - xvi –
       According to FBI officials, the VCF will operate in a “point-and-click”
web environment that will simplify the FBI’s workflow process for document
storage and retrieval. Further, FBI officials told us that the VCF’s automated
document creation, receipt, and management system will partially eliminate
the need for traditional tracking systems. The VCF will include capabilities to
scan into the case file any documents received from sources external to the
FBI, as well as to capture summary descriptions of any documents and
items, such as physical evidence, that cannot be stored electronically. The
FBI’s intent is to eventually track external items through a bar code
identification system that would be placed upon a physical label on the
external document and then linked to an electronic record. Additionally, FBI
officials said that the Records Management Division (RMD) is establishing
systems and processes to effectively track documents and records contained
in FBI systems.

       While the VCF will consolidate five of the FBI’s investigative
applications, FBI officials recognize that the VCF is only a starting point since
numerous other investigative and application systems exist that could be
integrated into the VCF. Additionally, because of unresolved connectivity
issues, crisis management software may still need to be used by agents
after the initial deployment of the VCF. The FBI is identifying and defining
other databases and crisis management software that should be included in
future VCF releases to maximize the efficiency of the workflow process. FBI
officials told us that additional funding will be needed to solve the
connectivity issues at remote locations, as well as consolidate and eliminate
other databases and crisis management software.

      We believe the FBI has demonstrated progress toward implementing
these recommendations in the McVeigh report, based on its corrective
actions taken to date and its plans for the VCF. However, 11 of these
recommendations remain open since the adequacy of the FBI’s corrective
actions cannot be determined until the VCF has been completed. Because
the FBI’s ability to implement many IT recommendations and improve its IT
program depends on the successful implementation of the VCF, the following
sections discuss the factors affecting the success of the VCF.

(d) Factors Affecting the Success of the VCF

       In our judgment, if the VCF can do what the FBI expects, it will
represent a significant technological advancement from the ACS system.
The VCF has the potential to reduce redundancy in searching multiple
databases, improve the FBI’s case file management, and maximize the use
of information in the FBI’s possession.

                                     - xvii –
       While the VCF has the potential to significantly improve the FBI’s
information technology, as well as its record management and investigative
efficiency, the ultimate success of VCF depends on a number of different
factors, including whether the VCF will meet its technical and performance
expectations and be accepted and used by FBI employees.

      1. Technical and Performance Expectations of the VCF

       To ensure its success, the VCF must meet technical and performance
expectations. As mentioned above, the Trilogy project has encountered
significant cost overruns and schedule delays due to the FBI not following
critical management processes. The OIG’s ITIM report stated that these
management problems contributed to difficulties with establishing the
technical requirements for the VCF. Because the VCF is focused on making
significant changes to five of the FBI’s investigative systems, documentation
for the exact configuration of these legacy systems was critical to designing
the requirements for the VCF. Lack of documentation for the configuration
of these five investigative systems caused the FBI to engage in a process of
reverse engineering, which is trying to determine the structure and
components of the systems after deployment. Because the FBI had to
perform reverse engineering on five systems, there are limitations as to how
rapidly the VCF can be developed and deployed.

      As of April 2003, the FBI was still defining the technical requirements
for the second and third releases of the VCF. Because the technical
requirements had not yet been finalized and funding has not been approved,
baselines for the VCF had not been established. We believe that the lack of
technical, cost, and schedule baselines not only creates uncertainties for how
much the VCF will cost and when it will be completed, but also how it will
perform upon implementation.

      2. Acceptance and Use of the VCF

      If the VCF is to be a vehicle for moving the FBI’s information
management into the 21st century, it must be accepted and used throughout
the FBI. Historically, the FBI has been a paper-driven organization. A goal
of the VCF is to move toward a near paperless environment so the FBI can
maximize the use of technology to digitally capture information for data
management and control. According to FBI officials, the VCF is the first real
change in the FBI’s workflow and processes that originated in the 1950’s.
Director Mueller recently stated that “Trilogy [VCF] will change the FBI
culture from paper to electronic.”

                                   - xviii –
      As noted in the Campaign Finance and McVeigh reports, special agents
did not always use the ACS system to manage their case files. For
various reasons, they found alternative ways to manage case files. The VCF
must be used by all special agents for the FBI to fully realize its benefits.

       FBI officials told us that since the VCF will contain the official case
files, agents will have to use it since there will be no other acceptable means
to manage case files. However, FBI officials also acknowledged that because
of unresolved connectivity issues at remote locations, agents may still need
to use crisis management software such as Rapid Start.

B. Other Reports Relating to the FBI’s IT Program

       Three GAO reports that we examined also noted deficiencies with
certain aspects of the FBI’s IT program. The first report, entitled
“Gun Control: Implementation of the National Instant Criminal Background
Check System,” stated in 1999 that the FBI did not properly accredit and
certify the IT system. We later found that the system subsequently was
certified and accredited on March 31, 2000. The second GAO report, entitled
“Campaign Finance Task Force: Problems and Disagreements Initially
Hampered Justice’s Investigation,” stated in 1999 that the FBI lacked an
adequate information system that could manage and interrelate the
evidence that had been gathered in relation the Campaign Task Force’s
investigations. These deficiencies were similar to those reported by the
OIG’s Campaign Finance report. The third report, entitled “Enterprise
Architecture Use Across the Federal Government Can Be Improved,” stated
in 2002 that the FBI lacked a foundation for managing an enterprise
architecture. The recently released OIG ITIM report reiterated the
importance of having an established enterprise architecture when developing
an IT investment management process. Although these GAO reports did not
include any FBI IT-related recommendations, the reports provide further
support that previously identified deficiencies continue to affect the FBI.

      Other entities have also issued reports in recent years that include
analyses of the FBI’s IT management. One report relating to IT security was
issued by the Webster Commission in March 2002, entitled “A Review of FBI
Security Programs.” The Commission, chaired by former FBI Director William
H. Webster, was established to review the FBI’s security practices in light of
the espionage by FBI Supervisory Special Agent Robert Hanssen.




                                    - xix –
    The report identified a wide range of problems affecting the FBI’s
computer systems and information security policies, including:

      • Classified information had been moved into systems not
        properly accredited for protection of classified information.

      •   Until recently, the FBI had not begun to certify and accredit most of
          its computer systems, including many classified systems.

      •   Inadequate physical protections placed electronically stored
          information at risk of compromise.

      •   The FBI’s approach to system design had been deficient because it
          had failed to ascertain the security requirements of the “owners” of
          information on its systems and identify the threats and
          vulnerabilities that must be countered.

      •   Classified information stored on some of the FBI’s most widely
          utilized systems was not adequately protected because computer
          users lacked sufficient guidance about critical security features.

      •   Some FBI inspectors had insufficient resources to perform required
          audits, and when audits were performed, audit logs were reviewed
          sporadically, if at all.

      The Webster Commission’s report concluded that these findings
resulted from the FBI’s lack of attention to IT security in developing and
managing computer systems.

C. FBI’s Process for Following-Up on Recommendations

       Until recently, the FBI had not implemented an effective system of
management controls to ensure that recommendations are resolved and
implemented in a timely and consistent manner. FBI personnel told us that
while a formal process to track and resolve recommendations did not exist
prior to September 2002, an informal process was used. Upon the final
issuance of an OIG or GAO report containing recommendations, the
recommendations were forwarded to the various FBI Divisions. Someone
within the Division was then assigned to respond to the recommendations
until closure occurred. The FBI recognized that this informal process was
not sufficient to ensure corrective actions were timely and responsive.
Specifically, the FBI officials acknowledged that the informal process:


                                     - xx –
     •   was not documented in formal policies and procedures,

     •   was not adequately monitored by executive management and not
         kept up-to-date,

     •   used multiple applications,

     •   did not keep measures of timeliness and responsiveness, and

     •   did not provide for sufficient follow-up once the original response or
         corrective action plan was submitted.

       According to the Deputy Assistant Director of the Inspection Division,
high turnover within FBI management also contributed to problems with
maintaining current responses to OIG and GAO reports. Under the informal
process, when individuals left the FBI or were reassigned within the FBI,
their replacements were not always made aware of recommendations or
requests that were left pending. As a result, responses to recommendations
and any related corrective action were often delayed, and the auditing or
investigating agency had to again request a response to its
recommendations.

        The FBI recognized that improvements in its system of managing
follow-up were needed to resolve and timely implement recommendations
resulting from OIG and GAO reports. In September 2002, the FBI’s
Inspection Division began to establish a new management process to
improve the FBI’s timeliness and responsiveness of corrective actions
resulting from OIG and GAO recommendations and to bring the FBI in
compliance with applicable regulations (OMB Circular A-50 and DOJ Order
2900.6A) for the follow-up and resolution of audit recommendations. To
facilitate the implementation of this new management process, the
Inspection Division developed a database, referred to as the “Automated
Response and Compliance System” (ARCS). According to FBI
documentation, ARCS is an automated tool that is intended to:

     •   document and track audits and data requests from OIG, GAO, and
         others;

     •   track OIG and GAO audits, investigations, and reviews until closure;
         and




                                    - xxi –
      •   provide status information to FBI’s executive management on, or
          close to, a real time basis.

      The FBI’s new database tracks the receipt and resolution of audits,
investigations, and data requests from OIG, GAO, and others. It also tracks
the tasks associated with FBI’s current engineering efforts. Among its
functions, the database is intended to provide information to FBI managers
on a regular basis to keep them informed of a report’s progress and to
ensure timely implementation of recommendations. However, this database
does not include vulnerabilities generated by system audits required by
GISRA. The FBI’s Information Assurance Section has taken steps to develop
a separate database to manage the status of system audit vulnerabilities.

       In conjunction with the development of the ARCS database, the FBI
has also developed policies and procedures for the Inspection Division’s
responsibilities for resolving OIG and GAO reports. These policies and
procedures require the Inspection Division to assign a liaison for each report
with outstanding recommendations or for scheduled audits and reviews. The
liaison has the primary responsibility for entering information into the
database, including deadlines for when tasks should be completed. The
liaison also has the responsibility to ensure that the report is assigned to a
“project manager” – who ensures that all tasks are assigned to appropriate
FBI personnel. This control ensures that appropriate FBI personnel can be
held accountable for taking timely corrective actions. The liaison monitors
the completion of tasks and is instructed to send periodic e-mail notices
when tasks are near their due date or past due. Additionally, Inspection
Division management reviews the activities of the liaisons to ensure that
they are adequately monitoring their assigned projects.

       FBI officials said that the database, which is maintained on the FBI’s
intranet, generates reports for senior FBI management on upcoming
suspense dates. For example, FBI Deputy Directors are required to perform
quarterly reviews on their Division’s progress in completing outstanding
tasks. According to FBI officials, the Inspection Division Assistant Director
uses reports generated by the ARCS database to discuss outstanding tasks
at weekly executive meetings, which are attended by FBI Assistant
Directors, Executive Assistant Directors, and the Director. These and other
reports have been periodically forwarded to the Director, upon his request.
FBI officials told us that the Director has taken a particular interest in the
timeliness and responsiveness of the FBI’s corrective actions, re-engineering
efforts, and responses to Congressional requests. The Director asks to be
notified, especially with regard to high profile reviews, when the FBI has not
been timely and responsive in its planned actions.

                                   - xxii –
       While the FBI’s database can be a useful tool for the FBI’s
establishment of a management process directed toward improving the
timeliness and responsiveness of its corrective actions, the ultimate
effectiveness of this system depends on formal and consistent oversight
from senior FBI management. Thus far, however, the FBI has not
promulgated written directives FBI-wide that instruct program managers and
senior officials (outside of the Inspection Division) regarding their obligation
to take corrective actions that will close recommendations. In our judgment,
the FBI must develop and institute a formal written process that requires
senior management oversight over the timeliness and responsiveness of
recommendations. These written procedures should also incorporate the
policies for tracking the status of vulnerabilities generated by system audits.

3. OIG Recommendations

      In this report, we make three recommendations for the FBI to improve
its implementation of IT recommendations. These recommendations are:

      •   Develop, document, and implement Bureau-wide procedures to
          follow-up and close audit and investigative recommendations
          (including those generated from system audits), in accordance with
          OMB Circular A-50 and DOJ Order 2900.6A.

      •   Ensure that the ARCS database is complete and includes
          recommendations from all sources of OIG audits and special
          reviews.

      •   Demonstrate through the timely closure of OIG audit and other
          recommendations that managers are being held accountable for
          taking corrective actions.




                                    - xxiii –
                               TABLE OF CONTENTS


INTRODUCTION ............................................................................1
1.   Background...........................................................................1
2.   Reports on the FBI’s IT ...........................................................2
3.   Policies and Procedures for Following-Up on Report
     Recommendations..................................................................3

OIG FINDINGS AND RECOMMENDATIONS..........................................5
1.   OIG Reports on the FBI’s IT .....................................................5
     A. Report on the FBI’s ADP Controls .........................................6
     B. Report on the FBI’s IT Investment Management .....................8
     C. Reports on the FBI’s Control Environment over its Financial IT
        Systems ......................................................................... 11
     D. Computer Security Reports in Response to GISRA ................ 39
     E. Reports on OIG Special Investigations of the FBI.................. 53
2.   FBI’s Process for Following-Up on Recommendations................. 69
3.   Summary .......................................................................... 73
4.   Recommendations................................................................ 75

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......... 76

STATEMENT ON MANAGEMENT CONTROLS ...................................... 77

APPENDIX 1: OBJECTIVES, SCOPE, AND METHODOLOGY .................. 78

APPENDIX 2: THE FBI’S PROGRESS TOWARD IMPLEMENTING
            IT RECOMMENDATIONS............................................ 80

APPENDIX 3: OTHER REPORTS RELATING TO THE FBI’S IT
            PROGRAM............................................................. 132

APPENDIX 4: GLOSSARY OF ABBREVIATIONS AND ACRONYMS........ 139

APPENDIX 5: FBI’S RESPONSE TO THE DRAFT REPORT................... 141

APPENDIX 6: OIG, AUDIT DIVISION ANALYSES AND
            SUMMARY OF ACTIONS NECESSARY TO
            CLOSE REPORT...................................................... 145
                                  INTRODUCTION

1. Background

      The Federal Bureau of Investigation (FBI) is the principal investigative
arm of the Department of Justice (DOJ). To execute its responsibilities, the
FBI’s Headquarters in Washington, D.C. provides program direction and
support services to 56 field offices, approximately 400 satellite offices known
as resident agencies, and more than 40 foreign liaison posts.

      As of April 2003, the FBI had over 11,000 special agents and over
16,000 other employees who performed professional, administrative,
technical, clerical, craft, trade, or maintenance operations. The FBI’s budget
authority was nearly $4.3 billion for FY 2003.9 Of this budget authority,
$606 million was allocated to information technology (IT) projects.

       The terrorist attacks of September 11, 2001, prompted the Attorney
General to make counterterrorism the DOJ’s highest priority. The DOJ
reflected these new priorities in its Strategic Plan for FYs 2001 – 2006, which
was issued in November 2001. In the Strategic Plan, the Attorney General
recognized that the fight against terrorism requires the DOJ “to improve the
integrity and security of its computer systems and make more effective use
of information technology.”

      Additionally, in July 2002, the DOJ released an IT Strategic Plan that
included the following goals:

      •    sharing information quickly, easily and appropriately — inside and
           outside the DOJ;

      •    securing and protecting information;

      •    providing reliable, trusted, and cost-effective IT services; and

      •    using IT to improve program effectiveness and performance.




      9
          This figure excludes Federal Retiree and Health Benefit Costs.

                                            -1–
      To meet these goals, the DOJ’s IT Strategic Plan focuses on four key
areas considered to be the building blocks of the IT program: (1) IT
infrastructure, (2) information security, (3) common solutions,10 and
(4) management roles and processes.11

      In response to the DOJ’s new priorities following September 11, 2001,
the FBI proposed fundamental changes in its strategic priorities and business
practices. In May 2002, the Director of the FBI announced a major
reorganization that dedicates more resources to the prevention of terrorism.
Although the core missions of the FBI remain intact, the changes are
intended to transform the Bureau’s role from reactive to preventive. To
accomplish this transition, FBI officials repeatedly have told Congress that
new and improved IT is required to support a redesigned and refocused FBI.
In testimony before the Senate Judiciary Committee on June 6, 2002, the
Director released the FBI’s top ten priorities in the post-September 11 era,
with the number one priority being protecting the United States from
terrorist attacks. Number ten on the list of priorities is upgrading technology
to successfully perform the FBI’s mission. Clearly, the FBI’s future ability to
prevent terrorism and other crimes depends on modern information
technology and effective management of technology.

2. Reports on the FBI’s IT

      Because of the significance of IT to the FBI’s mission-critical activities,
the Office of Inspector General (OIG) has issued numerous audits and
special reviews over the past 12 years relating to the Bureau’s IT
management processes. These reports resulted from reviews of the FBI’s
internal controls of financial IT systems, compliance with the Government
Information Security Reform Act (GISRA), and management of IT
investments.




       10
          According to the DOJ’s IT Strategic Plan, common solutions help to achieve
improved collaboration, secured information sharing, and work simplification through the
use of shared applications and databases.
       11
          According to the DOJ’s IT Strategic Plan, management roles and processes refer
to the DOJ’s Chief Information Officer’s responsibilities, which include: promulgating
departmental IT policies, processes, and standards; formulating departmental IT strategic
plans; developing, implementing, and maintaining an enterprise architecture; developing
guidance for, reviewing, and making recommendations concerning, component IT budget
requests; reviewing and monitoring the design and implementation of major IT projects;
and providing shared departmental services.

                                          -2–
      Additionally, the OIG has conducted special reviews that considered
the FBI’s use of computer applications in its investigative activities. Both the
OIG audit and special review reports have highlighted many IT deficiencies
at the FBI and have provided recommendations directed toward improving
those vulnerabilities.

      Other entities (such as the General Accounting Office (GAO), private
contractors, Congressional committees, and specially formed commissions)
have conducted reviews that discuss the FBI’s IT management practices, but
do not necessarily contain IT-related recommendations. While the focus of
our audit was to assess the FBI’s progress in implementing IT
recommendations, in Appendix 3 of this report we discuss the findings of
reports issued by the GAO and the Commission for the Review of FBI
Security Programs (Webster Commission) due to their relevance to the FBI’s
IT program.12

3. Policies and Procedures for Following-Up on Report
   Recommendations

       The Office of Management and Budget (OMB) and DOJ have issued
policies and procedures for following-up on recommendations of audit
reports. According to OMB Circular A-50, audit follow-up is an integral part
of good management, and is a shared responsibility of agency management
officials and auditors. Corrective action taken by management on resolved
findings and recommendations is essential to improving the effectiveness
and efficiency of government operations. OMB Circular A-50 requires
agencies to establish systems to assure the prompt and proper resolution
and implementation of audit recommendations. These systems are to
provide for a complete record of action taken on both monetary and
non-monetary findings and recommendations.

      The DOJ issued Order 2900.6A, Audit Follow-Up and Resolution, to
establish the Departmental policies and criteria for the follow-up and
resolution of audit findings and recommendations, to ensure that all OIG
audit reports are adequately and timely resolved, and that all resolution
actions are consistent with the governing laws and regulations. The order
states that DOJ components should assign a high priority to the immediate
implementation of the order so that the DOJ will be in full compliance with
the legislative and regulatory requirements pertaining to the timely


      12
          In March 2002, the Webster Commission issued its report entitled, “A Review of
FBI Security Programs.”

                                          -3–
resolution of audits.

      The order also states that the heads of DOJ components are
responsible for overall audit resolution and follow-up activities within their
organizations and are accountable to the Deputy Attorney General. Further,
DOJ components should establish an audit follow-up and resolution system
that ensures written comments on audit findings and recommendations are
made within a 4-month period.

      OIG audit reports generally contain recommendations that have a
status of either open or closed. Open recommendations should be
resolved13 within six months of the final report issuance date.
Recommendations are closed by the OIG when the OIG is satisfied that the
component has taken the agreed upon corrective actions, or when the
corrective action is waived. To determine if the agreed upon corrective
actions were taken, the OIG may request that FBI officials provide
documentation demonstrating that the stated corrective actions were
completed. In other cases, the OIG may perform additional review to verify
that the stated corrective actions were taken. Although subjective, the
timeliness of corrective actions is assessed on a recommendation-by-
recommendation basis due to the inherent difficulties associated with
implementing certain recommendations.

       Upon issuing other OIG reports that also contain recommendations,
such as special investigations or reviews, the OIG elicits responses from
components regarding planned corrective actions. When received by the
OIG, the responses are reviewed to determine whether the planned
corrective actions meet the intent of the recommendations. Periodically, the
OIG makes inquiries with components to monitor the implementation of
these actions. However, as with audit reports, component management is
ultimately responsible for ensuring that recommendations are implemented
in a timely manner.




       13
         The OIG considers a recommendation to be “resolved” when agreement is
reached with the component on the corrective actions that will be necessary to close the
recommendation.
                                           -4–
           OIG FINDINGS AND RECOMMENDATIONS

     Since 1990, OIG reports have found numerous deficiencies with
     the FBI’s IT program, including outdated infrastructures,
     fragmented management, ineffective systems, and inadequate
     training. While the FBI has implemented many of the OIG’s IT
     recommendations (93 out of 148), significant further actions are
     necessary to ensure that the FBI’s IT program effectively
     supports its mission. Recent audits and reviews conducted by
     the OIG have found repeated deficiencies in the FBI’s IT control
     environment and compliance with information security
     requirements. These repeated deficiencies illustrate that, in the
     past, FBI management had not paid sufficient attention to
     improving its IT program. Until recently, the FBI lacked a
     system of management controls to ensure that
     recommendations issued by the OIG were implemented in a
     timely and consistent manner. Inadequate progress toward
     implementing IT recommendations and correcting deficiencies
     contributed to breaches in computer security and failures in
     mission-critical investigative activities. However, current FBI
     leadership has stated that they are committed to enhancing
     controls to ensure recommendations are implemented in a
     consistent and timely manner, and the FBI recently established a
     system to facilitate the tracking and implementation of
     recommendations. Additionally, the FBI expects significant
     improvements from its current IT modernization efforts, which
     the FBI believes will correct many of the deficiencies identified
     by the OIG.

1. OIG Reports on the FBI’s IT

      To assess the FBI’s progress in implementing recommendations
directed toward improving its information technology, this audit examined
the following OIG reports that considered the FBI’s use and management of
IT:

     •   the 1990 report on the FBI’s automated data processing (ADP)
         controls,

     •   the 2002 report on the FBI’s IT investment management (ITIM),




                                   -5–
      •    five reports issued for FYs 1996 through 2001 on the FBI’s control
           environment over its financial IT systems,14

      •    three reports issued for FYs 2001 and 2002 specific to the FBI’s
           compliance with GISRA, and

      •    two special review reports issued in 1999 and 2002 that contained
           FBI IT-related recommendations.

       Although the FBI made measurable progress in implementing the
OIG’s IT recommendations contained in these reports (93 out of 148), it still
must take significant actions to achieve a successful IT program. For the
recommendations we examined, we assessed the status of the
recommendations (whether open or closed). To accomplish our assessment,
we reviewed the latest available correspondence between the OIG and FBI
regarding actions required to close recommendations, and made inquiries
with FBI officials.15 We considered recommendations with a closed status to
be implemented, based on the OIG’s judgment that the requirements of the
recommendation were met. As a result, we considered closed
recommendations to be an indicator of the FBI’s progress in addressing
deficiencies. Yet, while closed recommendations can be an indicator of
progress, the underlying deficiency may re-appear in future audits and
reviews.

      The following sections provide background information on these
reports and an assessment of the FBI’s progress toward implementing IT-
related recommendations contained in them.16

A. Report on the FBI’s ADP Controls

      In 1990, the OIG issued a report entitled, “The FBI’s Automatic Data
Processing General Controls.” The objectives of the audit were to determine
whether the ADP general controls: (1) had been designed according to
management direction and known legal requirements; and (2) were
operating effectively to provide reliability of, and security over, the data
being processed.


      14
           The OIG issued one report for FYs 1996 and 1997.
      15
           Unless otherwise noted, our review of correspondence was as of April 2003.
      16
           The OIG recommendations that we examine are listed in Appendix 2. Appendix 2
also shows the status of the recommendations (whether open or closed), and a summary of
the FBI’s progress toward implementing the recommendations.
                                           -6–
(1) Background on Report Findings

        This report found 11 major internal control weaknesses, many of which
still exist today. Specifically, the report found the following.

      1. The FBI’s phased implementation of its 10-year Long Range
         Automation Strategy, scheduled for completion in 1990, was
         severely behind schedule.

      2. The FBI’s Information Resources Management program was
         fragmented and ineffective, and the FBI’s Information Resources
         Management official did not have effective organization-wide
         authority.

      3. The FBI had not developed and implemented a data architecture.

      4. The FBI had not adequately involved top management in
         FBI Headquarters (FBIHQ) or the field offices in systems
         development through an Executive Review Committee.

      5. The FBI’s major mainframe investigative systems were labor
         intensive, complex, untimely, and non-user friendly and few
         special agents used these systems.

(2) FBI’s Progress in Taking Corrective Actions

      As discussed in more detail in the following section, the
December 2002 OIG report entitled, “The FBI’s Management of IT
Investments,” noted that many of the weaknesses identified in the
1990 report on ADP controls still existed 12 years later. Regarding the first
weakness, the FBI’s IT infrastructure is still severely outdated. Regarding
the second weakness, the FBI has completed several restructurings,
including one in February 2002 that was intended to give the Information
Resources Management program more authority over the divisions that
manage IT. Regarding the third weakness, the FBI is still developing an
enterprise architecture framework, which includes the technical or data
architecture. Regarding the fourth weakness, the FBI did not formally
establish IT investment review boards or committees until March 2002.
Regarding the fifth weakness, the FBI’s major investigative systems remain
labor intensive, complex, non-user friendly, and many special agents do not
use these systems.



                                    -7–
B. Report on the FBI’s IT Investment Management

      In December 2002, the OIG issued a report entitled,
“The FBI’s Management of IT Investments.” The objectives of the audit
were to: (1) determine whether the FBI was effectively managing its IT
investments; and (2) assess the FBI’s IT-related strategic planning and
performance measurement activities.

(1) Background on Report Findings

      The OIG concluded that the FBI had not effectively managed its IT
investments because it had not fully implemented the management
processes associated with successful IT investments. As discussed in the
ITIM report, the foundation for sound IT investment management includes
the following fundamental elements:

     •   defining and developing IT investment boards,

     •   following a disciplined process of tracking and overseeing each
         project’s cost and schedule milestones over time,

     •   identifying existing IT systems and projects,

     •   identifying the business needs for each IT project, and

     •   using defined processes to select new IT project proposals.

       The FBI failed to implement these critical processes. The FBI did not
have a fully-functional investment review board operation because the FBI
did not provide adequate resources for operating the IT investment boards.
Specifically, the OIG found insufficient evidence to demonstrate that:
(1) executives and line managers supported and carried out IT investment
board decisions and (2) board members understood the board’s policies and
procedures and were knowledgeable in using the IT investment approach
through training, education, or experience. Additionally, the FBI did not
provide ample time to adequately prepare and train IT board members prior
to initiating the pilot test of its recently developed ITIM process. This
resulted in inadequate training of board members and insufficient time to
develop IT proposals. For example, Technical Review Board members had
only three business days to review over 50 IT proposals prior to their first
board meeting.



                                    -8–
      The OIG also found that the FBI was not effectively overseeing its IT
projects. For example, while the FBI had issued project management
guidance, the guidance was not being followed consistently. The OIG
obtained differing answers from the FBI as to which document represented
the official project management guidance.

       Because the FBI had not fully implemented the critical processes
associated with effective IT investment management, the report concluded
that the FBI continued to spend hundreds of millions of dollars on IT projects
without adequate assurance that these projects would meet their intended
goals.

      The OIG concluded that these shortcomings primarily resulted from a
lack of management attention in the past to IT investment management.
However, the FBI has recognized that its past methods for managing IT
projects have been deficient, and the FBI committed to changing those
practices. In January 2002, the FBI developed a conceptual model for
selecting, controlling, and evaluating IT investments. The model seeks to
define a process that will promote a Bureau-wide perspective on IT
investment management, so that only IT projects with the highest
probability of improving mission performance are selected. Further, the
process is intended to provide the methods, structures, disciplines, and
management framework that govern how IT projects are controlled and
evaluated.

     In addition to developing a conceptual model for a new IT investment
management process, in early 2002 the FBI began a pilot test of the new
process for the selection of IT proposals. The OIG found that the FBI made
improvements during the pilot testing of the new selection process.
Pursuant to the new process, the FBI created three IT investment review
boards that reviewed IT proposals for technical compliance and “mission fit.”
These boards, comprised of the FBI Director, FBI executives, and FBI IT
managers, selected new IT proposals for inclusion in the FY 2004 budget
request.

      The OIG ITIM report concluded that while the FBI had made efforts to
improve its IT investment management practices, the FBI must take further
actions to ensure that it can implement the fundamental processes
necessary to build an IT investment foundation, as well as the more mature
processes associated with highly effective IT investment management.
These actions include:



                                    -9–
      •   fully developing and documenting its new IT investment
          management process – which is necessary to completely implement
          the activities defined in the FBI’s conceptual model;

      •   requiring increased participation from IT program managers and
          users – which is necessary to ensure senior management
          acceptance and foster understanding and institutionalization of the
          IT investment management process; and

      •   further developing the FBI’s project management and enterprise
          architecture functions – which is necessary to execute the control
          and evaluate components of the IT investment management
          process as well as advance its investment management capability.

       The ITIM report also included a review of the FBI’s management of
Trilogy, the FBI’s largest and most critical IT modernization project. The
report noted that the lack of critical IT investment management processes
contributed to missed milestones and led to uncertainties about cost,
schedule, and technical goals. Specifically, despite $78 million in additional
funding, the FBI missed its July 2002 milestone date for completing the
physical IT infrastructure upgrades to field offices, including new computer
hardware and networks. In addition, the user application (Virtual Case File)
component of Trilogy, recognized by FBI officials as the most important
aspect of the project in terms of improving agent performance, was at high
risk of not being completed within the funding levels appropriated by
Congress.

      The ITIM report also concluded that the FBI’s IT strategic planning and
IT performance measurement was inadequate. The FBI's strategic plan did
not include goals for IT investment management, and the FBI’s strategic
plan and performance plan were not consistent with the DOJ’s annual
performance plan.

(2) FBI’s Progress in Taking Corrective Actions

       The ITIM report contained 30 recommendations directed toward
improving the FBI’s management of its IT investments. Because the ITIM
report was issued in December 2002, too little time had passed (as of
April 2003) to enable us to assess the FBI’s progress in implementing the
recommendations identified in that report.




                                    - 10 –
       While FBI management has stated that improving technology is a high
priority, the ITIM report demonstrates that the FBI must take significant
action to implement a successful IT program that fully supports its mission.
It also demonstrates that a successful IT program depends on effective
management control processes. Without effective management controls in
place, major projects designed to improve technology, such as Trilogy, may
not deliver their intended benefits on schedule and on budget. The following
section discusses in more detail OIG findings and recommendations related
to the FBI’s control environment over its IT systems.

C.   Reports on the FBI’s Control Environment over its Financial IT
     Systems

      The OIG conducts annual financial statement audits of the FBI, with
the most recent report covering FY 2001. To support these financial
statement audits, the OIG performs detailed reviews of the FBI’s control
environment over its financial IT systems. Financial statement audits are
intended to play a central role in (1) providing more reliable and useful
financial information to decision-makers, and (2) improving the adequacy of
internal controls and underlying financial management systems.

      In FY 1996, the OIG began conducting annual reviews of the FBI’s
internal controls over IT systems using the GAO’s Federal Information
System Controls Audit Manual (FISCAM). The FISCAM describes the
computer-related controls that auditors should consider when assessing the
integrity, confidentiality, and availability of computerized data.

      The general methodology applied to assess computer-related controls
requires auditors and reviewers to evaluate:

      •   general controls at the entity or installation level;

      •   general controls as they are applied to the applications being
          examined, such as a payroll system or a loan accounting system;
          and

      •   application controls, which are the controls over input, processing,
          and output of data associated with individual applications.




                                      - 11 –
       According to the FISCAM, general controls are the policies and
procedures that apply to all or a large segment of an entity’s information
systems and help ensure their proper operation. Examples of primary
objectives for general controls are to safeguard data, protect computer
application programs, prevent system software from unauthorized access,
and ensure continued computer operations in case of unexpected
interruptions. The FISCAM provides six categories for assessing the
effectiveness of general controls. These categories are:

      •   entity-wide security program planning and management
          controls,

      •   access controls,

      •   application software development and change controls,

      •   system software controls,

      •   segregation of duty controls, and

      •   service continuity controls.

      The effectiveness of general controls is a significant factor in
determining the effectiveness of application controls. Without effective
general controls, application controls may be rendered ineffective by
circumvention or modification.

       Application controls are directly related to individual computerized
applications. These controls help ensure that transactions are valid, properly
authorized, and completely and accurately processed and reported. Both
general and application controls must be effective to help ensure the
reliability, appropriate confidentiality, and availability of critical automated
information.

      The nature and extent of audit procedures required to assess
computer-related controls varies depending on the audit objectives and
other factors. If general controls are not operating effectively, the
application-level controls are generally not tested. However, if an audit
objective is to identify control weaknesses with an application where more
employees may have the potential to take advantage of a weakness, an
assessment of the application controls may be appropriate.



                                      - 12 –
      During the course of these IT reviews, the OIG grouped the
vulnerabilities and weaknesses found into the following categories defined by
Government Auditing Standards and the American Institute of Certified
Public Accountants.

      •    Reportable Conditions — matters coming to the auditors’ attention
           that, in their judgment, should be communicated because they
           represent significant deficiencies in the design or operation of
           internal control, which could adversely affect the organization’s
           ability to record, process, summarize, and report financial data
           consistent with the assertions of management in the financial
           statements.

      •    Material Weaknesses — reportable conditions in which the design or
           operation of one or more of the internal control components does
           not reduce to a relatively low level the risk that misstatements
           caused by error or fraud in amounts that would be material in
           relation to the financial statements being audited may occur and
           not be detected by employees in the normal course of performing
           their assigned functions.17

      As of April 2003, the OIG had issued reports for FYs 1996 through
2001 that indicated consistent weaknesses in the FBI’s general and
application controls. However, we found that the FBI had made progress in
correcting deficiencies associated with the control environment over its
financial IT systems. Of the 105 recommendations contained in the detailed
reports supporting the financial statement audits from FYs 1996 to 2001, 83
have been implemented and closed, and 22 are still open. Of the 22 open
recommendations, 13 correspond to material weaknesses in the FBI’s IT
management controls, indicating that without compensating controls
there is an increased risk that material misstatements to the financial
statements will not be detected.

       We concluded that while the FBI has made some progress, it must
take further action to enhance its controls over its IT environment. As of
April 2003, material weaknesses and other control vulnerabilities remained
in each of the FISCAM general control areas, except for system software.
The following sections provide further details on each of these control
categories, the weaknesses noted in these control categories, as well as the
FBI’s progress toward correcting the weaknesses.

      17
          A third category of vulnerabilities are management letter comments, which the
OIG considers to be a reportable matter that does not meet the criteria of a reportable
condition or material weakness.
                                         - 13 –
(1) Entity-Wide Security Program Planning and Management
    Controls

      According to the FISCAM, an entity-wide process for security program
planning and management is the foundation of an organization’s security
control structure and a reflection of senior management’s commitment to
addressing security risks. The security program should establish a
framework and a continuing cycle of activity for assessing risk,
developing and implementing effective security procedures, and monitoring
the effectiveness of these procedures.

      According to the FISCAM, without a well-designed security program,
security controls may be inadequate; responsibilities may be unclear,
misunderstood, and improperly implemented; and controls may be
inconsistently applied. Such conditions may lead to insufficient protection of
sensitive or critical resources and disproportionately high expenditures for
controls over low-risk resources.

(a) Background of Entity-Wide Security Program Planning and
    Management Control Findings

      Reviews of the FBI’s general computer controls for FYs 1996 through
2001 included repeated deficiencies pertaining to entity-wide security
program planning and management controls. During the FY 1998 review,
the OIG reported that the Payroll System did not have a security plan. That
condition was reported again during the FY 1999 review. Additionally, the
OIG reported in FY 2000 that a security plan had been written, but it did not
address (1) specific rules of behavior, (2) training, and (3) the rules of the
system. Further, the OIG reported in FY 2001 that the plan did not address
an incident response capability, rules of behavior, and system
interconnection. These reports for FYs 1998 through 2001 also stated that
vulnerabilities existed because FBI management did not thoroughly review
the FBI’s “Payroll System Security Plan” that was written by a contractor.

      As of April 2003, the deficiencies associated with the FBI’s security
program plans were considered to be a material weakness. The OIG made
eight recommendations in the reviews for FYs 1996 through 2001 that were
directed toward correcting the identified security program planning and
management control vulnerabilities. Four of these recommendations were
repeated in more than one year’s report.



                                    - 14 –
(b) FBI’s Progress in Taking Corrective Actions

      Since FY 1996, the FBI has made progress in correcting the
vulnerabilities in its entity-wide security planning and management controls.
Six of the eight recommendations were closed as of April 2003, while the
other two remained open. Of the six recommendations that were
implemented, four were last reported by the OIG as material weaknesses,
while the other two were reportable conditions. The following table
summarizes how the open and closed recommendations correspond to the
reported vulnerability.

Summary of Open and Closed Entity-Wide Program Planning and
   Management Recommendations by Vulnerability Type

   Type of      Number of Open          Number of Closed    Total Number of
Vulnerability Recommendations           Recommendations    Recommendations
Material
Weakness                 2                        4               6
Reportable
Condition                0                        2               2
Management
Letter
Comment                  0                        0               0
         Total           2                        6               8
Source: OIG analyses as of April 2003

      By implementing six of the recommendations, the FBI improved its
entity-wide security program planning and management controls by:

      •   taking steps to clearly assign, identify, and communicate
          information security responsibilities (reportable condition);

      •   allocating sufficient resources to ensure the proper implementation
          of its Automated Data Processing and Telecommunications (ADPT)
          policy (reportable condition);

      •   ensuring that risk assessments of the FBI Headquarters Data
          Center, its other supporting systems, and all major applications are
          conducted as required by OMB Circular A-130 and by the FBI’s
          Manual of Investigative Operations and Guidelines
          (material weakness);

      •   ensuring that the systems and applications are accredited every
          three years (material weakness);


                                         - 15 –
     •    renewing the interim accreditation for general control systems and
          major applications (material weakness); and

     •    improving security and application controls by determining which of
          its systems are classified as “major applications”
          (material weakness).

      Despite the progress, additional corrective actions are necessary to
mitigate the remaining weaknesses. Specifically, the FBI must still ensure
that:

     •    the ADPT security plans are completed appropriately
          (material weakness), and

     •    the Payroll System Security Plan incorporates an incident response
          capability and rules of behavior (material weakness).

      Regarding the completion of ADPT security plans, the OIG first
recommended this action in the FY 1998 report, and has since repeated it in
the FY 1999, 2000, and 2001 reports because the FBI’s corrective actions to
date have been inadequate. Without an approved security plan, the
integrity of sensitive information maintained by the FBI is at risk of being
compromised.

(2) Access Controls

(a) Background of Access Control Findings

      Reviews of the FBI’s general computer controls for FYs 1996 through
2001 included repeated deficiencies pertaining to access controls. The
access control findings discussed in the FY 2001 report were considered to
be a material weakness of the FBI. In the reviews for FYs 1996 through
2001, the OIG made 42 recommendations that were directed toward
correcting the identified access control vulnerabilities.18 Ten of these
recommendations were repeated in subsequent reports.




     18
          These recommendations are listed in Appendix 2.
                                        - 16 –
      The OIG’s most recent report, covering FY 2001, stated that there
were two findings associated with access controls: (1) auditing controls over
the local area network (LAN), and (2) excessive access privileges granted to
systems programmers.

      1. Auditing Controls Over the Local Area Network

       The OIG’s review for FY 1998 reported that an automated tool was
used to assess the technical controls over the FBI’s Finance Division LANs.
The assessment found weaknesses in three areas of security: account
restrictions, system monitoring, and data confidentiality.

      In FY 1999, another automated tool was used to perform the
assessment of the technical controls over the FBI’s Finance Division LANs.
Although corrective action had been initiated on the prior weaknesses found,
the OIG reported that these weaknesses still existed during FY 1999. The
FY 2000 report stated that auditing remained disabled on the Finance
Division’s Windows NT and Novell NetWare environments.

      According to the OIG FY 2001 review, although FBI management had
indicated that corrective actions have been taken with respect to the
recommended settings, the conditions continued to be identified during the
annual financial statement audit process. The FY 2001 report further stated
that the cause for this weakness was the Finance Division LAN
administrators not fully implementing the FBI’s audit policy on logical access
controls on their Windows NT and NetWare LANs.

      2. Excessive Access Privileges Granted to Systems
         Programmers

      The FY 2001 report stated that access control profiles were not
configured to restrict access to sensitive database utilities and payroll files.
Specifically, the report noted instances where three systems programmers
had access to database utilities and had full control of the payroll and Oracle
datasets. The FY 2001 report further stated that the cause was due to the
FBI granting systems programmer profiles to database programmers, thus
providing them with unnecessary access to sensitive utilities. The OIG also
reported in FY 2001 that the FBI’s Systems Programming and Integration
Unit (SPIU) was in the process of developing a database programmer profile
that would provide access control to the needed datasets.




                                     - 17 –
(b) FBI’s Progress in Taking Corrective Actions

      The FBI has made progress in correcting the vulnerabilities in this
FISCAM category area since FY 1996. Of the 42 recommendations, 32 were
closed as of April 2003, while the other 10 remained open. Of the 32
recommendations that were implemented, 15 were last reported by the OIG
as material weaknesses, 13 were reportable conditions, and 4 were
management letter comments. The following table summarizes how the
open and closed recommendations correspond to the reported vulnerability.

 Summary of Open and Closed Access Control Recommendations by
                      Vulnerability Type

   Type of      Number of Open          Number of Closed    Total Number of
Vulnerability Recommendations           Recommendations    Recommendations
Material
Weakness                 5                        15              20
Reportable
Condition                5                        13              18
Management
Letter
Comment                  0                         4              4
         Total          10                        32             42
Source: OIG analyses as of April 2003

     By implementing 32 of the recommendations, the FBI improved its
access control environment. These improvements included:

      •   establishing procedures that require new users to immediately
          change their initial password (reportable condition);

      •   reviewing user access to sensitive system files
          (reportable condition);

      •   establishing and distributing procedures requiring local security
          administrators to periodically, at least quarterly, review employees’
          access privileges in relation to their current job functions
          (reportable condition);

      •   deleting users that no longer require access to the network or do
          not have a demonstrated need for their access (material
          weakness); and

      •   requiring all system administrators to change their passwords at
          least every 30 days (material weakness).
                                         - 18 –
     Despite the progress made, additional corrective actions are
necessary to mitigate the remaining weaknesses. Specifically, the FBI still
must ensure that:

      •   an entity-wide data assessment of network systems is periodically
          performed to determine where potential vulnerabilities exist
          (reportable condition);

      •   user authentication controls are strengthened by an active token for
          user authentication (reportable condition);

      •   computer security training is provided to users at least annually
          (reportable condition);

      •   policies and procedures for the FBI’s IT environments are complied
          with (material weakness); and

      •   the auditing function on the Finance Division’s Netware
          environment is enabled (material weakness).

      With respect to complying with policies and procedures and enabling
the auditing function, the OIG first recommended these actions in the
FY 1998 report, and has since repeated them in the FY 1999, 2000, and
2001 reports because the FBI’s corrective actions to date have been
inadequate. These actions are necessary to reduce the risk of processing
erroneous or fraudulent transactions, and ensure that there can be a
reconstruction of events if a system compromise or malfunction occurs.

(3) Application Software Development and Change Controls

       According to the FISCAM, application software is designed to support a
specific operation, such as payroll or loan accounting. Typically, several
applications may operate under one set of operating system software.
Establishing controls over the modifications of application software programs
helps to ensure that only authorized modifications are implemented.
Without proper application software development and change controls, there
is a risk that security features could be inadvertently or deliberately omitted
or “turned off” or that processing irregularities or malicious code could be
introduced.




                                     - 19 –
(a) Background of Software Development and Change Control
    Findings

       Reviews of the FBI’s general computer controls for FYs 1996 through
2001 included repeated deficiencies pertaining to software development and
change control findings. During the FY 2000 review, the OIG noted that
although the FBI had developed a change control manual in July 1997
entitled “The Architecture Change Management (ACM) Plan,” it did not
address changes to the computer-based application and its environment.
The OIG also reported in FY 2000 that project managers were not using the
ACM because the procedures set forth by the ACM did not reflect the FBI’s
current information technology architecture, including recent changes to
hardware, software, and firmware.

      During the FY 2001 review, the OIG noted that the FBI had
documented a change control process entitled, “Change Management Rules,
Standards and Procedures,” which replaced the ACM. However, this process
had not been implemented on the Property Management Application (PMA)
and the Payroll Application.

      According to the FY 2001 report, the failure to implement the change
management rules occurred because the FBI’s Quality Configuration and
Methods Unit (QCMU) did not enforce the Change Management Rules,
Standards, and Procedures. The FY 2001 report further stated that the Unit
plans to perform audits of divisions as a means of enforcing the procedures.
The OIG reported that this weakness increases the chance that two or more
independent changes to the system will conflict with one another and,
consequently, the system will not function properly.

      In the reviews for FYs 1996 through 2001, the OIG made eight
recommendations that were directed toward correcting the identified system
software development and change control findings.19 Four of these
recommendations were repeated in subsequent reports. As of the issuance
of the FY 2001 report, the deficiencies associated with the FBI’s software
development and change controls were considered to be a material
weakness.




     19
          These recommendations are listed in Appendix 2.
                                        - 20 –
(b) FBI’s Progress in Taking Corrective Actions

       Since FY 1996, the FBI has made progress in correcting the software
development and change control deficiencies. Six of the eight
recommendations pertaining to this FISCAM category were closed as of
April 2003, while the other two remained open. Of the six recommendations
that were implemented, three were last reported by the OIG as material
weaknesses, while the other three were management letter comments. The
following table summarizes how the open and closed recommendations
correspond to the reported vulnerability.

Summary of Open and Closed Application Software Development and
    Change Control Recommendations by Vulnerability Type

   Type of      Number of Open          Number of Closed    Total Number of
Vulnerability Recommendations           Recommendations    Recommendations
Material
Weakness                 1                        3               4
Reportable
Condition                0                        0               0
Management
Letter
Comment                  1                        3               4
         Total           2                        6               8
Source: OIG analyses as of April 2003

      By implementing six of the recommendations, the FBI improved its
software development and change controls by:

      •   developing and maintaining a configuration management process
          addressing changes to overall ADPT resources (management letter
          comment);

      •   expediting the implementation of the ACM methodology
          entity-wide (management letter comment);

      •   developing and implementing procedures to ensure all system
          problems are recorded (management letter comment);

      •   ensuring that the Information Resources Division enhances the ACM
          document to comprehensively address any type of change to the
          computer based application system and its environment (material
          weakness);



                                         - 21 –
     •   ensuring that the methodology set forth with the ACM is
         consistently applied to the Financial Management System
         application (material weakness); and

     •   enforcing the emergency change procedures stated within ACM
         (material weakness).

      Despite the progress made, additional corrective actions are necessary
to mitigate the remaining weaknesses. Specifically, the FBI must ensure
that:

     •   a policy is developed and implemented requiring periodic
         independent reviews of all major systems development activities at
         each major activity milestone (management letter comment); and

     •   an automated software management system is implemented in
         order to automate the transfer of all program code necessary to run
         a system (material weakness).

      Regarding the implementation of an automated software management
system, the OIG first recommended this action in the FY 1996/1997 report,
and has since repeated it in the FY 1998, 1999, and 2000 reports because
the FBI’s corrective actions to date have been inadequate. Change requests
maintained in multiple databases increase the risk that the FBI’s Information
Resources Division may not have the most current and accurate status of all
requests. Additionally, poor change controls can create risks that inaccurate
and unauthorized computer changes are implemented into the production
environment. This weakness could cause inaccurate data or loss of data to
the application.

(4) System Software Controls

      According to the FISCAM, system software is a set of programs
designed to operate and control the processing activities of computer
equipment. Generally, one set of system software is used to support and
control a variety of applications that may run the same computer hardware.
System software helps control and coordinate the input, processing, output,
and data storage associated with all the applications that run on a system.
Some system software can change data and program code on files without
leaving an audit trail.




                                   - 22 –
      Controls over access to and modification of system software are
essential in providing reasonable assurance that operating system-based
security controls are not compromised and that the system will not be
impaired. Inadequate controls over system software could enable
unauthorized individuals to circumvent security controls to read, modify, or
delete critical or sensitive information and programs; authorized users of the
system to gain unauthorized privileges to conduct unauthorized actions; or
system software being used to circumvent edits and other controls built into
application programs. Such weaknesses seriously diminish the reliability of
information produced by all of the applications supported by the computer
system and increase the risk of fraud and sabotage.

(a) Background on System Software Control Findings

      The FY 2001 review did not report any material weaknesses associated
with system software controls. The most recent vulnerabilities were noted in
the FY 2000 and FY 1999 reports.

(b) FBI’s Progress in Taking Corrective Actions

       The FBI has corrected the deficiencies identified in the detailed IT
reports for FYs 1996 through 2000. The reports for FYs 1996 through 2000
made seven recommendations that were directed toward correcting the
identified system software control vulnerabilities.20 All seven
recommendations pertaining to this FISCAM control category were closed as
of April 2003. Two of the recommendations were last reported by the OIG
as material weaknesses, one was a reportable condition, and the remaining
four were management letter comments. The following table summarizes
how the open and closed recommendations correspond to the reported
vulnerability.




      20
           These recommendations are listed in Appendix 2.
                                         - 23 –
          Summary of Open and Closed System Software Control
               Recommendations by Vulnerability Type

   Type of      Number of Open          Number of Closed    Total Number of
Vulnerability Recommendations           Recommendations    Recommendations
Material
Weakness                 0                        2               2
Reportable
Condition                0                        1               1
Management
Letter
Comment                  0                        4               4
         Total           0                        7               7
Source: OIG analyses as of April 2003

      By implementing the seven recommendations, the FBI improved its
system software control environment as of the issuance of the FY 2001 IT
report. Examples of these improvements include:

      •   performing an analysis to determine which libraries and associated
          members are necessary for proper system performance
          (management letter comment);

      •   implementing procedures to ensure that all system documentation
          is current and complete and that changes to documentation are
          reflected timely and disseminated to applicable individuals
          (management letter comment);

      •   implementing a system software control policy to ensure that
          system software is current (management letter comment);

      •   configuring the parameters in order to log all the associated
          transactions for the respective System Management Facility records
          (material weakness); and

      •   establishing and implementing a formal change control process for
          changes to system software (reportable condition).

      Regarding the implementation of a formal change control process, the
OIG first recommended this action in the FY 1996/1997 report, and then
repeated it in the FY 1998 and 1999 report before the FBI completed
adequate corrective action. While no open recommendations pertaining to
system software controls remain for the FYs 1996 through 2001 reports,
testing conducted for the FY 2002 review indicates additional vulnerabilities
exist with system software controls. The FBI’s ability to make lasting
                                         - 24 –
improvements to its IT control environment depends on a strong
commitment from management, rather than short-term fixes that represent
temporary progress.

(5) Segregation of Duty Controls

       According to the FISCAM, work responsibilities should be segregated
so that one individual does not control all critical stages of a process. For
example, while users may authorize program changes, programmers should
not be allowed to do so because they are not the owners of the system and
do not have the responsibility to see that the system meets user needs.
Similarly, one computer programmer should not be allowed to independently
write, test, and approve program changes. Often, segregation of duties is
achieved by splitting responsibilities between two or more organizational
groups. Dividing duties among two or more individuals or groups diminishes
the likelihood that errors and wrongful acts will go undetected because the
activities of one group or individual will serve as a check on the activities of
the other.

       Inadequately segregated duties increase the risk that erroneous or
fraudulent transactions could be processed, that improper program changes
could be implemented, and that computer resources could be damaged or
destroyed. The extent to which duties are segregated depends on the size
of the organization and the risk associated with its facilities and activities. A
large organization will have more flexibility in separating key duties than a
small organization that must depend on only a few individuals to perform its
operation. Smaller organizations may rely more extensively on supervisory
review to control activities. Similarly, activities that involve extremely large
dollar transactions, or are otherwise inherently risky, should be divided
among several individuals and be subject to relatively extensive supervisory
review.

(a) Background on Segregation of Duty Findings

      Reviews of the FBI’s general computer controls for FYs 1996 through
1998, and 2000 through 2001 included repeated deficiencies pertaining to
segregation of duty controls. The OIG made five recommendations in the
reviews for FYs 1996 through 1998 and 2000 through 2001 that were
directed toward correcting the identified segregation of duty vulnerabilities.21
Two of these recommendations were repeated in the FY 2001 report.



      21
           These recommendations are listed in Appendix 2.
                                         - 25 –
      The FY 2001 report stated that there were three findings associated
with segregation of duty controls pertaining to: (1) policies and procedures
for segregation of duties, (2) physical and logical controls for segregation of
duties, and (3) documented procedures for the FBI’s Payroll Application.

      1. Policies and Procedures for Segregation of Duties

      The OIG stated in its FY 2000 report that the FBI has not established
guidance, policies, procedures, or awareness of segregation of duties within
the divisions and units. The result is unclear segregation of job
responsibilities. This condition was also reported in the FY 2001 report.

      According to the FY 2001 report, unclear, inconsistent policies and a
lack of guidelines to separate the units created an environment where duties
occasionally overlap. As a result, it was difficult to define responsibilities
between the various units within the FBI.

      2. Physical and Logical Controls for Segregation of Duties

      The OIG reported in FY 2000 that application programmers had access
to both the test and production regions in the PMA and Payroll Application.
The FY 2001 report further stated that the application system administrator
for the PMA was appropriately granted program update access to the test
environment. However, the application system administrator also could
move programs back into the production environment. Specifically, the
Payroll Application programmers had the ability to move programs (source
code) from the library to the test environment, make changes, and move the
programs back into the quality assurance environment for testing.

      According to the FY 2001 report, inadequate segregation of duties
within the units and divisions caused application administrators and
programmers to inappropriately be granted access to both the test and
production regions.

      3. Documented Procedures for the Payroll Application

      The FY 2001 report stated that documented procedures do not exist
for the Payroll Application’s administrative functions. The report further
stated that this weakness is caused by the failure to require a consistent
administrative process for payroll-related functions by the Payroll
Administration and Processing Unit and the Personnel Staffing Unit.



                                     - 26 –
(b) FBI’s Progress in Taking Corrective Actions

       Since FY 1996, the FBI has made progress in correcting deficiencies
associated with segregation of duty controls. Four of the five
recommendations pertaining to this FISCAM category were closed as of
April 2003, while one remained open. Of the four recommendations that
were implemented, two were last reported by the OIG as a material
weakness, while the other two were management letter comments. The
following table summarizes how the open and closed recommendations
correspond to the reported vulnerability.

            Summary of Open and Closed Segregation of Duty
               Recommendations by Vulnerability Type

   Type of      Number of Open          Number of Closed    Total Number of
Vulnerability Recommendations           Recommendations    Recommendations
Material
Weakness                 1                        2               3
Reportable
Condition                0                        0               0
Management
Letter
Comment                  0                        2               2
         Total           1                        4               5
Source: OIG analyses as of April 2003

     By implementing four of the recommendations, the FBI improved its
segregation of duty controls by:

      •   assessing the need for additional personnel at the staff level within
          the data security administrative function
          (management letter comment);

      •   performing an analysis of the potential benefits of applying business
          process re-engineering and/or activitiy-based costing processes to
          current operations in order to enhance effectiveness, efficiency, and
          productivity (management letter comment);

      •   ensuring application administrators and programmers do not have
          direct update access to both test and production application
          programs (material weakness); and

      •   establishing guidance policies, procedures, and awareness of
          segregation of duties within the divisions and units
          (material weakness).

                                         - 27 –
      Despite the progress made, an additional corrective action is necessary
to mitigate the remaining weaknesses. Specifically, the FBI still must ensure
that the payroll-related functions are documented and maintained to ensure
the consistent application of the payroll-related administrative process
(material weakness).

      Because a segregation of duty deficiency was not corrected as of April
2003, the FBI is subject to the risk that erroneous transactions could be
processed, improper program changes could be implemented, and computer
resources could be damaged or destroyed.

(6) Service Continuity Controls

       According to the FISCAM, losing the capability to process, retrieve, and
protect information maintained electronically can significantly affect an
agency’s ability to accomplish its mission. For this reason, an agency should
have (1) procedures in place to protect information resources and minimize
the risk of unplanned interruptions, and (2) a plan to recover critical
operations should interruption occur. The procedures and plan should
consider the activities performed at general support facilities, such as data
processing centers and telecommunications facilities, as well as the activities
performed by the users of specific applications. To determine whether the
recovery plan will work as intended, the plan should be tested periodically in
disaster simulation exercises.

       Although often referred to as disaster recovery plans, controls to
ensure service continuity should address the entire range of potential
disruptions. These disruptions may include relatively minor interruptions,
such as temporary power failures, as well as major disasters, such as fires or
natural disasters, that would require reestablishing operations at a remote
location. If controls are inadequate, even relatively minor interruptions can
result in lost or incorrectly processed data, which can cause financial losses,
expensive recovery efforts, and inaccurate or incomplete financial or
management information. For some operations, such as those involving
health care or safety, system interruptions could also result in injuries or
loss of life.

       To mitigate service interruptions, it is essential that the related
controls be understood and supported by management and staff throughout
the organization. Senior management commitment is especially important
to ensure that adequate resources are devoted to emergency planning,
training, and related testing. In addition, all staff with service continuity

                                    - 28 –
responsibilities, such as staff responsible for backing up files, should be fully
aware of the risks if these duties are not fulfilled.

(a) Background on Service Continuity Control Findings

      Reviews of the FBI’s general computer controls for FYs 1996 through
2000 reported repeated deficiencies pertaining to service continuity controls.
The FY 2000 report identified two service continuity findings that were
included in the material weakness. During the FY 2001 review, the OIG did
not report any additional service continuity control deficiencies, although
certain previously reported material weaknesses remained. These
weaknesses are discussed below.

       The FY 2000 report stated that the FBI’s Contingency/Disaster
Recovery Plans did not address specific applications, were incomplete,
outdated, and did not include requirements such as testing scenarios and
plans. While the FBI’s Headquarters Data Center unit chief has attempted to
update the plans, the business process owners had not adequately defined
risks and critical recovery needs.

      Because of this deficiency, during an extended outage or disaster,
information system processing functions and vital business operations may
be damaged and unable to function since critical information and computer
resources are unavailable or inaccessible.

      Additionally, the OIG reported in FY 1999, and again in FY 2000, that
Data Center employees still had not been trained in disaster recovery,
emergency, and contingency procedures. Without proper knowledge of
procedures and priorities, the staff may be unable to perform critical duties
to resume operations.

      The reports for FYs 1996 through 2000 made 17 recommendations
that were directed toward correcting the identified service continuity control
vulnerabilities.22 Nine of these recommendations were repeated in
subsequent reports.

(b) FBI’s Progress in Taking Corrective Actions

      Since FY 1996, the FBI has made progress in correcting deficiencies
associated with service continuity controls. Of the 17 recommendations
pertaining to this FISCAM category, 15 were closed as of April 2003, while
the other two remained open. Of the 15 recommendations that were
      22
           These recommendations are listed in Appendix 2.
                                         - 29 –
implemented, 13 were last reported by the OIG as material weaknesses,
while the remaining 2 were management letter comments. The following
table summarizes how the open and closed recommendations correspond to
the reported vulnerability.

      Summary of Open and Closed Service Continuity Control
           Recommendations by Vulnerability Type

   Type of      Number of Open          Number of Closed    Total Number of
Vulnerability Recommendations           Recommendations    Recommendations
Material
Weakness                 2                        13              15
Reportable
Condition                0                        0               0
Management
Letter
Comment                  0                         2              2
         Total           2                        15             17
Source: OIG analyses as of April 2003

      By implementing 15 of the recommendations, the FBI improved its
service continuity control environment. Examples of these improvements
include:

      •   developing procedures to ensure that daily back-up tapes are
          stored in a fireproof vault that is secure and not located within the
          immediate Data Center (management letter comment);

      •   developing a comprehensive contingency plan that provides an
          entity-wide approach for the recovery of mission-critical data
          processing operation in the event of a disaster
          (material weakness);

      •   assigning responsibility to a team of individuals to ensure full back-
          up and recovery is performed (material weakness);

      •   ensuring all data personnel are informed when the ADPT
          contingency plan has been completed and approved and that
          employees have access to the plan (material weakness); and

      •   briefing Data Center personnel on emergency procedures and
          responsibilities through training sessions and by distributing written
          policies and procedures (material weakness).



                                         - 30 –
      Despite the progress made, additional corrective actions are necessary
to mitigate weaknesses previously reported in the FY 1999 and 2000
reports. The FBI still must:

      •   continue to update the ADPT contingency plan, addressing the
          weaknesses identified in the FY 1999 report (material weakness);
          and

      •   ensure that the Finance Division has developed and distributed to
          end-users, a contingency plan covering its information technology
          applications (material weakness).

       The OIG first recommended in the FY 1999 report that the
Finance Division develop and distribute a contingency plan covering its IT
applications. This recommendation was repeated in the FY 2000 report,
indicating that the FBI had not taken adequate corrective action. Without
effective service continuity controls, information system processing functions
and vital business operations may be damaged and unable to function during
an extended outage or disaster because critical information and computer
resources could be unavailable or inaccessible.

(7) Application Controls

       According to the FISCAM, application controls are the structure,
policies, and procedures that apply to separate, individual application
systems such as accounts payable, inventory, payroll, grants, or loans. An
application system is typically a collection or group of individual computer
programs that relate to a common function. Some applications may be
complex, comprehensive systems involving numerous computer programs
and organizational units, such as those associated with benefit payment
systems.

       Application controls help ensure that transactions are valid, properly
authorized, and completely and accurately processed by the computer.
These controls are commonly categorized into three phases of a processing
cycle:

      •   input — data is authorized, converted to an automated form, and
          entered into the application in an accurate, complete, and timely
          manner;




                                    - 31 –
      •    processing — data is properly processed by the computer and files
           are updated correctly; and

      •    output — files and reports generated by the application actually
           occur and accurately reflect the results of processing, and reports
           are controlled and distributed to the authorized users.

       According to the FISCAM, inadequate application controls can result in
invalid, incomplete, or improperly classified data. Additionally, there is a
heightened risk of inaccurate valuation or allocation of data
and unauthorized transactions.

(a) Background on Application Control Findings

       Reviews of the FBI’s general computer controls for FYs 1998 through
2001 included deficiencies in application controls. The FY 2001 report
reviewed the FBI’s PMA and reported two findings: excessive access
privileges were granted over the PMA, and input and processing control
weaknesses existed on the PMA. The FY 2001 report further stated that
these weaknesses occurred because the FBI lacked security oversight to
monitor access of all users, and the PMA did not have the appropriate input
and processing controls built in during its initial design. According to the
FBI, adding the controls to the application was not a priority due to limited
PMA resources.

      Because of these application control weaknesses, the PMA allowed
users to make unauthorized changes to property data, leading to errors in
the property computer application. In the reviews for FYs 1998 through
2001, the OIG made 15 recommendations to correct the identified
application control weaknesses.23

(b) FBI’s Progress in Taking Corrective Actions

       Since FY 1998, the FBI has made progress toward correcting the
identified weaknesses. Of the 15 recommendations pertaining to this
FISCAM category, 10 were closed as of April 2003 while the other
5 remained open. Of the ten recommendations that were implemented, nine
were considered reportable conditions, while one was a material weakness.
The following table summarizes how the open and closed recommendations
correspond to the reported vulnerability.



      23
           These recommendations are listed in Appendix 2.
                                         - 32 –
            Summary of Open and Closed Application Control
               Recommendations by Vulnerability Type

   Type of      Number of Open          Number of Closed    Total Number of
Vulnerability Recommendations           Recommendations    Recommendations
Material
Weakness                 2                        1               3
Reportable
Condition                3                        9               12
Management
Letter
Comment                  0                         0              0
         Total           5                        10             15
Source: OIG analyses as of April 2003

      By implementing ten of the recommendations, the FBI improved its
application control environment. Examples of these improvements include:

      •   defining, documenting, and communicating the roles and
          responsibilities for changing code to the Payroll Application
          (reportable condition);

      •   reviewing the list of users having access to code, determining which
          users should not be making changes in accordance with their
          duties and responsibilities, and revoking access to users who should
          not be making changes (reportable condition);

      •   ensuring that user access to payroll code is authorized,
          documented, and periodically reviewed (reportable condition);

      •   adhering to the FBI’s change management processes for
          applications and system software once formal processes have been
          developed (reportable condition); and

      •   reviewing the budgetary module of the Financial Management
          System (FMS), determining the cause of the application security
          weakness allowing the transfer of funds beyond an authorized
          balance, and taking the appropriate measures to ensure adequate
          controls are in place (material weakness).




                                         - 33 –
      Despite the progress made, additional corrective actions are necessary
to mitigate the remaining weaknesses. Specifically, the FBI must:

     •    coordinate with the General Services Administration to synchronize
          file formats so that data sent via Simplified Intergovernmental
          Buying and Collection will correctly interface with the FMS
          application (reportable condition);

     •    ensure the Federal Procurement Data Statistics (FPDS) screen is
          modified to include all the fields required for accurate procurement
          reporting (reportable condition);

     •    remove the additional access capability from any PMA user not
          authorized or required to have the additional access to complete
          their job function (material weakness); and

     •    develop and implement a plan to ensure: (a) input control
          weaknesses identified in the PMA are appropriately addressed, and
          (b) the risk associated with the processing control weaknesses in
          the PMA is mitigated to ensure that all property is entered and
          purchase order and property numbers are accounted for
          (material weakness).

      Inadequate input controls on the PMA can lead to errors in the
property data, cause time consuming physical inventory counts and
reconciliation, and require the Property Management Unit to correct errors in
the application data.

(8) Other Financial-Related IT Recommendations

      In the FY 1996/1997 detailed report issued in support of the Financial
Statement Audit, the OIG provided the FBI with three recommendations not
categorized by FISCAM general control areas.24 These recommendations,
reported as management letter comments, involved the Year 2000 issue,
strategic planning, and network encryption. All of the recommendations
were closed upon issuance of the final report. The following table
summarizes how the closed recommendations correspond to the reported
vulnerability.




     24
          These recommendations are listed in Appendix 2.
                                        - 34 –
      Summary of Open and Closed Non-FISCAM Category
         Recommendations by Vulnerability Type

   Type of      Number of Open          Number of Closed    Total Number of
Vulnerability Recommendations           Recommendations    Recommendations
Material
Weakness                 0                        0               0
Reportable
Condition                0                        0               0
Management
Letter
Comment                  0                        3               3
         Total           0                        3               3
Source: OIG analyses as of April 2003

      By implementing these recommendations, the FBI:

      •   provided to the FBI Director monthly briefings on the status of the
          Year 2000 project (management letter comment);

      •   developed a strategic plan that includes projects technology
          spending for a 3 to 5-year period (management letter comment);
          and

      •   evaluated encryption alternatives to reduce the risk of
          compromising sensitive information (management letter comment).

(9) Summary

       The FBI made progress in correcting deficiencies associated with the
control environment over its IT systems. Of the 105 recommendations
contained in the detailed reports supporting the financial statement audits
from FYs 1996 to 2001, 83 have been implemented and closed, and 22 are
still open. The following table summarizes the status of the FBI’s IT control
environment recommendations by category.




                                         - 35 –
           Status of the FBI’s Financial IT Control Environment
                 Recommendations by FISCAM Category

                         Number of Open         Number of Closed    Total Number of
 FISCAM Category        Recommendations         Recommendations    Recommendations

Entity-Wide Security
Program Planning and
Management Controls                 2                     6                8
Access Controls                    10                    32               42
Application Software
Development and
Change Controls                    2                     6                 8
System Software
Controls                           0                     7                 7
Segregation of Duty
Controls                           1                     4                 5
Service Continuity
Controls                           2                     15               17
Application Controls               5                     10               15
Other Financial-
Related IT Areas                    0                     3                3
                 Total             22                    83               105
Source: OIG analyses as of April   2003

      Of the 83 recommendations that have been implemented, 40 were
originally reported by the OIG as material weaknesses, 25 were reportable
conditions, and 18 were management letter comments. The following table
summarizes how the open and closed recommendations correspond to the
reported vulnerability.

             Summary of Open and Closed Recommendations
                         by Vulnerability Type
   Type of      Number of Open            Number of Closed     Total Number of
Vulnerability Recommendations             Recommendations     Recommendations
Material
Weakness                13                          40               53
Reportable
Condition                8                          25               33
Management
Letter
Comment                  1                          18               19
         Total          22                          83              105
Source: OIG analyses as of April 2003




                                           - 36 –
       By implementing 83 of the 105 recommendations, the FBI improved its
IT internal control environment. The FY 2001 report did not contain any
system software control deficiencies. The FBI also made progress toward
correcting deficiencies in entity-wide security program planning, access
controls, application software development, segregation of duties, service
continuity, and application controls.

     Despite the progress made, as of April 2003 uncorrected deficiencies
remained in the following general control areas:

      •   entity-wide security program planning and management;

      •   access controls; and

      •   application software development and change controls.

      In addition to these findings, other vulnerabilities existed in the
remaining FISCAM control areas (except for system software controls). The
FBI is at increased risk of failures in its financial management and computer
security functions. As a result, the FBI must take additional actions to
correct these deficiencies. Also, 13 of the 22 open recommendations related
to material weaknesses, which suggests that without compensating controls,
there is an increased risk that material errors in the financial statements will
not be detected.

      We noted that 30 of the open and closed recommendations were
repeated in subsequent reports. Further, many of the findings and
recommendations noted in these internal control reports of the FBI’s IT
environment were also repeated in audits of the FBI’s compliance with
GISRA. The following table summarizes the status of recommendations that
have been repeated in subsequent OIG reports.




                                     - 37 –
    Status of the FBI’s Financial IT Control Environment Repeated
                    Recommendations by Category

                         Number of Open        Number of Closed    Total Number of
                        Recommendations        Recommendations        Repeated
 FISCAM Category           Repeated               Repeated        Recommendations

Entity-Wide Security
Program Planning and
Management Controls                1                  3                   4
Access Controls                    3                  7                  10
Application Software
Development and
Change Controls                    1                  3                  4
System Software
Controls                           0                  1                  1
Segregation of Duty
Controls                           0                  2                  2
Service Continuity
Controls                           1                  8                  9
Application Controls               0                  0                  0
Other Financial-
Related IT Areas                    0                 0                  0
                 Total              6                24                 30
Source: OIG analyses as of April   2003

      Because of the uncorrected and repeated deficiencies identified in
these reviews, we believe that the FBI’s overall progress in implementing
financial-related IT internal control recommendations has been weak.
Moreover, FBI management had not consistently responded to OIG inquiries
about the status of corrective actions and the FBI lacked an effective
management process for tracking, responding to, and implementing
recommendations. However, during FY 2002, the OIG noted significant
improvement in the FBI’s responsiveness to responding to inquiries about
corrective actions. During FY 2002, the Inspection Division began
developing written policies and procedures designed to assist the FBI with its
audit follow-up responsibilities. Further, the Inspection Division created a
database to track audit recommendations, responses to the OIG and other
inquiries, and corrective actions. The FBI’s efforts to improve its audit
follow-up responsibilities are discussed in more detail later in this report.




                                          - 38 –
       While the Inspection Division has improved the FBI’s responsiveness to
audit recommendations, the ability of the FBI to correct many of its IT
deficiencies ultimately rests with the commitment and actions from senior
FBI management.

D. Computer Security Reports in Response to GISRA

       The FY 2001 Defense Authorization Act (Public Law 106-398) includes
Title X, subtitle G, “Government Information Security Reform Act.” GISRA
became effective on November 29, 2000, and amended the
Paperwork Reduction Act of 1995 by enacting a new subchapter on
“Information Security.” It required federal agencies to:

      •    perform an annual independent evaluation of their information
           security practices;

      •    ensure information security policies are founded on a continuous
           risk management cycle;

      •    implement controls that appropriately assess information security
           risks;

      •    promote continuing awareness of information security risks;

      •    continually monitor and evaluate information security policies;

      •    control effectiveness of information security practices; and

      •    provide a risk assessment and report on the security needs of the
           agencies’ systems, and include the report in their budget request to
           the Office of Management and Budget.

      Beginning in FY 2001, GISRA also required the OIG to independently
evaluate the DOJ’s information security program and practices. In addition
to the FISCAM, the OIG used standards provided by the National Institute of
Standards and Technology (NIST) as the basis for its audit approach.25




      25
          The NIST is a non-regulatory entity of the U.S. Department of Commerce.
According to the NIST, its mission is to develop and promote measurements, standards, and
technology to enhance productivity, facilitate trade, and improve the quality of life.

                                         - 39 –
      The NIST has issued guidance detailing the specific controls that
should be documented by federal agencies in their system security plan.26
The purpose of the security plan is to provide an overview of the security
requirements of the system and describe the controls in place or planned for
meeting those requirements. The system security plan also delineates
responsibilities and expected behavior of all individuals who access the
system.

      The NIST has separated the security plan controls into three major
control areas: (1) management controls, (2) operational controls, and
(3) technical controls. Within each of the three control areas, there are a
number of subordinate categories of controls. For example, technical
controls include password management, logon management, account
integrity management, and system auditing management.

      Management controls address security topics that can be characterized
as managerial. These controls represent techniques and concerns that
normally are addressed by management in the organization's computer
security program. In general, these controls focus on the management of
the computer security program and the management of risk within the
organization.

      Operational controls address security controls that are implemented
and executed by people (as opposed to systems). These controls are put in
place to improve the security of a particular system (or group of systems).
These controls often require technical or specialized expertise and rely upon
management activities as well as technical controls.

      Technical controls focus on security controls that the computer system
executes. These controls are dependent upon the proper functioning of the
system for their effectiveness. The implementation of technical controls,
however, always requires significant operational considerations and
should be consistent with the management of security within the
organization.

      For FY 2001, the OIG selected the FBI’s administrative and
investigative mainframe systems as two of four classified systems it
reviewed for the GISRA audit. For FY 2002, the OIG selected two FBI



       26
          This guidance is contained in the NIST Special Publication 800-18,
“Guide for Developing Security Plans for Information Technology Systems.”

                                          - 40 –
investigative applications, the Automated Case Support (ACS) system27 and
the DRUGX Interactive Trusted Guard,28 as two of three classified systems it
reviewed. The criteria used for findings and recommendations were based
upon the guidelines established by the NIST.

(1) FY 2001 GISRA Report

       In May 2002, the OIG issued its FBI GISRA audit report for
FY 2001. The objective of the audit was to determine DOJ compliance with
GISRA requirements. The OIG assessed whether adequate computer
security controls existed to protect DOJ systems from unauthorized use,
loss, or modification.

       The OIG found that since May 2002, the FBI made progress in
correcting some of the management, operational, and technical control
deficiencies that were identified in the report. Of the 23 recommendations
contained in the GISRA report, 6 have been implemented and closed, and
17 are still open.

      Despite the progress made, the FBI must take further action to
enhance these controls. As of April 2003, vulnerabilities remained in the
security controls of the FBI’s administrative and mainframe IT systems.
The following sections provide details on: (1) the background of the
FY 2001 GISRA report findings related to management, operational, and
technical controls; and (2) the FBI’s progress in taking corrective actions.




       27
           The FBI uses the ACS system, which resides on the FBI’s investigative mainframe,
to store information related to FBI investigations and cases, including criminal and
intelligence cases. The system allows FBI personnel to open and assign cases, set and
assign leads, store text of documents, index, search, and retrieve these documents.
       28
           The FBI uses the Drug Enforcement Administration (DEA) DRUGX application to
share information on current drug investigations. This application was a DOJ joint agency
effort involving the FBI and the DEA. The DRUGX Investigative trusted guard (DRUGX
trusted guard) permits FBI personnel interactive one-way access to the DRUGX application
via the FBI’s network. Access to the DRUGX application provides FBI investigative
personnel with query access to basic information concerning current drug investigations
being conducted by the FBI and the DEA. The purpose of a trusted guard system is to
provide a secure interconnection between two computer systems or networks, each of which
operates at a different classification level.

                                         - 41 –
(a) Background on Management Control Findings

      The FY 2001 GISRA report identified management control
vulnerabilities with enforcement of security policies, procedures, standards,
and guidelines governing the FBI’s administrative and investigative
mainframes. The report stated that although the FBI has established
security policies, procedures, standards, and guidelines, management failed
to ensure that they were performed and enforced. The report made six
recommendations that were directed toward correcting the identified
management control vulnerabilities.29

(b) FBI’s Progress in Taking Corrective Actions

       The FBI has made progress in correcting management control
weaknesses since the report was issued in May 2002. Two of the six
recommendations pertaining to management controls were closed, while the
other four remain open as of April 2003. The recommendations that were
closed related to (1) defining and documenting all criticality levels used to
classify applications, and (2) documenting a corrective action plan to
address the vulnerabilities identified in the risk analyses for the investigative
and administrative mainframe systems.30

      Despite the progress made, additional actions are necessary to
mitigate the remaining management control vulnerabilities. Specifically, the
FBI still must demonstrate that it is:

       •    distributing, obtaining, and maintaining signed statements of end-
            users’ acceptance of the Automated Information System
            Rules of Behavior for the investigative and administrative
            mainframe systems;

       •    ensuring that the Management of Investigative Operations and
            Guidelines (MIOG) and other FBI security policies reflect the
            evolving systems environment and are enforced;

       •    obtaining a full accreditation for the investigative and administrative
            mainframe systems from the FBI’s approving authority — a
            conditional accreditation should be unacceptable; and
       29
            These recommendations are listed in Appendix 2.
       30
           According to NIST Special Publication 800-18, information stored within,
processed by, or transmitted by a system provides for the value of the system and is one of
the major factors in risk management, making the criticality of system applications’
definitions essential.
                                          - 42 –
      •     conducting annual refresher computer training for all employees.

      The OIG in its FYs 1998 and 2000 reports on the FBI’s control
environment over its financial-related IT systems reported findings on
security policies, procedures, standards, and guidelines. Accordingly, the
OIG made recommendations in its FY 1998 (recommendation 15) and FY
2000 (recommendation 1) reports that were similar to the recommendations
made in the FY 2001 GISRA report. These recommendations remained open
as of April 2003. Additionally, four of the six GISRA recommendations
pertaining to management control issues remained open as of April 2003.
As a result, we believe that the FBI has not taken adequate corrective
actions to reduce the potential for sensitive information from being
compromised, lost, misused, or altered without authorization.

(c) Background on Operational Control Findings

      The FY 2001 GISRA report identified operational control vulnerabilities
with physical controls and system and network backup and restoration
controls. The report stated that vulnerabilities existed because FBI
management: (1) did not enforce physical controls at FBI Headquarters,
and (2) had not taken the necessary steps to identify priorities of the system
for restoration or to ensure Data Center personnel were aware of and tested
appropriate contingency planning and backup procedures. The report made
four recommendations directed toward correcting the identified operational
control vulnerabilities.31

(d) FBI’s Progress in Taking Corrective Actions

       The FBI has made progress in correcting operational control
weaknesses since the report was issued in May 2002. Two of the four
recommendations pertaining to operational controls were closed as of
April 2003, while the other two remain open. The recommendations that
were closed related to (1) restricting physical access to all wiring closets,
and (2) establishing optimal operating system capacities and implementing
procedures to alleviate the near capacity usage.




      31
           (U) These recommendations are listed in Appendix 2.
                                          - 43 –
      Despite the progress made, additional actions are necessary to
mitigate the remaining operational control vulnerabilities. Specifically, the
FBI must:

      •   document procedures for identifying and restoring mission-critical
          systems; and

      •   complete the production test exercise involving the transfer of
          production operations and applications to the backup site and
          training Data Center staff for this contingency control.

      The OIG in its FYs 1999 and 2000 reports on the FBI’s control
environment over its financial-related IT systems reported findings in system
and network backup and in restoration controls. Accordingly, the OIG made
seven recommendations in its FY 1999 report (recommendations 23 and
25-31) and three recommendations in its FY 2000 report (recommendations
13-15) that were similar to the recommendations made in the FY 2001
GISRA report. Because two of the four GISRA recommendations pertaining
to operational controls remained open as of April 2003, we conclude that the
FBI has not demonstrated that adequate corrective action was taken to
reduce the potential for failed restoration procedures or unexpected loss or
disruption of services.

(e) Background on Technical Control Findings

      The FY 2001 GISRA report identified technical control vulnerabilities
with password management, logon management, account integrity
management, system auditing management, and system patches. The
report stated that vulnerabilities existed because of the following.

      •   FBI management did not ensure that operating systems’ password
          settings were appropriate and DOJ security policies were being
          followed.

      •   FBI security management did not implement logon management
          controls or provide oversight to ensure DOJ and FBI security
          policies were followed.

      •   Budgetary constraints have prevented the FBI from being able to
          implement automated software change controls. Additionally, the
          FBI had not established procedures consistent with its security
          policy or updated them to reflect its current information technology
          environment.


                                     - 44 –
      •   Security parameters were not appropriately set to enable auditing.

      •   FBI management had not taken the necessary measures to ensure
          proper safeguards were in place to prevent unauthorized access,
          loss, or misuse to the system.

      The report made 13 recommendations that were directed toward
correcting the identified technical control vulnerabilities.

(f) FBI’s Progress in Taking Corrective Actions

       The FBI has made limited progress in correcting technical control
weaknesses since the report was issued in May 2002. Two of the
13 recommendations pertaining to technical controls were closed as of
April 2003, while the other 11 remained open. The closed recommendations
related to: (1) fully implementing and using the System Access Request
function to document user logon and verify that user access is
commensurate with assigned responsibilities, and (2) ensuring that the
communication carrier signals are not connected to unencrypted network
devices.

      Additional actions are necessary to mitigate the remaining technical
control vulnerabilities. Specifically, the FBI still must demonstrate to the
OIG that it is:

      •   implementing and enforcing DOJ password policies by
          re-setting and monitoring operating system settings accordingly,

      •   requiring that system administrators periodically review and delete
          all system accounts that have been unused for more than 90 days,

      •   enabling account lockout on all systems so that lockout occurs after
          three unsuccessful logon attempts,

      •   enforcing the use of the FBI’s Service Center as a centralized
          approval point to track all change requests from initiation through
          final disposition,

      •   implementing the format and content standards for information
          technology development and maintenance support test plans,




                                     - 45 –
      •    updating the Architecture Change Management Policy to reflect the
           FBI’s current information application and system software
           environment,

      •    documenting procedures to establish the supervisory review
           process of software change when deviations from normal
           procedures occur,

      •    enabling audits to capture the necessary system information to
           comply with DOJ policy, and

      •    applying manufacturer patches in a timely manner to prevent
           system compromise to all network operating systems.

       Additionally, the FBI disagreed with one OIG recommendation in the
report, and this recommendation was in an “unresolved” status as of
April 2003.32 The recommendation relates to enforcing DOJ security policies
and ensuring sufficient controls for FBI systems to operate.

       Findings with password management, logon management, account
integrity management, system auditing management, and system patches
were reported by the OIG in its FYs 1996 to 2000 reports on the FBI’s
control environment over its IT systems. Accordingly, the OIG made one
recommendation in its FY 1996/97 report (recommendation 18); three
recommendations in its FY 1998 report (recommendations 6, 8, and 21);
seven recommendations in its FY 1999 (recommendations 6, 8, 10,
17-19, and 35) and FY 2000 reports (recommendations 2-4, 7, 8, 16, and
17) that were similar to the recommendations made in the FY 2001 GISRA
report. Because 11 of the 13 GISRA recommendations remained open as of
April 2003, in our judgment the FBI has not demonstrated that adequate
corrective action was taken to reduce the potential for: (1) unauthorized
disclosure, unauthorized data modification, and the misuse and abuse of the
FBI’s automated resources; and (2) critical system data pertaining to
individual user accountability, reconstruction of system events, and problem
identification to be permanently lost.




      32
            Appendix 2 provides more detail on the FBI’s response to the unresolved
recommendation. Unresolved recommendations occur when the component disagrees with
all or part of the finding.
                                      - 46 –
(g) Summary

      The FBI made limited progress in correcting deficiencies reported in
the OIG FY 2001 GISRA audit. Of the 23 recommendations contained in the
report, 6 have been implemented and closed, and 17 remain open. The
following table summarizes the status of the FBI’s FY 2001 GISRA report
recommendations by NIST category.

    Status of the FBI’s FY 2001 GISRA Report Recommendations
                          by NIST Category

                        Number of Open    Number of Closed     Total Number of
   NIST Category       Recommendations    Recommendations     Recommendations
Management Controls               4              2                     6
Operational Controls              2              2                     4
Technical Controls               11              2                    13
                 Total           17             6                     23
Source: OIG analyses as of April 2003

      By implementing six of the recommendations, the FBI made
improvements to its computer security over its Headquarters and
Data Centers investigative and mainframe systems. These improvements
included: (a) defining and documenting all criticality levels used to classify
applications, (b) establishing optimal operating system capacities and
implementing procedures to alleviate the near capacity usage, (c) fully
implementing and using the System Access Request function to document
user logon and verify that user access is commensurate with assigned
responsibilities, and (d) ensuring that the communication carrier signals are
not connected to unencrypted network devices.

      Despite the progress made, as of April 2003 significant vulnerabilities
remained with management, operational, and technical controls. The OIG
assessed these vulnerabilities as high-to-moderate risk for the protection of
the FBI’s administrative and investigative mainframe systems from
unauthorized use, loss, or modification. Specifically, vulnerabilities remained
in the following areas:

      •   security policies, procedures, standards, and guidelines;

      •   system and network backup and restoration controls;

      •   password management;


                                     - 47 –
      •    logon management;

      •    account integrity management;

      •    system auditing management; and

      •    system patches.

       These vulnerabilities resulted from DOJ and FBI security management
not enforcing existing security policies, not developing a complete set of
policies to effectively secure the administrative and investigative
mainframes, and not holding FBI personnel responsible for timely correction
of recurring findings. Further, the report stated that the lack of timely and
effective oversight from DOJ and FBI management caused inconsistencies in
the implementation of security guidelines and resulted in a weakened
security infrastructure.

       The FY 2001 GISRA report stated that FBI management has been slow
in correcting deficiencies and implementing suggested corrective actions in
its systems’ environment. Since FY 1996, the OIG has reviewed the FBI’s
Headquarters Data Center computer systems’ general controls as part of the
FBI annual financial statement audit. Many of the vulnerabilities previously
reported to the FBI in reviews of general controls as part of the FBI financial
statement related reports from FYs 1996 through 2000 continued to exist
during the FY 2001 GISRA audit. As a result, the FY 2001 GISRA report
concluded that there was a lack of commitment and oversight from DOJ and
FBI management regarding corrective action on prior audit findings. This
lack of oversight caused inconsistencies in the implementation of security
guidelines and resulted in a weakened data security infrastructure. As
discussed in the following sections, some of these vulnerabilities were
reported again in the FY 2002 GISRA audits.

(2) FY 2002 GISRA Report on the ACS System

      In November 2002, the OIG issued the FY 2002 GISRA report on the
ACS system.33 The objective of the audit was to determine the DOJ’s
compliance with GISRA requirements. The ACS system was selected as one
of the subset of systems to be tested to determine the effectiveness of the
DOJ’s overall security program for FY 2002. In determining if the DOJ was

      33
          Because the FY 2002 GISRA report on the ACS system was issued in November
2002, we did not examine the FBI’s progress toward implementing the recommendations
contained in the report.

                                       - 48 –
compliant with GISRA requirements, the OIG assessed whether adequate
computer security controls existed to protect the ACS system from
unauthorized use, loss, or modification.

(a) Background on Report Findings

      The FY 2002 GISRA report on the ACS system found the following
improvements or satisfactory operations in the ACS system’s information
security.34

       •    The overall policy for change control dictates the creation of a
            Change Control Board, which is an important control in ensuring
            that changes made to the system are approved.

       •    Security requirements are included in each requirement document
            to ensure that security is reviewed and integrated into the initial
            stages of system development.

       •    The investigative mainframe applications, including the
            ACS system, have been certified and accredited in accordance with
            the National Information Assurance Certification and Accreditation
            Process.

       •    Record counts are used within the Investigative Case Management
            system to track cases and investigative leads.35

       •    The FBI has developed a system security plan for the investigative
            mainframe applications that has been approved by
            management and includes the elements identified in the
            NIST Publication 800-18.

       •    Effective procedures are in place requiring re-investigations (which
            strengthen personnel security) to be performed in a timely manner.

       •    Controls are in place over the security of personally identifiable
            information.



       34
           These improvements or satisfactory operations relate to specific security criteria
set forth by GISRA. As a result, these improvements are not indicative of the overall
functionality of the ACS system, which is discussed later in this report.
       35
            Investigative Case Management is a case management system within the ACS
system.
                                           - 49 –
      •   A help desk is in place for the ACS system users.

      •   The IT contingency plan for the FBI Headquarters Data Center
          identifies critical data files and operations. The plan also identifies
          the frequency of data backups and includes procedures to allow the
          FBI to continue essential functions if information technology support
          is interrupted.

      •   The FBI’s investigative mainframe applications use the mainframe
          security software to control password derivations, which complies
          with DOJ Order 2640.2D.

      •   The FBI has an up-to-date network diagram of the FBI LAN rings on
          which the investigative mainframe resides, which houses the ACS
          system.

      •   An automated system is used to request and approve access to the
          ACS system. This system has automated capabilities for requesting
          access and ensuring that approvals are received before access is
          granted. In addition, this system automatically adds requests into
          a queue for the access administrator’s workload, thereby
          minimizing the time required to turn these requests around and
          eliminating the possibility of lost requests.

       However, security controls needed improvement to protect the ACS
system from unauthorized use, loss, or modification. Specifically, the report
identified vulnerabilities in 6 of the 17 control areas, including life cycle,
personnel security, security awareness, training and education, incident
response capability, and logical access. The report stated that similar
technical control vulnerabilities were noted in the FY 2001 GISRA audit.

     These vulnerabilities occurred because the managers of the
ACS system management did not consistently apply DOJ and FBI policies
and procedures.

(b) FBI’s Progress in Taking Corrective Actions

       The FY 2002 GISRA report on the ACS system made eight
recommendations directed toward correcting the noted deficiencies. As of
April 2003, six of the recommendations were open, and two were closed.
Although we did not formally assess the FBI’s progress in taking corrective
actions given the relatively recent issuance of the report, the report stated
that it is critical for the FBI to take immediate corrective actions on the

                                     - 50 –
recommendations pertaining to technical control vulnerabilities because of
similar vulnerabilities noted in prior audits. As a result, the FY 2002 GISRA
report on the ACS system, like the FY 2001 GISRA report, noted repeated
deficiencies in general control areas. Specifically, vulnerabilities were noted
within password management, logon management, account integrity
management, system auditing management, and system patches. The
report further stated that, if not corrected, these security vulnerabilities
threaten the ACS system and its data with the potential for unauthorized
use, loss, or modification.

(3) FY 2002 GISRA Report on the DRUGX Trusted Guard

      In November 2002, the OIG also issued the FY 2002 GISRA report on
the DRUGX Interactive Trusted Guard (DRUGX Trusted Guard).36 The
objective of the audit was to determine the DOJ’s compliance with the
requirements of GISRA. The DRUGX Trusted Guard was selected as one of
the subset of systems to be tested to determine the effectiveness of the
DOJ’s overall security program for FY 2002. In determining if the DOJ is
compliant with GISRA requirements, the OIG’s contractor assessed whether
adequate computer security controls existed to protect the DRUGX Trusted
Guard from unauthorized use, loss, or modification.

(a) Background on Report Findings

      The FY 2002 GISRA report on the DRUGX Trusted Guard found
improvements or satisfactory operations in the DRUGX Trusted Guard’s
information security. Specifically, improvements or satisfactory operations
included:

       •    The FBI has developed a comprehensive system security plan
            for the DRUGX Trusted Guard system that follows the
            NIST Special Publication 800-18 and contains required data
            concerning existing controls of the system and the environment.

       •    Effective procedures are in place requiring re-investigations to be
            performed in a timely manner.

       •    Controls are in place over the security of personal information.


       36
         Because the FY 2002 GISRA report on the DRUGX Trusted Guard was issued in
November 2002, close to the issuance of this report, we did not examine the FBI’s progress
toward implementing the recommendations contained in the report.

                                         - 51 –
      •   The connection between the FBI’s network and the DRUGX
          application is completed through a trusted guard, providing a
          secure interconnection between two computer systems or networks.

      •   No printers are attached to the DRUGX Trusted Guard, which
          eliminates the possibility of printed output falling into unauthorized
          hands.

      •   All damaged media from the DRUGX Trusted Guard is destroyed
          and an associated electronic communication is created to account
          for that media.

      •   The FBI has a current network diagram of the FBI LAN rings, to
          which the DRUGX Trusted Guard is connected.

       However, security controls needed improvement to protect the DRUGX
Trusted Guard from unauthorized use, loss, or modification. Specifically, the
OIG found security vulnerabilities in 8 of the 17 control areas, including
security controls, personnel security, contingency planning, security
awareness, training and education, incident response capability,
identification and authentication, logical access, and audit trails.

      These vulnerabilities occurred because FBI management did not
enforce the documented policies and procedures for the DRUGX Trusted
Guard. Additionally, FBI management did not always ensure that IT policies
and procedures were implemented.

(b) FBI’s Progress in Taking Corrective Actions

      The FY 2002 GISRA report on the DRUGX Trusted Guard made
12 recommendations directed toward correcting the noted deficiencies. As
of April 2003, eight of the recommendations were open and four were
closed. Although we did not formally assess the FBI’s progress in taking
corrective actions, the security vulnerabilities documented in this report, if
not corrected, threaten the DRUGX Trusted Guard and its data with the
potential for unauthorized use, loss, or modification.

(4) Summary of Reports on the FBI’s Compliance with GISRA

     As stated in the sections above, the three GISRA reports issued by the
OIG related to FBI systems have found vulnerabilities associated with
management, operational, and technical controls. Additionally, the FY 2001
GISRA report stated that the FBI has been slow to take corrective actions

                                     - 52 –
since many of these vulnerabilities were previously reported in annual audits
of general controls. Further, the FY 2002 GISRA report on the FBI’s ACS
system stated that similar vulnerabilities continued.

       The FY 2002 GISRA reports on the FBI’s ACS and
DRUGX Trusted Guard systems stated that within the FBI, only the
Inspection Division tracked remedial actions to reported computer security
vulnerabilities. With the exception of audits performed by the OIG, the FBI’s
Inspection Division did not track the ACS or DRUGX systems’ vulnerabilities
identified in other audits and the corresponding corrective actions. Further,
these reports stated that the Inspection Division did not receive any other
audit results or reviews outside of the OIG audits and therefore has limited
knowledge of other reported vulnerabilities.

      According to the FY 2002 GISRA reports, without an effective tracking
system, the FBI is unable to identify, assess, prioritize, and monitor the
progress of corrective efforts for security weaknesses found in programs and
systems. As a result, the FY 2002 GISRA reports recommended that the FBI
determine the responsible organization for tracking and maintaining all
vulnerabilities identified during audits and reviews. In addition, the reports
recommended that the FBI develop a mechanism for tracking the
vulnerabilities and the status of the associated corrective actions resulting
from all IT audits and reviews.

       During FY 2002, the Inspection Division began developing written
policies and procedures designed to assist the FBI with its audit follow-up
responsibilities. To help in this effort the Inspection Division created a
database to track: (1) recommendations; (2) responses to OIG, GAO, and
other inquiries; and (3) the status of corrective actions. However, for
system audits, the FBI has reported that its Information Assurance Section
has taken steps to centrally manage the status of vulnerabilities and
corrective actions. We believe that the FBI should consider using the
Inspection Division to oversee all recommendations, including those
generated from system audits. The FBI’s recent actions to improve its audit
follow-up responsibilities are discussed in more detail later in this report.

E. Reports on OIG Special Investigations of the FBI

      Since 1998, the OIG has issued the following two special investigation
reports containing FBI IT or document management related
recommendations:



                                    - 53 –
      •    the 1999 report on the DOJ’s Campaign Finance Task Force
           investigation (Campaign Finance); and

      •    the 2002 report on the FBI’s investigation into the related
           production of documents in the Oklahoma City Bombing case
           (McVeigh).

       These reports considered the policies and procedures related to the
management of information and documents within the FBI, the
dissemination of information to organizations outside the FBI, and the
effectiveness of information technology utilized by the FBI. The reports cited
deficiencies in the FBI’s IT and document management and contained
20 IT-related recommendations designed to correct IT deficiencies.37 The
following table summarizes the status of the recommendations issued to the
FBI.

      Status of the FBI’s Special Investigation Recommendations
                                  by Report

                     Number of Open       Number of Closed      Total Number of
  Report Name       Recommendations       Recommendations      Recommendations
Campaign Finance
Report                        5                    0                    5
McVeigh Report               11                    4                   15
            Total            16                    4                   20
Source: OIG analyses as of April 2003

      We found the FBI’s current and planned corrective actions, including
the implementation of Trilogy, have the potential to address 16 of the
20 recommendations that we examined from the Campaign Finance and
McVeigh reports. However, the ultimate success of Trilogy will not be
determined until at least June 2004 when the final phases of the project are
scheduled for completion.

       The following section provides background information on Trilogy,
since its successful completion is critical to not only addressing OIG
recommendations but also the future of the FBI’s IT program.




      37
         We included recommendations related to document management because FBI
documents are generally produced electronically or managed in automated databases and
systems.
                                        - 54 –
(1) Background on Trilogy

      Trilogy is an IT modernization project designed to upgrade the FBI’s:
(1) hardware and software or Information Presentation Component (IPC),
(2) communication networks or Transportation Network Component (TNC),
and (3) User Application Component (UAC). The IPC and TNC upgrades will
provide the physical infrastructure needed to run the applications from the
UAC.

     •   The IPC refers to how users see and interact with information. The
         IPC provides new desktop computers, servers, and commercial-off-
         the-shelf office automation software, including a web-browser and
         e-mail to enhance usability by the agents.

     •   The TNC is the complete communications infrastructure and support
         to create, run, and maintain the FBI’s networks. The TNC includes
         high capacity wide-area and local-area networks, authorization
         security, and encryption of data transmissions and storage.

     •   The UAC is intended to replace five of the FBI’s primary
         investigative applications in order to reduce agents’ reliance on
         paperwork and improve efficiency. Through the creation of the
         Virtual Case File (VCF), a web-based “point-and-click” case
         management system, agents are expected to have multi-media
         capability that will allow them to scan documents, photos, and
         other electronic media into the case file.

      In November 2000, Congress appropriated $100.7 million for the first
year of the $379.8 million Trilogy project, which was to be funded over a 3-
year period from the date contractors were hired. The $100.7 million was a
combination of new program funding and a reprogramming of base
resources. When the FBI requested contractor support for Trilogy, it
combined the IPC and TNC portions for continuity because both portions
encompass physical IT infrastructure enhancements. By direction of the DOJ
Procurement Executive, the TNC/IPC and the UAC contracts were awarded to
two different contractors. The contractor for the IPC and TNC portions was
hired in May 2001, and the originally-scheduled completion date for these
components was May 2004. A different contractor was hired in June 2001 to
complete the UAC portion of Trilogy by June 2004.

     After the September 11, 2001, terrorist attacks, the urgency of
completing Trilogy increased, and the FBI explored options to accelerate the
deployment of all three components of Trilogy. The FBI informed Congress

                                    - 55 –
in February 2002 that with an additional $70 million, the FBI could
accelerate the deployment of Trilogy. This acceleration would include
completion of the IPC/TNC phase by July 2002 and rapid deployment of the
most critical analytical tools included as part of the UAC.

      In January 2002, Congress supplemented the FY 2002 Trilogy budget
with $78 million to expedite the deployment of all three components.38 This
supplemental appropriation increased the total funding of Trilogy from
approximately $380 million to $458 million. Even with these additional
funds, the FBI missed its July 2002 milestone date for completing the “Fast
Track” portion of the IPC and TNC phases.39

      In April 2003, the FBI Director reported to the Senate Appropriations
Committee that over 21,000 new desktop computers and nearly 5,000
printers and scanners have been deployed throughout the FBI (IPC phase).
Additionally, the FBI reported that it completed the Trilogy Wide Area
Network (TNC phase) on March 28, 2003. The new network, which has been
deployed to 622 sites, provides increased bandwidth and three layers of
security. According to the FBI, the network is highly expandable, so
additional capacity or even additional sites can be added as needed. This
network replaces the FBI’s antiquated local area and wide area networks,
enabling FBI personnel to transmit data at much greater speeds. Further,
the FBI expects to use the network to transport the Investigative Data
Warehouse, which will link 31 FBI databases for single-portal searches and
data mining. Also, the network lays the foundation for improved information
sharing with partner agencies and other new applications, such as the VCF.

       The VCF will serve as the backbone of the FBI’s information systems,
replacing the FBI’s paper files with electronic case files that include multi-
media capabilities. The FBI expects to deploy the VCF in three releases.
The initial VCF release will consolidate data from the current ACS and
IntelPlus systems and has a targeted completion date of December 2003.
This release is intended to allow different types of users, such as agents,
analysts, and supervisors, to access from their desktop computers a variety
of information that is specific to their individual needs. This VCF release is
also intended to enhance the FBI’s capability to establish and track case
leads, index case information, and with digital signatures move document
drafts more quickly through the approval process.


      38
        The $78 million is comprised of the $70 million that FBI requested for accelerated
deployment, plus $8 million for contractor support.
       39
            The FBI referred to the accelerated deployment of Trilogy as the “Fast Track.”
                                           - 56 –
      The second and third releases are intended to install three other
investigative applications into the VCF: the Integrated Intelligence
Information Application (IIIA), Telephone Application, and Criminal Law
Enforcement Application. These releases have a targeted completion date of
June 2004 and are intended to provide agents with audio/video streaming
capability and content management capability. According to the FBI,
content management should help agents access information from the FBI’s
data warehouse, based on a single query from all of the FBI’s systems.

       The OIG ITIM report, issued in December 2002, stated that the VCF,
which FBI officials have stated is the most important aspect of the Trilogy
project in terms of improving agent performance, was at high risk of not
being completed within the funding levels appropriated by Congress. FBI
officials confirmed the OIG’s assessment in January 2003 when they told us
that an additional $138 million was needed to complete Trilogy, bringing the
total project cost to $596 million.40 Despite the cost overruns, FBI officials
stated that they still expect to deliver the first release of VCF in
December 2003, and that funding for the second and third releases of the
VCF has been secured.

       The following sections provide further details on the IT and document
management related deficiencies noted in Campaign Finance and McVeigh
reports, as well as an assessment of the how the VCF will address these
deficiencies.

(2) Campaign Finance Report

       In July 1999, the OIG issued a report entitled “Handling of FBI
Intelligence Information Related to the Justice Department’s Campaign
Finance Investigation” (Campaign Finance). In response to a request by the
Attorney General, the OIG reviewed the FBI’s practices for disseminating
intelligence information associated with the Campaign Finance Task Force
(Task Force) investigation.

      The report noted deficiencies in the use and maintenance of the FBI’s
computer database systems, including: the Task Force’s lack of familiarity
with the FBI’s databases, the FBI’s practices and policies that limited the
usefulness of the databases, the training of FBI personnel on the
ACS system, and the entry of foreign names into the FBI’s databases. These
findings highlighted the need for FBI and Task Force personnel to be familiar
with information search techniques within the FBI’s databases, how

      40
           Of this amount, $57 million was needed for the VCF.

                                          - 57 –
information should be entered into the databases in order to take advantage
of search capabilities, and potential errors in data entry to ensure that all
possible searches within the databases are conducted. Of the Campaign
Finance report’s 18 recommendations, 5 pertained to the IT-related
deficiencies.41 These five recommendations included:

       A. revising the FBI’s Manual of Administrative Operations and
          Procedures (MAOP) to require more comprehensive indexing of
          names appearing in any FBI document and requiring that all
          documents be uploaded into the Electronic Case File database
          (Recommendation IV.A),

       B. training agents who are principally responsible for the information
          that is entered into the ACS system
          (Recommendation IV.B),

       C. making agents responsible for determining what information is
          entered into the IIIA 42 system (Recommendation IV.C),

       D. ensuring that any task force using the FBI’s databases should
          obtain at least a fundamental appreciation for their operation
          (Recommendation IV.D), and

       E. ensuring that the FBI’s database operators are conversant with the
          format of Chinese and other foreign names
          (Recommendation IV.E).

(a) Recommendation IV.A

       Regarding the uploading of documents, the FBI issued ECs in
July 2000 and June 2002 that required all e-mails and ECs to be uploaded
into the ACS system, unless otherwise prohibited by their sensitive nature.
Additionally, FBI officials stated that with the VCF, most documents will have
to be uploaded since the VCF will contain all official records and case files,
except for Top Secret/Sensitive Compartmented Information (SCI)
information.43 As a result, FBI officials stated that agents will no longer be

       41
        These five recommendations, along with a summary of the FBI’s responses to the
recommendations, are listed in Appendix 2.
       42
           According to the FBI, the IIIA is a real-time collection system that houses over 20
million records to support the counterintelligence and counterterrorism programs.
       43
         The FBI is currently working on a TS/SCI network, but at this time the VCF is only
approved up to the Secret level.
                                           - 58 –
able circumvent the case management system by not uploading documents.

      Rather than revising the MAOP, the FBI is implementing alternative
corrective action by ensuring that the VCF will facilitate the comprehensive
indexing of names appearing in FBI documents. FBI officials stated to us
that the VCF will provide indexing on various web-based documents by
sorting data fields into searchable databases. The index of data fields,
except for narrative fields, will be automatically created once the document
is approved and entered into the VCF. Agents and analysts can then search
the index of data fields by using search screens or viewing the serialized
document. Because the first release of the VCF is not scheduled for
completion until December 2003, this recommendation remains open.

(b) Recommendation IV.B

       FBI officials said that they increased the ACS system training for
veteran agents. According to the FBI, since 1999 over 400 veteran and
2,300 new agents received training on the ACS system. However, it is not
clear whether the ACS training provided to veteran agents has been
adequate since this represents less than 25 percent of all FBI agents.
Additionally, we were unable to assess the FBI’s web-based training for the
VCF since it will not occur until October and November 2003. As a result,
this recommendation remains open.

(c) Recommendation IV.C

      According to the FBI, during 2000 several initiatives were undertaken
to make agents responsible for determining what information is entered into
the IIIA system and improving the accuracy of information in the IIIA
system. These initiatives included:

     •   expanding the amount of data electronically transferred from the
         ACS to the IIIA systems;

     •   establishing a more user-friendly IIIA search interface;

     •   using a macro to collect accomplishment information electronically;

     •   automating the indexing, serialization, and entry of certain data;

     •   improving the oversight provided to the uploading of particular
         surveillance logs; and


                                    - 59 –
      •   automating the selection of approved cryptonyms
          (codenames/codewords).

       In addition to these improvements, the FBI stated that the IIIA system
will ultimately be replaced by the second and third releases of the VCF.
Further changes are planned for the IIIA system since the VCF development
is not based on a system-by-system replacement per se, but rather a re-
engineering of business practices and policies. As a result, certain sub-
systems and data sets will be retired, while others will be transferred to the
VCF. The FBI is continuing to schedule and prioritize the functional
components that must be integrated into the VCF for each delivery through
June 2004. Because the second and third releases of the VCF are not
scheduled for completion until June 2004, this recommendation remains
open.

(d) Recommendation IV.D

       According to the FBI, appropriate training will be conducted whenever
a relevant task force is created. In May 2003, the FBI said that the VCF
training plan includes all Bureau task force members who will have access to
the VCF application. To prepare for the VCF training scheduled in October
and November 2003, the FBI is assessing its FBI employees’ basic computer
literacy skills. This assessment identifies employees in need of additional
computer skills so that the necessary supplemental training can be taken
prior to the scheduled VCF training. Because training on the VCF has not yet
taken place, this recommendation remains open.

(e) Recommendation IV.E

       The FBI said that it made enhancements to the IIIA system in
July 2000 so that variations of a name are identified during a search.
Additionally, FBI officials told us that on May 3, 2002, the
Language Training and Assessment Unit (LTAU) announced a project to
adopt and implement standards for the uniform “Romanization” of foreign
personal and place names. Also in May 2002, the LTAU began work on
implementing standardization systems for “Romanizing” Arabic by offering
training to all applicable FBI employees. According to the FBI, by the end of
the second quarter of FY 2003, 371 FBI employees had received training in
Arabic “Romanization,” while classes continue to be held. Regarding Chinese
“Romanization,” the LTAU announced in September 2002 that training on
Chinese “Romanization” was being offered to all applicable FBI employees.
As of June 9, 2003, a total of 80 FBI employees had been trained in Chinese
“Romanization,” while classed continue to be held. Further, the LTAU has

                                    - 60 –
been working with the VCF project management team to create a keyboard
for the “Romanization” of names.

     In addition to training, the FBI expects the VCF to help database
operators apply foreign names to searches within databases. For example,
the VCF will allow the addition of standard telegraphic code (STC) for Asian
names, Unicoded44 for other foreign names, and it will deploy a name search
engine that incorporates variations on names. Because the first release of
the VCF is not scheduled for completion until December 2003, this
recommendation remains open.

(f) Summary

       Despite the FBI’s progress in taking corrective actions, a more
comprehensive enterprise-wide solution to the underlying deficiencies will
not occur until the VCF is implemented. As a result, some of these
deficiencies have gone uncorrected for over three years.

(3) McVeigh Report

       In March 2002, the OIG issued a report entitled, “An Investigation of
the Belated Production of Documents in the Oklahoma City Bombing
Case.” The McVeigh report concluded that the belated production of case-
related documents resulted in part from the following long-standing
problems at the FBI: (1) antiquated and inefficient computer systems,
(2) inattention to information management, and (3) inadequate quality
control systems. The report further stated that the FBI’s troubled
information management systems were likely to have a continuing negative
effect on the FBI’s ability to properly investigate crimes.

      The McVeigh report stated that the FBI had not given sufficient
attention to correcting deficiencies in information management and the ACS
system. The IT-related findings of the report showed that the ACS system
was extraordinarily difficult to use, had significant deficiencies, and was not
suitable for the FBI in the 21st century. The report noted that inefficiencies
and complexities within the ACS system, combined with the lack of a true
information management system, contributed to the FBI’s failure to provide
hundreds of investigative documents to the defendants in the Oklahoma City
bombing case. To overcome these problems, the report made
recommendations on how future information systems should be developed.

      44
         Unicode provides a unique number for every character. Fundamentally,
computers just deal with numbers. They store letters and other characters by assigning a
number for each one.
                                         - 61 –
       The McVeigh report provided 21 recommendations to the FBI,
15 of which directly related to IT.45 Of these 15 recommendations,
11 involved the FBI’s completion of the VCF, 3 involved special agent
computer training, and 1 pertained to deadlines for the completion of case
leads.

(a) Deadlines for the Completion of Leads

      In the McVeigh report, the OIG recommended (recommendation 13)
that the FBI ensure that deadlines for the completion of investigative leads
are clear and not undermined by the automated system, such as the ACS
system’s setting of a 60-day deadline for “immediate” leads. The FBI stated
that as of August 26, 2002, the settings for deadlines within the ACS system
were changed to one day for “immediate” and “priority” leads. Based on the
OIG’s review of the policy changes for leads documented in three Electronic
Communications (EC) and the MIOG, we believe that the FBI’s actions to
address this recommendation are adequate.

(b) Special Agent Computer Training

      The McVeigh report contained the following three recommendations
related to computer training for special agents:

      •    the FBI should evaluate its computer training in order to develop a
           clear understanding of what agents need to perform their jobs
           effectively (recommendation 8);

      •    the FBI should consider whether computer usage should be a part
           of the core skills needed to graduate from new agent training
           (recommendation 9); and

      •    the FBI should consider mandatory refresher training for veteran
           agents (recommendation 10).

      Regarding recommendation 8, the FBI has reported to the OIG that it
has undertaken various initiatives to improve its computer training for
special agents. In April 2003, the FBI stated that its Training Division was
assessing the computer skills agents need to perform their jobs and was
determining the need for additional improvements to the computer training
curriculum for new agents. The Training Division was using instruments

      45
        These 15 recommendations, along with a summary of the FBI’s responses to the
recommendations, are listed in Appendix 2.
                                       - 62 –
such as surveys, evaluations, and questionnaires to evaluate and make
adjustments to its computer training. These instruments, which are
completed by agents and managers in the field, were to help the FBI
determine whether the curriculum adequately prepared new agents. In
May 2003, the FBI provided the OIG with copies of the instruments used, as
well as two ECs issued in July 2002, which included a request to add
additional computer training for new agents. We believe that the FBI’s
actions to address this recommendation are adequate.

       Regarding recommendation 9, the FBI reported to the OIG that
the Training Division has implemented a policy requiring all new agents to
pass an exam on core computer competency skills prior to graduation. In
May 2003, the FBI provided the OIG with an EC dated August 14, 2002, that
mandates the “Final Investigative Computer Competency Skills Assessment,”
as the twelfth examination required for graduation from the new agent
training. After examining this computer skills assessment, we believe that
the FBI’s actions to address this recommendation are adequate.

      Regarding recommendation 10, the FBI has reported to the OIG that it
has implemented a program of continual mandatory training for veteran
agents and all employees. On December 12, 2000, the Training Division
issued an EC requiring that each FBI employee receive 15 hours of training
per year. The Training Division developed a continuing education program
to establish employee and supervisor responsibilities for complying with the
program and to identify training opportunities for FBI employees. To enforce
the training requirement, the FBI linked the continuing education
requirement to the performance evaluations of employees and supervisors.
Additionally, in June 2001 the FBI revised the training section of the MAOP
to incorporate the new continuing education policies. After examining
continuing education program guidelines and policy changes, we believe that
the FBI’s actions to address this recommendation are adequate.

      In our judgment, the FBI has demonstrated that it has taken adequate
corrective actions to address the training deficiencies identified in the
McVeigh report. While these actions have clearly been important, the
FBI must also ensure that agents receive adequate training on the VCF,
which will be critical to its success.

(c) Recommendations Involving the VCF

     FBI officials have stated that when implemented, the VCF or
UAC portion of Trilogy will address 11 of the 15 IT-related recommendations


                                   - 63 –
contained in the McVeigh report. These 11 recommendations are to:

       •    foster an attitude among all employees that information
            management is an essential part of the FBI’s mission and that
            automation is a key tool in managing the storage, analysis, and
            retrieval of information (recommendation 1);

       •    consider whether Trilogy’s document management systems can be
            simplified, such as by having supervisors review electronic
            copies of documents, and whether its record keeping formats can
            be reduced in number (recommendation 2);

       •    evaluate whether inserts should be eliminated (recommendation
            3);46

       •    evaluate its practices regarding “originals” of FBI created
            documents (such as FD-302s) (recommendation 4);

       •    ensure any new automation is user-friendly, meaning that the steps
            required to obtain information should be few in number and
            intuitive (recommendation 5);

       •    ensure any new automation system include an effective document
            tracking system (recommendation 6);

       •    eliminate crisis management software and other independent
            systems (recommendation 7);

       •    ensure that leads cannot be covered without an explanation of what
            has been done to the task assigned (recommendation 11);

       •    ensure future automation systems incorporate a system to allow
            supervisors to easily track the status of leads (recommendation 12);

       •    evaluate the feasibility of developing a system of universal lead
            numbers to eliminate the use of local lead numbers as a tracking
            mechanism (recommendation 14); and

       •    evaluate the use of lead numbers on leads and responding reports
            and determine whether new policies, better enforcement

       46
          Inserts are forms used by the FBI to record investigative activity that is not
considered to be significant to the investigation.

                                           - 64 –
         of existing policies, improved training, or better automation is the
         best method of fixing the problem (recommendation 15).

      The following paragraphs discuss how, when completed, the VCF will
help implement these 11 recommendations.

      Recommendation 1

      While the FBI has taken steps to foster an attitude among all
employees that information management is an essential part of the FBI’s
mission (including the creation of a Records Management Division), the VCF
must be used by all levels at FBI Headquarters and by field supervisors to
ensure its success. In May 2003, FBI officials stated that agents will be
required to use the VCF since all official case records and files up to the
Secret level will be within the application. According to the FBI, unlike the
currently used ACS system, there will not be ways for agents to circumvent
the use of the VCF. However, the FBI still has not finalized its policies for
how agents will utilize VCF from remote locations.

      Recommendation 2

      FBI officials stated that the VCF will streamline the workflow process
by including electronic signatures and reducing the number of required
forms. Under the FBI’s current investigative process, a case file could be
started by using one of many different standardized forms, such as FD-72,
FD-801, and FD-822, depending on the type of investigative category. The
forms will be replaced by the “intake” function of the VCF, which simplifies
the initiation of a case file by eliminating the need for these forms.

      Recommendation 3

      FBI officials stated that inserts would be eliminated with the
deployment of the VCF. All VCF records will be considered “resident to the
case,” meaning that they will be considered an official investigative record.

      Recommendation 4

       FBI officials told us that the VCF will essentially replace all paper
copies of investigative events. Because the Records Management
application will interface with the VCF, the only official record of the case file
will be maintained in the VCF. The intent of the VCF is to reduce, and in
some cases eliminate, the need for paper copies of documents.


                                      - 65 –
      Recommendation 5

       According to FBI officials, the VCF will operate in a “point-and-click”
web environment that will simplify the FBI’s workflow process for document
storage and retrieval. Agents not familiar with using a computer keyboard
can have their secretaries type information into the VCF, but the agents will
still have to sign-off on the file using a mouse to create an electronic
signature. Additionally, the FBI is building an integrated data warehouse
comprised of data from the ACS system, analyzed terrorism and intelligence
data, and other law enforcement data. Through servers built on the FBI’s
new Trilogy networks, the VCF will interface with the data warehouse. The
VCF will contain tools to assist FBI agents and analysts in performing queries
and searches.

      Recommendation 6

       FBI officials told us that the VCF’s automated document creation,
receipt, and management system will partially eliminate the need for
traditional tracking systems. The VCF will include capabilities to scan into
the case file any documents received from sources external to the FBI, as
well as to capture summary descriptions of any documents and items, such
as physical evidence, that cannot be stored electronically. The FBI’s intent is
to eventually track external items through a bar code identification system
that would be placed upon a physical label on the external document and
then linked to an electronic record. Additionally, FBI officials said that the
Records Management Division (RMD) is establishing systems and processes
to effectively track documents and records contained in FBI systems.

      Recommendation 7

       According to FBI officials, the VCF will consolidate five of the FBI’s
investigative applications. However, FBI officials recognize that the VCF is
only a starting point since numerous other investigative and application
systems exist that could be integrated into the VCF. Additionally, because of
unresolved connectivity issues, crisis management software may still need to
be used by agents after the initial deployment of the VCF. The FBI is
identifying and defining other databases and crisis management software
that should be included in future VCF releases to maximize the efficiency of
the workflow process. FBI officials told us that additional funding will be
needed to solve the connectivity issues at remote locations, as well as to
consolidate and eliminate other databases and crisis management software.



                                    - 66 –
      Recommendations 11, 12, 14, and 15

       FBI officials said that upon the entry of a lead into the VCF, the system
will automatically assign a universal lead number that is unique to each
case. The supervisor will then approve and assign the lead to a subordinate
agent or receiving office. The VCF allows the supervisor to view the
subordinate agent’s leads and caseload to allow for the leads and cases to be
assigned effectively. Leads can viewed by anyone in the FBI with
appropriate access privileges, or by anyone with a profile query established
to receive information pertaining to specific types of cases. Additionally,
split leads, or leads created from an original lead, will reflect the derivative
or parent-child relationship in its lead number to facilitate the tracing of all
leads to their origin. This feature allows the originating office and all
receiving offices to determine to whom the leads are assigned or whether
action on the leads has occurred, which provides agents and managers with
a user-friendly tool to ensure lead accountability. Because all leads will be
part of the case file, leads cannot be covered without an appropriate
explanation unlike the FBI’s current system.

      Summary

       We believe that the FBI has demonstrated progress toward
implementing the recommendations in the McVeigh report, based on its
corrective actions taken to date, as well as its plans for the VCF. However,
the adequacy of the FBI’s corrective actions generally cannot be determined
until the VCF has been deployed. The FBI’s ability to implement many of the
OIG’s IT recommendations and improve its IT program depends on the
successful implementation of the VCF. The following section, therefore,
discusses factors affecting the success of the VCF.

(4) Factors Affecting the Success of the VCF

       In our judgment, if the VCF can do what the FBI expects, the VCF will
represent a significant technological advancement from the ACS system.
The VCF has the potential to reduce redundancy in searching multiple
databases, improve the FBI’s case file management, and maximize the use
of information in the FBI’s possession.

      While the VCF has the potential to significantly improve the FBI’s IT,
as well as its record management and investigative efficiency, the ultimate
success of the VCF depends on a number of different factors, including
whether the VCF will meet its technical and performance expectations and
be accepted and used by FBI employees.

                                    - 67 –
(a) Technical and Performance Expectations of the VCF

       To ensure its success, the VCF must meet technical and performance
expectations. As mentioned above, the Trilogy project has encountered
significant cost overruns and schedule delays due to the FBI not following
critical management processes. The OIG’s ITIM report stated that these
management problems contributed to difficulties with establishing the
technical requirements for the VCF. Because the VCF is focused on making
significant changes to five of the FBI’s investigative systems, documentation
for the exact configuration of these legacy systems was critical to designing
the requirements for the VCF. The lack of documentation for the
configuration of these five investigative systems caused the FBI to engage in
a process of reverse engineering, which is trying to determine the structure
and components of the systems after deployment. Because the FBI had to
perform reverse engineering on the five systems, there are limitations as to
how rapidly the VCF can be developed and deployed.

       As of April 2003, the FBI was still defining the technical requirements
for the second and third releases of the VCF. Because the technical
requirements had not yet been finalized and funding has not been approved,
baselines for the VCF had not been established. We believe that the lack of
technical, cost, and schedule baselines not only creates uncertainties over
how much the VCF will cost and when it will be completed, but also how it
will perform upon implementation.

       Performance of the VCF could be measured by how well it:
(1) allows special agents to access, import, create, and scan documents
through a web-based point and click environment; (2) allows supervisors to
track case files and lead numbers; (3) streamlines the workflow process
through the use of electronic signatures and the reduction of paper forms;
and (4) eliminates the need for special agents to use other applications,
such as crisis management software. For VCF to make these and other
improvements, it must have built-in security features that allow
special agents and analysts to access information according to their security
clearances and “need to know.” Additionally, it must be able to meet the
needs of all FBI employees, including those performing counterterrorism
duties, which is the FBI’s highest priority. It must also lay the foundation for
information sharing outside the FBI. We believe that the performance of
VCF and, specifically, how it meets the needs of special agents and analysts,
will determine how quickly the VCF is accepted and used.



                                    - 68 –
(b) Acceptance and Use of the VCF

       If the VCF is to be a vehicle for moving the FBI’s information
management into the 21st century, it must be accepted and used.
Historically, the FBI has been a paper-driven organization. A goal of the VCF
is to move toward a near paperless environment so the FBI can maximize
the use of technology to digitally capture information for data management
and control. According to FBI officials, the VCF is the first real change in the
FBI’s workflow and processes since the 1950’s. Director Mueller
recently stated that “Trilogy [VCF] will change the FBI culture from paper to
electronic.”

      As noted in the Campaign Finance and McVeigh reports, special agents
did not always use the ACS system to manage their case files. For various
reasons, they found alternative ways to manage case files. The VCF must be
used by all special agents for the FBI to fully realize its benefits.

       FBI officials told us that since the VCF will contain the official case
files, agents will have to use the VCF since there will be no other acceptable
means to manage case files. However, FBI official also acknowledged that
because of unresolved connectivity issues at remote locations, agents may
still need to use crisis management software.

2. FBI’s Process for Following-Up on Recommendations

        Until recently, the FBI had not implemented an effective system of
management controls to ensure that recommendations are resolved and
implemented in a timely and consistent manner. As previously stated in this
report, the FBI is required under OMB Circular A-50 and DOJ Order 2900.6A
to establish a process for resolving audit deficiencies and taking corrective
actions in a timely manner. As a result, we do not believe that the FBI was
in full compliance with OMB Circular A-50 and DOJ Order 2900.6A.

      FBI personnel told us that while a formal process to track and resolve
recommendations did not exist prior to September 2002, an informal process
was used. Upon the final issuance of an OIG or GAO report, the
recommendations were forwarded to the responsible FBI Divisions.
Someone within the responsible Division was then assigned to respond to
the recommendations until closure occurred. However, the FBI recognized
that this informal process was not sufficient to ensure corrective actions
were timely and responsive. Specifically, the FBI officials indicated to us
that the informal process:


                                    - 69 –
     •   was not documented in formal policies and procedures,

     •   was not adequately monitored by executive management and not
         kept up-to-date,

     •   used multiple applications,

     •   did not keep measures of timeliness and responsiveness, and

     •   did not provide for sufficient follow-up once the original response or
         corrective action plan was submitted.

       We believe that the lack of management attention was a significant
cause of the FBI’s failure to implement prior OIG and GAO
recommendations. According to the Deputy Assistant Director of the
Inspection Division, high turnover within FBI management contributed to
problems with maintaining current responses to OIG and GAO reports.
Under the informal process, when individuals left the FBI or were reassigned
within the Bureau, their replacements were not always made aware of
recommendations or requests that were left pending. As a result, responses
to recommendations and any related corrective action were often delayed,
and the auditing or investigating agency had to again request a response to
its recommendations.

       The FBI has also recognized that improvements in its system of
managing follow-up were needed to resolve and timely implement
recommendations resulting from OIG and GAO reports. In September 2002,
the FBI’s Inspection Division began to establish a new management process
to improve the FBI’s timeliness and responsiveness of corrective actions
resulting from OIG and GAO recommendations and to bring the FBI in
compliance with applicable regulations (OMB Circular A-50 and
DOJ Order 2900.6A) for the follow-up and resolution of audit
recommendations. To facilitate the implementation of this new management
process, the Inspection Division developed a database, referred to as the
“Automated Response and Compliance System” (ARCS). According to the
FBI, ARCS is an automated tool that is intended to:

     •   document and track initiated, ongoing audits and data requests
         from OIG, GAO, and others;

     •   track recommendations made in OIG and GAO audits,
         investigations, and reviews until closure; and


                                       - 70 –
      •   provide status information to FBI’s executive management on, or
          close to, a real time basis.

       The FBI’s new database tracks the receipt and resolution of audits,
investigations, and data requests from the OIG, GAO, and others. It also
tracks the tasks associated with FBI’s current re-engineering efforts. Among
its functions, the database is intended to provide information to FBI
management on a regular basis to keep them informed of a report’s
progress and to ensure timely implementation of recommendations.
However, this database does not include vulnerabilities generated by system
audits required by GISRA. The FBI’s Information Assurance Section has
taken steps to develop a separate database to record and manage the status
of system audit vulnerabilities.

       The ARCS database tracks audit reports within four hierarchical levels:
(1) the report level, (2) the findings level, (3) the recommendation level,
and (4) the action or task level. The report level provides general
information about the report, such as the report title and number, status,
classification level, requesting official (for GAO audits), issue date, received
date, response due date, and FBI Division point-of-contact. The findings
level describes the findings of the audit. The recommendation level is under
the findings level and describes the issuing entity’s suggestions to address
the findings. The action or task level specifies what corrective actions the
Bureau will take in order to satisfy the recommendations (and therefore, the
findings).

       In conjunction with the development of the database, the FBI has
developed policies and procedures for the Inspection Division’s
responsibilities for resolving OIG and GAO reports. These policies and
procedures require the Inspection Division to assign a liaison for each report
with outstanding recommendations and for scheduled audits and reviews.
The liaison has the primary responsibility for entering information into the
database, including deadlines for when tasks should be completed. The
liaison also has the responsibility to ensure that the report is assigned to a
“project manager” and that individual tasks are assigned to appropriate
points-of-contact. This control ensures that appropriate FBI personnel can
be held accountable for taking timely corrective actions. The liaison
monitors the completion of tasks and is instructed to send periodic e-mail
notices when tasks are near their due date or past due. Additionally,
Inspection Division management reviews the activities of the liaisons to
ensure that liaisons are adequately monitoring their assigned projects.



                                     - 71 –
       In January 2003, the Inspection Division officials trained its liaisons on
the ARCS system. An Inspection Division official told us that any new
liaisons will be trained on an as-needed basis. As of May 2003,
13 liaisons have been trained on the ARCS database.

      As of May 2003, the FBI was still adding relevant information to the
ARCS database for open GAO reports. For OIG reports, Inspection Division
personnel told us that the database had been updated to include all reports
with open recommendations. However, we found that the ARCS database
did not include the OIG Campaign Finance report that contained 18 open
recommendations. Inspection Division personnel told us that certain highly
sensitive reports — such as the Campaign Finance report or matters
involving the Office of Professional Responsibility may not be added to the
database, due to the classified nature of the reports. Based on our inquiry,
the Inspection Division began researching the status of the Campaign
Finance recommendations.

       FBI officials said that the database, which is maintained on the FBI’s
intranet, generates reports for senior FBI management that provide
information on upcoming suspense dates. For example, the
Deputy Directors are required to perform quarterly reviews of their Division’s
progress in completing outstanding tasks. According to FBI officials, the
Inspection Division Assistant Director uses reports generated by the ARCS
database to discuss outstanding tasks at weekly executive meetings, which
are attended by the Assistant Directors, Executive Assistant Directors, and
the Director. These and other reports have been periodically forwarded to
the Director, upon his request. FBI officials told us that the Director has
taken a particular interest in the timeliness and responsiveness of the FBI’s
corrective actions, re-engineering efforts, and responses to Congressional
requests. The Director wants to be notified, especially with regard to high
profile reviews, when the FBI has not been timely and responsive in its
planned actions.

       While the ARCS database can be a useful tool for the FBI’s
establishment of a management process directed toward improving the
timeliness and responsiveness of its corrective actions, the ultimate
effectiveness of this system depends on formal and consistent oversight
from senior FBI management. Thus far, however, the FBI has not
promulgated written directives Bureau-wide that instruct program managers
and senior officials outside of the Inspection Division regarding their
obligation to take corrective actions that will close recommendations. In our
judgment, the FBI must develop and institute formal written procedures that
require senior management oversight of the timeliness and responsiveness

                                     - 72 –
of recommendations. These written procedures should also incorporate the
policies for tracking the status of vulnerabilities generated by IT system
audits.

3. Summary

       Since 1990, reports issued by the OIG have found numerous
deficiencies with the FBI’s IT program, including outdated infrastructures,
fragmented management, ineffective systems, and inadequate training.
While the FBI has implemented many of the recommendations contained in
these reports, significant further actions are necessary to ensure that the
FBI’s IT program effectively supports its mission. Of the 148 IT-related
recommendations issued by the OIG, 93 have been closed by the OIG, while
55 remain open. The following table provides a summary of the status of IT
recommendations issued to the FBI by the OIG.

        Summary of the Status of IT Recommendations Issued to the
                                 FBI

                       Number of Open      Number of Closed    Total Number of
                      Recommendations      Recommendations    Recommendations
OIG Detailed
Financial IT Reports          22                  83                105
OIG FY 2001 GISRA
Report                        17                  6                  23
OIG Special Reports           16                  4                  20
               Total          55                 93                 148
Source: OIG analyses as of April 2003

      OIG audits and reviews indicated that deficiencies remained in the
area of general controls over FBI Headquarters data systems, except for
system software. As of April 2003, 22 out of 105 recommendations issued
for FY reports 1996 through 2001 remained open. Additionally, the FY 2001
GISRA report stated that the FBI has been slow to take corrective actions
since many of the vulnerabilities were previously reported in annual audits of
general controls. Of the 23 recommendations from the FY 2001 GISRA
audit, 17 remained open as of April 2003. Further, the FY 2002 GISRA
report on the FBI’s ACS system stated that similar vulnerabilities that were
reported in the FY 2001 report continued.

      The FBI GISRA reports issued in May and November 2002 identified
vulnerabilities with management, operational, and technical controls over
computer security. These reports also stated that within the FBI, only the
Inspection Division tracked remedial actions for reported computer security
vulnerabilities. With the exception of audits performed by the OIG, the FBI’s
                                        - 73 –
Inspection Division did not track the ACS or DRUGX systems’ vulnerabilities
identified in other audits and their corresponding corrective actions. Further,
these reports stated that the Inspection Division did not receive any other
audit results or reviews outside of the OIG audits and therefore has limited
knowledge of other reported vulnerabilities.47

       Until recently, the FBI did not establish a system of management
controls for tracking recommendations, as required by OMB Circular A-50
and DOJ Order 2900.6A. As a result, the FBI did not consistently implement
recommendations and did not adequately improve its information technology
to ensure that data is safeguarded and reliable, and computer application
programs are secured and protected from unauthorized access. Additionally,
non-implementation of previously identified IT problems, especially
regarding the ACS system, have contributed to problems in sensitive
investigations, such as the Campaign Finance and McVeigh investigations.
However, current FBI leadership has stated that they are committed to
enhancing controls to ensure recommendations are implemented in a
consistent and timely manner. To this end, the FBI recently established a
system to facilitate the tracking and implementation of recommendations.
Also, the FBI expects the VCF, as part of the Trilogy project, to significantly
improve its IT and correct many of the deficiencies identified by the OIG.

      According to the FBI, the VCF is intended to not only correct many of
the deficiencies identified in the Campaign Finance and McVeigh reports, but
also to revolutionize the FBI’s workflow process. We believe that the
corrective actions underway, including the planned implementation of the
VCF, has the potential to address 16 of the 20 open OIG recommendations
we examined from the Campaign Finance and McVeigh reports. However,
the ultimate effect of the VCF remains to be seen. We believe that the
success of the VCF depends on whether it can meet its technical and
performance expectations, and be accepted and used by FBI employees.




      47
        In April 2003, the Inspection Division began tracking findings and
recommendations issued by the GAO.
                                         - 74 –
4. Recommendations

     We recommend that the Director of the FBI:

1. Develop, document, and implement Bureau-wide procedures to
   follow-up and close audit and investigative recommendations, in
   accordance with OMB Circular A-50 and DOJ Order 2900.6A. This process
   should include the tracking and resolution of system audit
   recommendations.

2. Ensure that the ARCS database is complete and includes
   recommendations from all sources of OIG audits and reviews.

3. Ensure that managers are held accountable for the tracking, resolution,
   and timely implementation of OIG recommendations.




                                   - 75 –
               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

       In accordance with Government Auditing Standards, we audited the
FBI’s implementation of OIG recommendations related to information
technology. In connection with the audit, we reviewed management
processes and records to obtain reasonable assurance about the FBI’s
compliance with laws and regulations that if not complied with, could in our
judgment, have a material effect on FBI operations. Compliance with laws
and regulations applicable to the FBI’s management of IT investments is the
responsibility of the FBI’s management.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws and regulations against which we conducted
our tests are contained in the relevant portions of:

     •   the OMB Circular A-50; and

     •   the DOJ Order 2900.6A.

      Our audit identified areas where the FBI was not in compliance with
the laws and regulations referred to above. With respect to those
transactions not tested, nothing came to our attention that caused us to
believe that FBI management was not in compliance with the laws and
regulations cited above.




                                   - 76 –
           STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of the FBI’s implementation of
OIG recommendations related to information technology, we considered the
FBI’s management controls for the purpose of determining our audit
procedures. This evaluation was not made for the purpose of providing
assurance on the management control structure as a whole; however, we
noted certain matters that we consider to be reportable conditions under
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the management
control structure that, in our judgment, could adversely affect the FBI’s
ability to track, resolve, and implement audit and investigation
recommendations. During our audit, we found the following management
control deficiency — the FBI lacked a fully established and documented
process that ensures recommendations are implemented in a timely and
consistent manner.

      Because we are not expressing an opinion on the FBI’s management
control structure as a whole, this statement is intended solely for the
information and use of the FBI in managing its recommendation resolution
and closure process.




                                   - 77 –
                                                                     APPENDIX 1

            OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The primary objective of the audit was to determine if the FBI has
implemented prior OIG and GAO recommendations directed toward improving
its information technology.48

Scope and Methodology

       The audit was performed in accordance with Government Auditing
Standards, and included tests and procedures necessary to accomplish the
audit objective. We conducted work at FBI Headquarters in Washington,
D.C., and GAO Headquarters in Washington, D.C. We also visited internal
offices within the Office of the Inspector General, specifically the Financial
Statement Audit Office, the Computer Security and Information Technology
Audit Office, and the Office of Oversight and Review.

      To perform our audit, we conducted 27 interviews with officials from
the FBI, OIG, and GAO. The FBI officials interviewed were from the
Inspection Division, Information Resources Division, and National
Infrastructure Protection Center. Additionally, we reviewed over
100 documents, including prior GAO and OIG reports, Congressional
testimony, and documentation on the FBI’s process for tracking the
resolution of recommendations.

      To determine if the FBI has implemented IT recommendations issued
by the OIG in the last five years, we made inquiries with OIG management
in the Audit Division, Investigations Division, Evaluation and Inspections
Division, and the Office of Oversight and Review to identify the applicable
reports. Based on our inquiries, we determined that the OIG’s detailed
internal control reports over the FBI’s IT systems in support of the annual
financial statement audits (fiscal years 1996 to 2001), the FY 2001 and FY
2002 GISRA reports, and two special review reports contained
recommendations related to the FBI’s information technology and
information management. Based on the records and opinions of the
OIG offices responsible for preparing the reports and interviews with FBI



      48
         We included recommendations related to document management because FBI
documents are generally produced electronically or managed in automated databases and
systems.

                                        - 78 –
officials, we then analyzed and summarized the current status of the
recommendations.

      To determine if the FBI has implemented IT recommendations issued by
the GAO in the last five years, we searched the GAO website for reports that
included references to the FBI and information technology or information
management. From this sample, we reviewed reports to identify
recommendations made to the FBI that pertain to IT. Our search indicated
that one report contained one recommendation that met our criteria.49
Additionally, we made inquiries with GAO personnel to determine if they
issued any classified reports relating to FBI IT that would not be listed on the
website. We were told by GAO personnel that no such classified reports were
issued. From the GAO’s website, we obtained the status of the
recommendation and confirmed the status through inquiries with GAO and
FBI personnel, as well as by reviewing supporting documentation.




      49
           This report is discussed in Appendix 3.
                                           - 79 –
                                                                         APPENDIX 2

       THE FBI’S PROGRESS TOWARD IMPLEMENTING IT
                    RECOMMENDATIONS

      To understand the full context of these recommendations, it is
necessary to view the associated report in its entirety. Recommendations
that have been repeated in subsequent reports are designated in the
following tables by having multiple years in the FY column. The FY column
also contains the recommendation number and a designation as to whether
the recommendation resulted from a material weakness (MW), reportable
condition (RC), or management letter comment (MLC).50

1. Recommendations in the Detailed IT Reports Issued in
   Support of the Annual FBI Financial Statement Audits

 Entity-Wide Security Program Planning and Management Controls:
                     Closed Recommendations

   FY(s)          Recommendation                              FBI’s Progress
  1998      The FBI should take steps to       The FBI hired a contractor in
  RC#16     clearly assign, identify, and      August 1999 to complete this task. This
            communicate information            recommendation was closed by the OIG in
            security responsibilities. Such    October 2002 based on a review of the
            steps should include the           corrective actions taken.
            development of detailed
            organizational charts, job
            descriptions, and security
            plans, all of which should be
            kept current.
  1998      Allocate sufficient resources to   The FBI hired a contractor in
  RC#17     ensure the proper                  August 1999 to complete this task. This
            implementation of its policy       recommendation was closed in
            requiring all ADPT systems         October 2002 based on a review of the
            used to process, store, or         corrective actions taken.
            transmit classified or sensitive
            information to be accredited
            every three years.




       50
         This only applies to the recommendations from the detailed IT reports issued in
support of the annual FBI financial statement audits.

                                           - 80 -
1999    Ensure that risk assessments      The FBI’s March 2001 response to the
MW#1    of the FBIHQ Data Center, its     recommendation stated that a contractor
1998    other general support             was to conduct a risk assessment and revise
RC#14   systems, and all major            the system security plan for the
        applications are conducted as     administrative Information Support
        required by                       Systems. This recommendation was closed
        OMB Circular A-130, and by        by the OIG on final issuance of the FY 1999
        the FBI’s Manual of               report, based on a review of risk
        Investigative Operations and      assessments provided.
        Guidelines: FBI ADPT
        Security Policy, Part II,
        Section 35:8.1.3, ADPT
        Security Policy.

1999    Ensure that the systems and       The FBI’s March 2001 response to the
MW#3    applications are accredited       recommendation stated that the
1998    every three years.                re-accreditation of the FBIHQ and
RC#17                                     Clarksburg Data Centers, the FBI
                                          LAN/Wide Area Network (WAN) and the
                                          legacy administrative applications were
                                          completed during June 2000. This
                                          recommendation was closed by the OIG
                                          upon final issuance of the FY 1999 report,
                                          after a review of the accreditation packages.
1999    Renew the interim                 The FBI’s March 2001 response to the
MW#4    accreditation for general         recommendation stated that the
        control systems and major         re-accreditation of the FBIHQ and
        applications and ensure these     Clarksburg Data Centers, the FBI LAN/WAN,
        accreditations:                   and the legacy administrative applications
        a. reflect a more accurate        were completed during June 2000. This
        estimate of the anticipated       recommendation was closed by the OIG in
        final accreditations, according   October 2002 based on a review of
        to the contractor’s planned       corrective actions taken.
        deliverable due dates and
        actual progress to date; and
        b. address the increased
        threats and vulnerabilities to
        the FBI’s systems,
        applications, and connectivity,
        which were identified during
        penetration test work.




                                        - 81 -
1999     The FBI should improve       The FBI’s March 2001 response to the
MW#5     security and application     recommendation stated that the necessary
1998     controls by determining      actions were completed and the FBIHQ and
RC#18    which of its systems are     Clarksburg Data Centers, the FBI LAN/WAN,
         classified as “major         and the legacy administrative systems were
         applications,” and ensuring  re-accredited. This recommendation was
         that for each major          closed by the OIG upon final issuance of the
         application, including the   FY 1999 report based on a review of risk
         Financial Management         assessment, security plans, and accreditation
         System and Bureau            statements.
         Personnel Management
         System (BPMS):
        • security plans are
            developed in accordance
            with OMB Circular A-130,
            implemented,
            disseminated to systems
            users, and periodically
            updated, as necessary;
        • risks are assessed when
            there is a major systems
            modification, or, at a
            minimum, every three
            years; and
        • the system is accredited
            at least every three
            years.
   Source: OIG analyses as of April 2003




                                     - 82 -
   Entity-Wide Security Program Planning and Management
         Controls: Open Recommendations

 FY(s)      Recommendation                             FBI’s Progress
2001     Recommend that the          The FBI’s September 2002 response to the
MW#1     FBI Director:               recommendations stated that the current
2000     Ensure the ADPT             certification and accreditation (C&A) effort has
MW#1     Security Policy requiring   been addressing these requirements. In addition,
1999     security plans are          the Education, Training, and Awareness Program
MW#2     completed appropriately     intends to sponsor a variety of awareness
1998     and include:                campaigns targeting the users and IT support
RC#15    a. system specific rules    staff of the FBI mission-critical and mission
            of behavior;             essential systems. The FBI has provided a
         b. training; and            July 2003 estimated completion date for closure
         c. documentation that       of these recommendations.
            outlines the rules of
            the system, as
            required by OMB
            Circular A-130 and
            National Institute of
            Standards and
            Technology Special
            Publication 800-18.

2001     Ensure the Payroll        The Payroll System Security Plan is currently on
MW#2     System Security Plan      the legacy systems’ C&A schedule that has been
         incorporates:             prioritized in coordination with the FBI’s
         a. an incident response   Designated Approving Authority and the DOJ
            capability;            Chief Information Officer. The FBI’s C&A process
         b. rules of behavior;     will address all aspects of system security in the
            and                    payroll system. The FBI has provided a July 2003
         c. system                 estimated completion date for closure of these
            interconnection        recommendations.
            documentation, if
            applicable.
    Source: OIG analyses as of April 2003




                                       - 83 -
                Access Controls: Closed Recommendations

                 Recommendation                               FBI’s Progress
  1996/97   The FBI should consider          The FBI’s February 1999 response to the
  RC#2      reducing the PWEXP51             recommendation stated that no action would
            duration from 90 days.           be taken and that that the Bureau was well
            Further, the grace period for    within the DOJ mandate that called for
            the expiration of user           password expiration every 180 days. Upon
            passwords should be reduced      further review, the OIG agreed with the FBI’s
            to 5 days.                       position that no corrective action was
                                             necessary. As a result, this recommendation
                                             was closed by the OIG upon the issuance of
                                             the FY 1996/97 final report.
  1996/97   Set the TAPE parameter           The FBI’s February 1999 response to the
  RC#3      (from the FBI’s mainframe        recommendation stated that if the Bureau
            computer security package)       followed the recommendation, the software
            to “ON.”                         would not function properly. Upon further
                                             review, the OIG agreed with the FBI’s position
                                             that no corrective action was necessary. As a
                                             result, this recommendation was closed on
                                             issuance of the FY 1996/97 final report.
  1996/97   The PWVIEW parameter             The FBI’s February 1999 response to the
  RC#4      (from the FBI’s mainframe        recommendation stated that the Bureau
            computer security package)       agreed with the recommendation. This
            should always be set to          recommendation was closed by the OIG upon
            “NO.” If this parameter is       issuance of the FY 1996/97 final report based
            changed, proper                  on a review of the corrective actions taken.
            authorization should be
            obtained from the data
            security officer.

  1996/97   Establish procedures that        The FBI’s July 1999 response to the
  RC#5      require new users to             recommendation provided information
            immediately change their         demonstrating adequate corrective actions.
            initial password. These          This recommendation was closed by the OIG in
            procedures should be             December 1999 based on a review of the
            distributed to the user when     corrective actions taken.
            they are notified that access
            has been established.
  1996/97   The FBI should review user       The FBI’s February 1999 response to the
  RC#6      access to sensitive system       recommendation stated that although the
            files. After the review, data    Bureau was performing this function, it did not
            set access should be             have a formal process documenting these
            modified to restrict user        reviews. This recommendation was
            access, including READ and       subsequently closed by the OIG upon issuance
            EXECUTE, to sensitive            of the final report based on a review of the
            system files.                    corrective actions taken.




      51
        According to the OIG’s 1996/97 report, PWEXP is a parameter from the FBI’s
mainframe computer security package.

                                            - 84 -
1996/97   Develop the Authorized           The FBI’s February 1999 response to the
RC#10     Program Facility                 recommendation stated that the Bureau
          administrative policies and      conducted semiannual audits to ensure that
          procedures to ensure             data sets that no longer needed to be
          compliance with the              authorized had been removed. This
          manufacturer’s integrity         recommendation was closed by the OIG upon
          rules for all its mainframe      issuance of the final report, based on a review
          operating systems.               of the corrective actions taken.

1996/97   Establish policies and           The FBI’s February 1999 response to the
RC#11     procedures to ensure that        recommendation stated that the FBI agreed
          Novell users are assigned        with the recommendation and that immediate
          unique passwords.                corrective action had been taken. This
                                           recommendation was closed by the OIG upon
                                           issuance of the final report based on a review
                                           of the corrective actions taken.
1996/97   Modify the Novell Network        The FBI’s February 1999 response to the
RC#12     Administrator facility to        recommendation stated that corrective action
          prevent Finance Division         had been taken. This recommendation was
          users from viewing other         closed by the OIG upon issuance of the final
          users’ access capabilities.      report based on a review of the corrective
                                           actions taken.
1996/97   Establish and distribute         The FBI’s February 1999 response to the
RC#13     procedures requiring local       recommendation stated that alternative
          security administrators to       corrective actions were implemented. The
          periodically, at least           recommendation was closed by the OIG upon
          quarterly, review employees’     the final report’s issuance based on acceptable
          access privileges in relation    corrective actions taken.
          to their current job
          functions.

1996/97   Evaluate the risks of            The FBI’s February 1999 response to the
RC#14     retaining inactive user          recommendation stated that the user accounts
          identifications beyond           were being removed after 180 days of
          180 days on the system.          inactivity. This recommendation was closed
          Modify policies and              by the OIG upon issuance of the final report
          procedures to ensure             based on a review of the corrective actions
          compliance.                      taken.

1996/97   Develop and implement exit       The FBI’s February 1999 response to the
MLC#23    procedures that require the      recommendation stated that the FBI
          local security administrator     recommended an alternative corrective action.
          or security officer to           This recommendation was closed by the OIG
          promptly remove user access      upon the final report’s issuance based on a
          for terminated employees.        review of the corrective actions taken.




                                          - 85 -
  1996/97   Create an electronic file that    The FBI’s February 1999 response to the
  MLC#24    identifies terminated and         recommendation stated that the corrective
            transferred employees. In         action for this recommendation was completed
            addition, continue                in October 1998. This recommendation was
            periodically reviewing user       closed in December 1999 based on a review of
            access profiles and               the corrective actions taken.
            privileges.
  1996/97   Implement appropriate             The FBI’s February 1999 response to the
  MLC#25    access controls in order to       recommendation stated that factual
            operate at the B1 level of        inaccuracies existed in the recommendation.
            trust.                            However, the recommendation was
                                              subsequently closed by the OIG upon issuance
                                              of the final report based on acceptable
                                              alternative corrective action taken.
  1996/97   Review daily reports for the      The FBI’s February 1999 response to the
  MLC#26    System Management Facility        recommendation stated that an alternative
            (SMF) record 07 to ensure         corrective action was implemented. This
            that SMF records are not          recommendation was closed by the OIG upon
            being lost due to the             issuance of the final report based on a review
            untimely dumping of buffer        of the corrective actions taken.
            files to tape. Record and
            include SMF records 17, 18,
            and 60-69 in normal backup
            procedures.52
  1998      Set the MODE parameter to         The FBI’s February 1999 response to the
  RC#1      “FAIL.”                           recommendation stated that the testing of the
  1996/97                                     “FAIL” global mode would be initiated to
  RC#1                                        determine if any adverse problems surfaced
                                              that would preclude making this a permanent
                                              setting. This recommendation is revisited
                                              annually by the OIG and was closed on final
                                              issuance of the FY 1996/97 and 1998 reports
                                              based on a review of the corrective actions
                                              taken.




       52
         According to the OIG’s FY 1996/97 report, SMF record 07 is a control function that
shows the quantity of SMF records being lost by untimely dumping of any one of the three
SYS1.MAN buffer files to tape. Additionally, SMF records 17 and 18 pertain to the deleting
and renaming of data files, respectively. Also, SMF records 60 – 69 pertain to the virtual
storage access method data files.


                                             - 86 -
  1998      Initiate, plan and execute a     The FBI’s June 2000 response did not address
  RC#2      project to refine the CA-Top     this recommendation. However, the
            Secret53 profiles to support     recommendation was closed by the OIG in
            role-based access controls       October 2002 based on a review of the
            based upon the access            corrective actions taken.
            required by system users to
            complete the responsibilities
            of assigned roles and
            responsibilities.
  1998      Periodically perform an          The FBI’s June 2000 response to the
  RC#3      entity-wide data assessment      recommendation stated that the FBI did not
            on network systems to            agree with the recommendation. Although in
            determine where potential        their response the FBI disagreed with the
            liabilities exist.               finding, documentation was subsequently
                                             provided that supported corrective actions
                                             taken. The recommendation was closed by
                                             the OIG upon issuance of the final report.
  1999      Delete users that no longer      The FBI’s March 2001 response to the
  MW#7      require access to the            recommendations stated that the
  1998      network or do not have a         Financial Division Systems Administrators had
  RC#8a     demonstrated need for their      completed the recommended secure
            access.                          networking environment changes pertaining to
  1999      Require unique passwords         these recommendations. These
  MW#8      for all user accounts,           recommendations were closed by the OIG
  1998      particularly system              based upon a review of the corrective actions
  RC#8e     administrators.                  taken.

 1998       Restrict users from having
 RC#8b      concurrent logins.

 1998       Enable time restrictions for
 RC#8c      user accounts.

 1998       Assign account expiration for
 RC#8d      temporary user accounts.

  1999      Require all system
  MW#9      administrators to change
  1998      their passwords at least
  RC#8f     every 30 days.




      53
        According to the OIG’s FY 1996/97 report, CA-Top Secret is the FBI’s mainframe
computer security package.

                                            - 87 -
1999      Conduct a complete audit of       The FBI’s March 2001 response to the
MW#11     the CA-Top Secret and FMS         recommendation stated that the FBI is
          application security to           continuing its efforts to modify and hone the
          identify all security control     FMS Top-Secret Security profiles to ensure the
          weaknesses and develop a          “least privilege” type of access is provided to
          plan of action for                the FMS customers. This recommendation
          implementing an effective         was closed by the OIG upon issuance of the
          security program.                 FY 1999 final report based on a review of the
                                            corrective actions taken.
1999      Periodically perform an           The FBI’s March 2001 response to the
MW#12     entity-wide data assessment       recommendations stated that during FY 2000,
1998      on the mainframe and              a number of actions were completed relative
RC#4      network systems to                to the recommendations. These
1996/97   determine where potential         recommendations were closed by the OIG
RC#8      liabilities exist.                upon issuance of the FY 1999 final report
                                            based on a review of the corrective actions
1999      Initiate, plan, and execute a     taken.
MW#13     project to refine the CA-Top
1998      Secret profiles to support
RC#5      role-based access controls
1996/97   based upon the access
RC#7      required by the systems
          users to complete the
          responsibilities of assigned
          roles and responsibilities.
1999      Consider installing “smart
MW#14     card” technology to provide
1998      a more robust means of
RC#10     authentication for legitimate
1996/97   users of the FBI systems.
RC#9

1999      Establish and implement a         FBI’s March 2001 response to the
MW#15     policy that prevents              recommendation stated that the Bureau had
          employees from                    purchased commercial-off-the-shelf software
          indiscriminately activating       and was developing a procedure to perform
          dial-up access to FBI             “war dialing” exercises on all FBI Private
          systems.                          Branch Exchange lines. This recommendation
                                            was closed by the OIG based on a review of
                                            the corrective actions taken.
1999      Review the Finance Division’s     The FBI’s March 2001 response to the
MW#16     access privileges on the          recommendation indicated that the
          Novell NetWare file and           Finance Division system administrators
          directory objects to ensure       reviewed the access privileges on the
          that only those individuals       Novell NetWare file and directory objects and
          requiring read, write, create,    made changes to insure proper access. This
          modify, and scan have such        recommendation was closed by the OIG upon
          privileges.                       issuance of the FY 1999 final report based on
                                            a review of the corrective actions taken.




                                           - 88 -
2000    Ensure that the Finance           The FBI’s September 2001 response to the
MW#5    Division Windows NT               recommendation stated that the Finance
        configuration meets the           Division system administrators reviewed
        criteria presented in the FBI     access privileges on the Novell NetWare file
        Windows NT baseline               and directory objects and made changes to
        documentation.                    insure proper access. Changes were made to
                                          allow access to file and directory objects based
                                          on assignment. This recommendation was
                                          closed by the OIG upon issuance of the
                                          FY 2000 final report based on a review of
                                          corrective actions taken.
2000    Ensure all shares providing       The FBI’s June 2002 response to the
MW#6    full access are removed. In       recommendation stated that all employees
        addition, all Finance Division    responsible for the Division’s servers had been
        administrators should             properly trained and certified. The FBI also
        receive network security          provided a list of the courses offered. This
        training to properly ensure       recommendation was closed by the OIG in
        that they are kept abreast of     October 2002 based on a review of corrective
        current and proper                actions taken.
        administrative techniques.
2000    Ensure all user accounts          The FBI’s June 2002 response to the
MW#7    inactive for over 90 days are     recommendation provided information and
        suspended and user                evidence of corrective action. This
        accounts inactive for             recommendation was closed by the OIG in
        180 days are deleted from         October 2002.
        the Finance Division’s LAN.
2000    Ensure the current service        The FBI’s September 2001 response to the
MW#8    pack is installed on all          recommendation stated that a team was
        Microsoft Windows NT              formed to ensure that proper software updates
        environments.                     and configuration standards are maintained.
                                          The recommendation was closed by the OIG
                                          upon issuance of the FY 2000 final report
                                          based on a review of corrective actions taken.
2000    (U) Ensure the database           The FBI’s September 2001 response to the
MW#9    administrator Top Secret          recommendation stated that the FBI reviewed
        Accessor Identification           the profile of the database administrator and
        (ACID) profile is reviewed        altered the profile to provide privileges
        and altered to ensure that        required to complete tasks. The OIG closed
        only the least amount of          this recommendation in October 2002 based
        privileges are granted to         on a review of the corrective actions taken.
        complete assigned job tasks.
2000    Ensure the removal of the         The FBI’s September 2001 response to the
MW#10   IBMUSER account from the          recommendation stated that this issue was
        mainframe.                        resolved before December 2000. This
                                          recommendation was closed by the OIG in
                                          October 2002 based on a review of the
                                          corrective actions taken.
   Source: OIG analyses as April 2003




                                         - 89 -
               Access Controls: Open Recommendations

FY(s)           Recommendation                                  FBI’s Progress
1998    Periodically perform an entity-wide      The FBI’s June 2000 response to the draft
RC#7    data assessment on network               report stated that the FBI’s Information
        systems to determine where               Resources Division (IRD) Server Team
        potential liabilities exist.             installed a Gateway 8400 server to address
                                                 this recommendation. Verification is still
                                                 required to close this recommendation.
1998    Develop formal procedures to             The FBI’s June 2000 response to the draft
RC#9    establish audit trails in the security   report stated that the FBI is taking
        features of networks that are            corrective actions, but technical controls
        consistent across all                    over the Finance Division LAN were not
        divisions/departments, including         fully implemented. This recommendation
        the activation of NetWare’s              can be closed when annual financial
        “Intruder Detection.” These              statement audit test work verifies that the
        procedures should include                FBI has developed formal procedures to
        provisions to reinforce the active       establish audit trails in the security
        monitoring of that security              features of its networks that are consistent
        information.                             across all divisions and departments,
                                                 including the activation of NetWare’s
                                                 “Intruder Detection.”
1998    Strengthen user authentication           The FBI’s June 2000 response to the draft
RC#11   controls by implementing an active       report stated that the necessary corrective
        token for user authentication.           action had been completed. This
                                                 recommendation can be closed when
                                                 annual financial statement audit test work
                                                 verifies that user authentication controls
                                                 have been strengthened by
                                                 implementation of an active token for user
                                                 authentication.
1998    Provide computer security training       The FBI’s June 2000 response to the draft
RC#12   to users at least annually. Training     report stated that the necessary corrective
        should include a process for             action had been completed. This
        reporting computer-related               recommendation can be closed when
        incidents.                               annual financial statement audit test work
                                                 verifies that computer security training has
                                                 been provided to users at least annually.
1998    Establish a computer incident            The FBI’s June 2000 response to the draft
RC#13   response team to manage                  report stated that the necessary corrective
        computer related security                action had been completed. This
        incidents.                               recommendation can be closed when
                                                 annual financial statement audit test work
                                                 verifies that the FBI has established a
                                                 computer incident response team for
                                                 managing computer related security
                                                 incidents.




                                         - 90 -
2000       Ensure all accounts have strong     The FBI’s March 2001 response to the
MW#4       passwords.                          recommendation stated that a new policy
1999                                           was created requiring unique passwords,
MW#17,18                                       and those passwords had to be changed
                                               every 90 days. The OIG’s October 2002
                                               response to the FBI stated that this
                                               recommendation remains open until it
                                               can be verified that strong password
                                               controls are in place and the FBI has
                                               established a policy requiring a unique
                                               password and each user account is
                                               periodically reviewed for compliance.
1999       Ensure that the Finance             The FBI’s March 2001 response to the
MW#19      Division’s LAN administrators       recommendation stated that the Finance
           check their Novell NetWare          Division system administrators enabled
           configuration against the           auditing on all volumes with the
           parameters in the FBI Novell        exception of CD-ROM volumes. The
           NetWare Baseline Documentation      FBI’s response dated June 2002 stated
           and ensure it agrees with the       that all Finance Division servers had
           recommended FBI MIOG, and FBI       been upgraded and configured to meet
           ADPT Security Policy                current security guidelines and that
           configuration settings.             auditing has been enabled on all
                                               volumes. The OIG’s response dated
                                               October 2002 stated that this
                                               recommendation can be closed when
                                               annual financial statement audit test
                                               work verifies that auditing is enabled as
                                               required.
2001       Ensure compliance with              According to OIG correspondence to the
MW#3       documented policies and             FBI, these recommendations can be
2000       procedures as they pertain to       closed when annual financial statement
MW#2       account restrictions, system        audit test work verifies the FBI’s Trilogy
1999       monitoring, and data                upgrades, scheduled for February 2003,
MW#6       confidentiality for the FBI’s       include automated systems for
1998       information technology              monitoring server configurations to
RC#6       environments.                       ensure that settings that affect policies
                                               and procedures are not changed
                                               accidentally.
2001       Enable the auditing function on     According to OIG correspondence to the
MW#4       the Finance Division’s Netware      FBI, this recommendation can be closed
2000       environment.                        when annual financial statement audit
MW#3                                           work verifies that auditing is enabled on
1999                                           all volumes and objects on the Finance
MW#10                                          Division’s LAN.
1998
RC#8g




                                      - 91 -
2001   Continue developing the database     The FBI’s September 2002 response to the
MW#5   programmer profile to ensure the     recommendation stated that the Unit
       database staff are only granted      Chiefs of the Systems Programming and
       the access needed to perform their   Integration Unit (SPIU) and the Data
       job tasks. Additionally, we          Management Unit had agreed to a
       recommend the systems                restructuring of functions for staff in both
       programmer ACID not access the       units. A transition plan to implement this
       “PAY.* datasets.”                    restructure had been finalized.
                                            Additionally, Systems Security and Access
                                            Unit staff were in the process of
                                            implementing separate security profiles for
                                            SPIU and Data Management Unit staff
                                            based on the access levels agreed to by
                                            the Unit Chiefs of each unit. Further,
                                            Systems Security and Access Unit staff had
                                            removed access to the “PAY.* datasets” for
                                            the systems programmer ACID in question.
  Source: OIG analyses of April 2003




                                     - 92 -
     Application Software Development and Change Controls:
                     Closed Recommendations

 FY(s)        Recommendation                            FBI’s Progress
1996/97   Develop and maintain a       The FBI’s February 1999 response to the
MLC#28    configuration                recommendation stated that although the FBI
          management process           had developed the Architecture Change
          addressing changes to        Management Rules, Standards, and Procedures
          overall ADPT resources.      Version 1.0 document, the implementation was
          Configuration changes        still ongoing. The ongoing status was also
          should be reviewed,          repeated in the FBI’s response dated July 1999.
          approved, tested,            The recommendation was closed by the OIG in
          evaluated, and               October 2002 based on a review of corrective
          documented to show the       actions taken.
          impact on computer and
          telecommunications
          security features.
1996/97   Expedite the                 The FBI’s February 1999 response to the
MLC#29    implementation of the        recommendation stated that although the Bureau
          ACM methodology entity-      developed ACM procedures and incorporated the
          wide. Remove write           LAN management into the ACM Rules, Standards
          access privilege from the    and Procedures, the status of the corrective
          profile of an individual     action was still ongoing. This recommendation
          who does not require that    was closed by the OIG in October 2002 based on
          type of access.              a review of corrective actions taken.
1996/97   The SPIU should develop      The FBI’s February 1999 response to the
MLC#31    and implement                recommendation stated that the SPIU Unit Chief
          procedures to ensure all     would draft a policy mandating the entering of all
          system problems are          system problems into NetMan and that this policy
          entered into NetMan.         would be effective by March 1999. This
                                       recommendation was closed in December 1999
                                       by the OIG based on a review of the corrective
                                       actions taken.
2000      Ensure the IRD enhances      The FBI’s September 2001 response to the
MW#17     the ACM document to          recommendation stated that FBI management
1999      comprehensively address      did not totally agree with the recommendation.
RC#36     any type of change to the    However, the QCMU had developed an action
1996/97   computer based               plan to ensure all IRD software development and
RC#17     application system and its   maintenance projects complied with change
          environment, including       management policies and procedures by an
          changes to hardware,         estimated completion date of September 2001.
          software, and firmware.      This recommendation was closed by the OIG in
          Once the enhancements        October 2002 based on a review of the corrective
          are made, ensure the         actions taken.
          FMS program owners
          consistently apply the
          policy to establish a
          division-wide commitment
          to software maintenance.




                                       - 93 -
2001     a. Ensure that the            The FBI’s September 2001 response to the
MW#6     methodology set forth         recommendation stated that the QCMU
2000     within the ACM is             developed an action plan to ensure all IRD
MW#19    consistently applied to the   software development and maintenance projects
         FMS application. All          complied with change management policies and
         changes should be             procedures. The recommendation was closed in
         documented in the             October 2002 based on a review of the corrective
         Service Center software.      actions taken.

         b. Implement the unit
         test and system plans
         throughout IRD to
         standardize, control, and
         document changes made
         to the application and
         system software. The
         use of the Service Center
         software to track all
         change requests, from
         initiation through final
         disposition, should be
         enforced with the planned
         compliance audits
         throughout IRD.

2000     Enforce emergency             The FBI’s September 2001 response to the FY
MW#18    change procedures stated      2000 recommendation stated that the
1999     within the ACM for            IRD Payroll Application Project Manager had been
RC#44    applications. At a            advised that he must follow the ACM Procedures
         minimum, the emergency        defined in the IRD and that all emergency
         change procedures should      changes need to be entered in the Service
         be documented after the       Center Management tool. The FY 2000
         fact and should specify:      recommendation was closed by the OIG upon
         •    when emergency           final issuance of the FY 2000 report and the OIG
              software changes are     followed-up on this recommendation through its
              warranted;               monitoring of the status of the FY 1999 report.
         •    who may authorize        The FY 1999 recommendation was subsequently
              emergency changes;       closed by the OIG in October 2002 based on a
         •    how emergency            review of corrective actions taken.
              changes are to be
              documented; and
         •    within what period
              after implementation
              the change must be
              tested and approved.
   Source: OIG analyses as of April    2003




                                        - 94 -
     Application Software Development and Change Controls:
                     Open Recommendations

 FY(s)            Recommendation                            FBI’s Progress
1996/97   Develop and implement a policy       The FBI’s February 1999 response
MLC#30    requiring periodic independent       stated that the QCMU was formed to
          reviews of all major systems         address this recommendation. The
          development activities at each       quality control function of QCMU is
          major activity milestone. The        responsible for performing reviews of all
          policy should specify the scope,     phases of the system development life-
          timing, and format for reporting     cycle. According to FBI correspondence
          the results.                         to the OIG (with the most recent dated
                                               June 2002), the QCMU is currently in
                                               the process of obtaining contract
                                               services to assist in the development of
                                               a Common Software Process. The
                                               QCMU will develop and perform audits
                                               to ensure that projects are in
                                               compliance with the Project
                                               Management Process.
2000      Implement an automated               The FBI’s September 2001 response to
MW#16     software management system in        the recommendation stated that a
1999      order to automate the transfer of    software library management system is
RC#35     all program source code, object      needed to control the movement of
1998      code, executable code,               software components between
RC#21     interpretable code, control          environments. However, the purchase
1996/97   information, and the associated      of the software system was not planned
RC#18     documentation to run a system.       until December 31, 2001. The OIG
                                               responded by stating that this
                                               recommendation can be closed when it
                                               can verify that an automated software
                                               management system is implemented.
    Source: OIG analyses as of April 2003




                                      - 95 -
      System Software Controls: Closed Recommendations

 FY(s)            Recommendation                                FBI’s Progress
1996/97   Perform an analysis to determine         The FBI’s February 1999 response to the
MLC#33    which libraries and associated           recommendation stated that the Bureau
          members are necessary for proper         agreed with the recommendation. This
          system performance. A periodic           recommendation was subsequently
          assessment should be performed           closed by the OIG upon issuance of the
          on the Multiple Virtual Storage          final report based on a review of the
          operating system to archive and/or       corrective actions taken.
          delete data sets no longer needed
          or being used.
1996/97   The SPIU should implement                The FBI’s February 1999 response to the
MLC#34    procedures to ensure that all            recommendation stated that the SPIU
          system documentation is current          has implemented Change Management
          and complete and that changes to         to comply with the recommendation.
          documentation are reflected timely       This recommendation was closed by the
          and disseminated to applicable           OIG upon issuance of the final report
          individuals.                             based on a review of the corrective
                                                   actions taken.
1996/97   Conduct the following reviews at         The FBI’s February 1999 response to the
MLC#35    least quarterly: compare system          recommendation stated that the FBI has
          programmer access privileges per         put an alternate corrective action plan in
          the applicable security software to      place because the recommendation was
          the employee’s current job               not workable with the current SPIU
          functions, and adjust accordingly;       personnel resources. The
          and, determine system                    recommendation was subsequently
          programmer’s use of sensitive            closed by the OIG upon the issuance of
          utilities and reasonableness.            the final report based on a review of
                                                   alternative corrective action taken.
1996/97   The SPIU should develop and              The FBI’s February 1999 response to the
MLC#36    implement a system software              recommendation stated that the FBI
          control policy to ensure that            would implement the recommended
          system software is current.              policy regarding system software control
                                                   by the estimated completion date of
                                                   March 1999. Additionally, the FBI
                                                   stated that as of January 1999, all
                                                   systems executing mission-critical
                                                   applications had been upgraded. This
                                                   recommendation was closed by the OIG
                                                   on issuance of the final report based on
                                                   a review of the corrective actions taken.




                                          - 96 -
2000      Configure the operating system        The FBI’s September 2001 response to
MW#11     parameters to log all the             the recommendation stated that the
          associated transactions for the       Bureau employed an alternative method
          respective SMF records.               that complied with the applicable
                                                regulations. The recommendation was
                                                closed in October 2002 by the OIG
                                                based on a review of the alternative
                                                corrective action taken.
2000      Establish and implement a formal      The FBI’s September 2001 response to
MW#12     change control process for changes    the recommendation stated that the FBI
          to Supervisor Calls and Programs      established and implemented an internal
          Property Tables programs.             change management methodology and
                                                process for changes to Supervisor Calls,
                                                while a similar process would soon be
                                                completed for
                                                Programs Property Tables programs.
                                                The recommendation was closed by the
                                                OIG in October 2002 based on a review
                                                of the corrective actions taken.
1999     Establish and implement a formal       The FBI’s March 2001 response to the
RC#35    change control process for changes     recommendation stated that the SPIU
1998     to system software. The policies       developed an internal change
MLC#21   and procedures should include:         management methodology and process
1996/97  • documented justification for         to complement the architecture change
RC#18        making the change or utilizing     management rules, standards, and
             sensitive utilities and            procedures. In March 2000, this new
             management approval; and           process was presented to all SPIU
         • periodic inspections,                personnel. The recommendation was
             investigations of unusual          closed by the OIG in October 2002
             activities, and recommended        based on a review of the corrective
             actions in the event these         actions taken.
             activities occur.
    Source: OIG analyses as of April 2003




                                       - 97 -
   Segregation of Duty Controls: Closed Recommendations

 FY(s)       Recommendation                             FBI’s Progress
1996/97   The IRD management           The FBI’s February 1999 response to the
MLC#37    should assess the need       recommendation stated that the FBI created a
          for additional personnel     new unit that would address this
          at the staff level within    recommendation. This recommendation was
          the data security            closed by the OIG upon issuance of the final
          administrative function.     report based on a review of the corrective actions
                                       taken.
1996/97   The IRD should perform       The FBI’s February 1999 response to the
MLC#38    an analysis of the           recommendation stated that the FBI created a
          potential benefits of        new unit that would address this
          applying business            recommendation. The recommendation was
          process re-engineering       closed by the OIG in December 1999 based on a
          and/or activity-based        review of the corrective actions taken.
          costing processes to
          current operations in
          order to enhance
          effectiveness, efficiency,
          and productivity.
2001      Ensure application           The FBI’s September 2002 response to the
MW#8      administrators and           recommendation stated that due to the limited
2000      programmers do not           resources on projects, application programmers
MW#21     have direct update           required update access to the production
          access to both test and      environment. Additionally, as of
          production application       August 2002, 97 of 152 libraries had been
          programs.                    completed. Further, both the PMA and
                                       Payroll Applications (addressed in the finding) had
                                       been restricted. This recommendation was closed
                                       in October 2002 based on a review of the
                                       corrective actions taken.




                                        - 98 -
2001     Establish guidance,        The FBI’s September 2002 response to the
MW#7     policies, procedures, and  recommendation stated that a goal of the FBI’s
2000     awareness of               new Security Division was to develop a
MW#20    segregation of duties      professional information security cadre. The role
         within the divisions and   of the Information System Security Officer was
         units.                     under development. A coordinated effort was
                                    also underway to define the security knowledge
                                    and skills required by the Information
                                    System Security Officer role based upon the best
                                    practices of Industry and the Intelligence
                                    Community. The above-described Security
                                    Training, Education and Awareness Program was
                                    to assist in ensuring that the appropriate type and
                                    level of security knowledge is built into courses
                                    and curriculum for the Information System
                                    Security Officer as well as each function FBI role.
                                    This recommendation was closed during the
                                    FY 2002 Financial Statement Audit based on a
                                    review of the corrective actions taken.
   Source: OIG analyses as of April 2003




                                      - 99 -
     Segregation of Duty Controls: Open Recommendations

 FY(s)      Recommendation                             FBI’s Progress
2001     Ensure that the              The FBI’s September 2002 response to the
MW#9     administrative process       recommendation stated that the Payroll
         surrounding the payroll-     Administration and Processing Unit, and the
         related functions is         Staffing Unit would document payroll related
         documented and               functions and administrative procedures to ensure
         maintained to ensure         consistent application by the staff of the two
         the consistent               units. The documentation was to include
         application of the           operating manuals setting forth the procedures
         payroll-related              for processing each of the payroll related
         administrative process       functions. The FBI provided an estimated
         in the Payroll               completion date for this recommendation of
         Administration and           September 2002.
         Processing Unit and
         Personnel Staffing Unit.
   Source: OIG analyses as of April   2003




                                      - 100 -
      Service Continuity Controls: Closed Recommendations

 FY(s)           Recommendation                              FBI’s Progress
1996/97   Develop procedures to ensure       The FBI’s February 1999 response to the
MLC#21    that daily back-up tapes are       recommendation cited a 3-phase
          stored in a fireproof vault that   implementation process allowing the FBIHQ
          is secure and not located          Data Center to store the weekly backups
          within the immediate Data          from each of its two facilities online. This
          Center to prevent the loss of      recommendation was closed by the OIG
          up to nine days of electronic      upon issuance of the final report based on a
          transactions.                      review of the corrective actions taken.
1996/97   Keep the daily backup tapes in     The FBI’s February 1999 response to the
MLC#22    a fire rated safe if they are      recommendation stated that the Bureau had
          located within each division       taken corrective action to ensure LAN server
          and at the designated off-site     backups were performed on a regular basis
          location to facilitate recovery    and secured accordingly. This
          in the event of a disaster         recommendation was closed by the OIG
          affecting access to FBIHQ.         upon the final report’s issuance based on a
                                             review of the corrective actions taken.
1999      Continue plans to develop a        The FBI’s March 2001 response to the
MW#20     comprehensive contingency          recommendations stated that as part of its
1998      plan that provides an entity-      corrective action, the FBI entered into a
RC#20b    wide approach for the              contract for the development of a continuity
1996/97   recovery of mission-critical       of operations report (COOP) and a concept
RC#15     data processing operation in       of operations report (CONOP). The CONOP
          the event of a disaster,           is for the development of an FBIHQ COOP
          including all FBI resources and    support system designed to provide critical,
          business processes. The plan       uninterrupted FBIHQ support should a
          should provide detailed            terrorist act, natural disaster, or major
          procedures for the recovery of     accident deny use or access to the FBIHQ
          computer operations, including     or its resources. The COOP was scheduled
          mainframes, microcomputers,        for completion in April 2000. These
          workstations, networks and         recommendations were closed upon the
          telecommunications,                issuance of the FY 1999 final report based on
          hardware, and facilities.          a review of the corrective actions taken.
1999      Assign responsibility to a team
MW#21     of individuals to ensure full
          back-up and recovery is
          performed.

1999      Periodically test the
MW#22     comprehensive plan,
1998      document the test results, and
RC#20b    update the plan as necessary.
1996/97
RC#16




                                       - 101 -
1999    Design and implement tests of      The FBI’s March 2001 response to the
MW#25   the current disaster recovery      recommendation stated that the Data Center
        plan to ensure that it works       Contingency Plan was last updated on
        and restoration of services        February 2001, and is revised semiannually
        occurs in a time frame which       in accordance with Federal Information
        is consistent with the             Processing Standards (FIPS) Publication
        expectations of FBI                No. 87, ADP Contingency Planning
        management. Testing should         Guidelines. The OIG responded by stating
        occur not less than annually       that the recommendation can be closed
        and include but not be limited     when annual financial statement audit test
        to the following components:       work verifies that management has designed
        • supervision by a disaster        and implemented tests of the current
          recovery coordinator;            disaster recovery plan. This
        • variation in disaster recovery   recommendation was closed by the OIG in
          coordinator;                     October 2002 based on a review of the
        • utilization of multiple teams;   corrective actions taken.
        • stated objectives;
        • debriefing sessions; and
        • retention of adequate
          documentation.




1999    Ensure that the FBI or co-         The FBI’s March 2001 response to the
MW#26   located DOJ disaster recovery      recommendation stated that implementation
        facility has full back-up          of the IBM Capacity Backup feature ensures
        capacity.                          that each disaster recovery facility has full
                                           backup capacity. The OIG responded by
                                           stating that the recommendation can be
                                           closed when annual financial statement audit
                                           test work verifies that the FBI or co-located
                                           DOJ disaster recovery facility has full back-
                                           up capacity. This recommendation was
                                           closed by the OIG in October 2002 based on
                                           a review of the corrective actions taken.
1999    Ensure all data center             The FBI’s March 2001 response to the
MW#32   personnel are informed when        recommendation stated that Data Center
        the ADPT contingency plan has      Unit employees had been briefed on
        been completed and approved        emergency procedures and responsibilities
        and that employees have            through hands-on training and by
        access to the plan.                distributing written policies and procedures.
                                           The recommendation was closed by the OIG
                                           upon issuance of the FY 1999 final report
                                           based on a review of the corrective actions
                                           taken.




                                     - 102 -
1999    Develop entity-wide policies       The FBI’s March 2001 response to the
MW#33   and procedures for performing      recommendation stated that Application
        back-ups, which include:           Project Managers are responsible for
        • the required frequency           determining the backup frequency and
            with which files should be     retention periods as documented in the
            backed-up;                     FBIHQ Computer Center User Reference
        • off-site rotation policies;      Manual. This recommendation was closed by
        • retention policies;              the OIG upon issuance of the FY 1999 final
        • monitoring to ensure that        report based on a review of the corrective
            back-ups are complete;         actions taken.
            and
        • definition of roles and
            responsibilities.
2000    Include test scenarios and test    The FBI’s September 2001 response to the
MW#13   plans, as suggested by FIPS        recommendation stated that the
1999    Publication No. 87, in the FBI’s   Data Center Contingency Plan was last
MW#28   Headquarters Data Center           updated in February 2001 and that the plan
        Contingency Plan.                  had been finalized and copies were
        Specifically:                      maintained off-site and were disseminated.
        • identify test scenarios for      This recommendation was closed by the OIG
            emergency procedures and       in October 2002 based on a review of the
            disaster recovery, and         corrective actions taken.
        • establish processing
            priorities in the event of a
            disaster.




                                    - 103 -
         Test the contingency plan.        The FY 2000 recommendation was closed by
                                           the OIG upon final issuance of the
                                           FY 2000 final report.

2000     •   Prepare and maintain a        •    The OIG followed up on this
MW#14a       long-term schedule of the          recommendation through its monitoring
1999         planned semiannual tests           of the status of the FY 1999 report. The
MW#27        to ensure all critical             FY 1999 recommendation was
             functions covered by the           subsequently closed by the OIG in
             Business Recovery Plan are         October 2002 based on a review of
             tested every one to two            corrective actions taken.
             years, whenever significant
             changes to the plan have
             been made, or when there
             is turnover of key people
             involved in disaster
             recovery.

2000     •   Test a number of different    •    The OIG followed up on this
MW#14b       scenarios while conducting         recommendation through its monitoring
1999         semiannual tests.                  of the status of the FY 1999 report. The
MW#28                                           FY 1999 recommendation was
                                                subsequently closed by the OIG in
                                                October 2002 based on a review of
                                                corrective actions taken.

2000     •   Conduct a full test two to    •    The OIG followed up on this
MW#14c       three years to ensure the          recommendation through its monitoring
1999         viability of the disaster          of the status of the FY 1999 report. The
MW#29        recovery plan.                     FY 1999 recommendation was
                                                subsequently closed by the OIG in
                                                October 2002 based on a review of
                                                corrective actions taken.

2000     •   Finalize the plan and         •    This recommendation was closed by the
MW#14d       maintain copies at an off-         OIG upon final issuance of the FY 2000
1999         site location.                     report based on a review of corrective
MW#24                                           actions taken.




                                      - 104 -
2000    Brief Data Center               The FBI’s September 2001 response to the
MW#15   personnel on emergency          recommendation stated that the Data Center Unit
1999    procedures and                  employees have been briefed on emergency
MW#31   responsibilities through        procedures and responsibilities through hands on
        training sessions and by        training and by distributing written policies and
        distributing written policies   procedures. This recommendation was closed by
        and procedures. Training        the OIG in October 2002 based on a review of the
        sessions should be held at      corrective actions taken.
        least once a year and
        whenever changes to
        emergency plans are
        made.

   Source: OIG analyses as of April 2003




                                        - 105 -
         Service Continuity Controls: Open Recommendations

 FY(s)      Recommendation                          FBI’s Progress
1999       Continue to update   The FBI’s March 2001 response to the
MW#23      the ADPT             recommendation stated that the Data Center
           contingency plan,    Contingency Plan was last updated on February 2001,
           addressing the       and is revised semiannually in accordance with
           weaknesses           FIPS Publication No. 87, ADP Contingency Planning
           identified and using Guidelines. The OIG responded by stating that the
           FIPS Publication No. recommendation can be closed when annual financial
           87, ADP              statement audit test work verifies that management
           Contingency          has acquired the IBM Capacity Backup feature and
           Planning guidelines. test plan scenarios have been developed in
                                accordance with FIPS Publication No. 87, Guidelines
                                for ADP Contingency Planning. The FBI’s June 2002
                                response stated that the mainframe was running at
                                60 percent capacity. The OIG’s response dated
                                October 2002 stated that this recommendation can be
                                closed when annual financial statement audit test
                                work verifies that the production test exercise
                                involving transfer of production operations
                                applications to their back-up site has been completed.
                                This exercise was scheduled for November 2002.
2000      Ensure the Finance    The FY 2000 recommendation was closed by the OIG
MW#14e Division has             upon final issuance of the FY 2000 final report. The
1999      developed and         OIG followed up on this recommendation through its
MW#30     distributed to end-   monitoring of the status of the FY 1999 report. The
          users, a contingency FBI’s September 2001 response to the
          plan covering its     recommendation stated that the plan has been
          information           finalized and that copies are maintained at the off-site
          technology            location and disseminated to appropriate personnel.
          applications. The     The OIG responded by stating that this
          plan should be        recommendation can be closed when annual financial
          consistent with the   statement audit test work verifies that the Finance
          ADPT Contingency      Division has developed and distributed to end-users a
          Plan maintained by    contingency plan covering its information technology
          the FBIHQ Data        applications. The FBI’s June 2002 response stated
          Center.               that the completion date for all contingency plans was
                                July 2002.
    Source: OIG Analyses as of April 2003




                                       - 106 -
           Application Controls: Closed Recommendations

 FY(s)      Recommendation                             FBI’s Progress
1998     Evaluate FMS security       The FBI’s June 2000 response to the
RC#19    features to determine if    recommendation stated that that the
         control over application    System Security Access Unit generates a
         transactions can be         FMS CA-Top Secret profile file on a weekly basis for
         more effectively            review by the FMS staff. This recommendation was
         managed by CA-Top           closed by the OIG in October 2002 based on a
         Secret.                     review of the corrective actions taken.
1999     Review the budgetary        The FBI’s March 2001 response to the
MW#34    module of the FMS,          recommendation stated that the FMS software
         determine the cause of      vendor was notified and, after a review of the test
         the application security    data, provided the FBI with a software resolution.
         weakness allowing for       The software resolution was successfully tested and
         the transfer of funds       implemented into the production FMS in
         beyond the authorized       March 2000. This recommendation was closed by
         balance, and take the       the OIG upon issuance of the FY 1999 final report
         appropriate measures to     based on a review of the corrective actions taken.
         ensure adequate
         controls are in place.
1999     Define, document, and       The FBI’s March 2001 response to the
RC#37    communicate the roles       recommendations stated that the IRD has limited
         and responsibilities for    the number of programmers who can move code to
         changing code to the        the production environment. Limiting the number of
         Payroll Application.        programmers minimizes the risk for unauthorized
1999     Review the list of users    access to the production environment. These
RC#38    having access to the        recommendations were closed by the OIG upon
         Payroll application code,   issuance of the FY 1999 final report based on a
         determine which users       review of the corrective actions taken.
         should not be making
         changes in accordance
         with their duties and
         responsibilities, and
         revoke access to users
         who should not be
         making changes.
1999     Ensure that user access
RC#39    to payroll code is
         authorized, documented,
         and periodically
         reviewed.




                                       - 107 -
1999    Establish a new Payroll      The FBI’s March 2001 response to the
RC#40   test and development         recommendations stated that the IRD has created
        environment.                 a separate test environment for the
1999    Establish a separate test    Payroll Application. This environment mimics the
RC#41   environment for              production environment and permits the
        developing and/or            programmers to perform complete tests on all
        modifying application        changes. When all parties involved are satisfied,
        changes.                     the changes are moved to the production
1999    Periodically review and      environment. These recommendations were
RC#42   modify the new test          closed by the OIG upon issuance of the FY 1999
        environment.                 final report based on a review of the corrective
1999    Adhere to the FBI’s          actions taken.
RC#43   change management
        processes for applications
        and system software once
        formal processes have
        been developed.
2000    Perform an assessment of   The FBI’s September 2001 response to the
RC#22   financial data to ensure   recommendation stated that the FMS software
        the issue has not          vendor was made aware of the problem and
        impacted the               provided the FBI a software resolution which was
        FY 2000 Financial          tested and implemented into the production FMS in
        Statements.                March 2000. This recommendation was closed by
                                   the OIG in October 2002 based on an assessment
                                   of the financial data in the FY 2000 financial
                                   statements.
   Source: OIG analyses as of April 2003




                                      - 108 -
            Application Controls: Open Recommendations

 FY(s)      Recommendation                               FBI’s Progress
2000     Coordinate with the          The FBI’s September 2001 response to the
RC#23    General Services             recommendation stated that the Finance Division
         Administration to            had not made a request to have the process looked
         synchronize file formats     into or to change the file format. The OIG
         so that data sent via        responded by stating that the recommendation
         Simplified                   could be closed when it verifies that the file formats
         Intergovernmental            are synchronized so data can be sent via Simplified
         Buying and Collection        Intergovernmental Buying and Collection to
         will correctly interface     correctly interface with the FMS application.
         with the FMS application.    Additionally, in October 2002, the OIG’s updated
                                      response stated that the recommendation could be
                                      closed when annual financial statement audit test
                                      work verifies that the Intra-governmental Payment
                                      and Collection System is in place and manual data
                                      entry obligations and expenses are effective.
2000     Ensure the FPDS screen       The FBI’s September 2001 response to the
RC#24    is modified to include all   recommendation stated that the Property
         the fields required for      Procurement and Management Section was
         accurate procurement         submitting a request detailing the specific fields that
         reporting.                   need to be added. The OIG responded by stating
                                      that this recommendation can be closed when
                                      annual financial statement audit test work verifies
                                      that the corrective action was completed.
2000     Currently there is no        The FBI’s September 2001 response to the
RC#25    restriction in place to      recommendation stated that the software vendor
         prevent operators from       had been requested to make enhancements so that
         selecting any valid field    the FMS will subsequently ensure the appropriate
         identification or buyer      enhancements are incorporated. The OIG’s most
         identification. Continue     recent response dated October 2002 stated that the
         to pursue actions            recommendation can be closed pending verification
         initiated to correct this    of corrective action.
         problem as soon as
         possible.
2001     Remove the additional        The FBI’s September 2002 response to the
MW#10    access capability from       recommendation stated that the Financial Systems
         any PMA user not             Unit cost code 0448 is charged with the
         authorized or required to    responsibility of providing technical support for the
         have the additional          PMA to include software development and
         access to complete their     maintenance, quality assurance, ad-hoc reporting,
         job function.                physical inventory support, responsiveness to
                                      oversight inquiries, and troubleshooting calls. Due
                                      to the nature of PMA activity, Financial Systems Unit
                                      management has designated that up to six
                                      employees in 0448 should have global access to
                                      PMA reporting. In support of this, the Financial
                                      Systems Unit will replace 0448 references with
                                      software embedded accessor identifications. The
                                      OIG responded by stating that this recommendation
                                      can be closed upon verification of corrective action.


                                        - 109 -
2001   Develop and implement      The FBI’s September 2002 response to the
MW#11  a plan to ensure:          recommendation stated that the Unit Chief of the
       a. input control           Property Management Unit will request that the
           weaknesses             programmers assigned to the Financial Systems Unit
           identified in the PMA  modify the PMA to require users to verify the
           are appropriately      barcode number and the serial number before
           addressed, and         property is entered into the PMA. In addition, the
       b. the risk associated     PMU will contact the Firearms Training Unit and the
           with the processing    Firearms-Toolmarks Unit to request that they begin
           control weaknesses     reviewing the firearms and firearm accessories data
           in the PMA are         maintained on the PMA.
           mitigated to ensure
           that all property is
           entered, and
           purchase order and
           property numbers
           are accounted for.
   Source: OIG analyses as of April 2003




                                    - 110 -
   Other Financial-Related IT Areas: Closed Recommendations

 FY(s)       Recommendation                              FBI’s Progress
1996/97   Year 2000: Provide         The FBI’s February 1999 response to the
MLC#19    monthly status briefings   recommendation stated that the FBI’s
          to the Director of the     Senior Official for Year 2000 regularly briefed the
          FBI on the status of the   Deputy Director and provided monthly progress
          Year 2000 project.         reports on all Year 2000 efforts. This
                                     recommendation was closed by the OIG upon
                                     issuance of the final report based on a review of the
                                     corrective actions taken.
1996/97 Strategic Planning:          The FBI’s February 1999 response to the
MLC#20 Develop and maintain          recommendation stated that the FBI completed a
         an IT strategic plan that strategic plan during 1997 and 1998 and the
         projects technology         FBI Strategic Plans will be updated annually. This
         spending for a 3 to         recommendation was closed by the OIG upon
         5-year period.              issuance of the final report based on a review of the
                                     corrective actions taken.
1996/97 Network Encryption:          The FBI’s February 1999 response to the
MLC#32 Evaluate encryption           recommendation stated that the FBI is continuing to
         alternatives to reduce      evaluate new security technologies as they evolve.
         the risk of compromising This recommendation was closed by the OIG upon
         sensitive information.      issuance of the final report based on a review of the
                                     corrective actions taken.
    Source: OIG analyses as of April 2003




                                       - 111 -
2. Recommendations on the FBI’s FY 2001 GISRA Report

             FY 2001 GISRA Report’s Management Controls:
                       Closed Recommendation

      Recommendation                                    FBI’s Progress
   #1. Define and             The FBI’s April 2002 response to the recommendation
   document all criticality   stated that all criticality factors had been articulated and
   levels used to classify    documented. However, the OIG stated in the May 2002
   applications.              GISRA report that the FBI should complete and update the
                              criticality levels within the risk analysis of the System
                              Security Authorization. In June 2002, the FBI provided the
                              OIG’s contractor with documentation evidencing the
                              criticality levels of risk analyses within the System Security
                              Authorization documents for the investigative and
                              administrative systems. This documentation resulted in
                              the OIG closing the recommendation in December 2002.
   #4. Document a             The FBI’s April 2002 response to the recommendation
   corrective action plan to  stated that a detailed action plan had been created and
   address the                disseminated to all affected components. The OIG closed
   vulnerabilities identified this recommendation in April 2003 after receiving
   in the risk analysis for   documentation from the FBI that demonstrated the
   the investigative and      corrective action plan to address the vulnerabilities
   administrative             identified in the risk analyses for the investigative and
   mainframe systems that     administrative mainframe systems.
   describe how each of the
   recommended actions
   will be accomplished.
      Source: OIG analyses as of April 2003




                                        - 112 -
         FY 2001 GISRA Report’s Management Controls:
                   Open Recommendations

   Recommendation                                  FBI’s Progress
#2. Distribute, obtain,    Although the FBI did not initially agree with this
and maintain signed        recommendation in their April 2002 response to the OIG’s
statements of end-users’   recommendation, the subsequent response dated June 2002
acknowledgement of the     concurred with the recommendation and indicated that
Automated Information      alternative corrective actions were in place. However, the
System Rules of            documentation sent to the OIG in June 2002 did not provide
Behavior for the           adequate evidence to show employee acknowledgement of
investigative and          the Rules of Behavior. The provided documentation lacks
administrative             signatures, proof of being an FBI document, and a means to
mainframe systems.         determine that those employees who missed the mandatory
                           training sessions received the Rules of Behavior. The OIG is
                           requesting that all FBI users receive the proper training in
                           regard to the rules of behavior and that it receive
                           documentation demonstrating that FBI users receive
                           training.
#3. Ensure the MIOG        The FBI reported that a top to bottom review of existing FBI
and other FBI security     policy is underway and it is anticipated that the current
policies reflect the       MIOG policies and procedures will be substantially altered to
evolving systems           conform to current standards. To close the
environment and are        recommendation, the FBI should provide the OIG with a copy
enforced.                  of the updated procedures and evidence that the procedures
                           are being enforced.


#5. Obtain a full          The FBI’s responses to this recommendation stated that the
accreditation for the      OIG “requirement” for full accreditation of the administrative
investigative and          and investigative mainframes without conditions is not only
administrative             unachievable in the current FBI environment, but outside of
mainframe systems from     the OIG authority. The FBI further stated that the
the FBI’s approving        Designated Approving Authority (DAA) is the only official,
authority; a conditional   besides the Principal Accrediting Authority, with the authority
accreditation should be    to “formally assume responsibility for operating a system at
unacceptable.              an acceptable level of risk.” According to the FBI, the DAA
                           has made the decision to permit the investigative and
                           administrative mainframe systems to operate at their current
                           level of risk for technical, management, and operational
                           reasons. To resolve and close this recommendation, the FBI
                           should provide the OIG with documentation evidencing that
                           the DAA has accepted the inherent risk by signing the
                           accreditation memorandum granting full accreditation to the
                           investigative and administrative mainframe systems.




                                     - 113 -
#6. Conduct annual       The FBI’s responses to this recommendation stated that it is
refresher computer       working on an initiative that includes developing a variety of
training for all         training awareness curricula for delivery to every employee.
employees.               It also stated that the design and development of this effort
                         is expected to continue through the calendar year and be
                         ready for implementation at or near the start of 2003.
                         Because the documentation the FBI submitted to the OIG in
                         June 2002 was not complete with signatures, titles, dates
                         and times, the recommendation remained open as of April
                         2003.
  Source: OIG analyses as April 2003




                                    - 114 -
             FY 2001 GISRA Report’s Operational Controls:
                       Closed Recommendation

       Recommendation                                  FBI’s Progress
#7. Restrict access to all wiring The FBI’s April 2002 and June 2002 responses to the
closets.                          recommendation stated that all wiring closets have
                                  appropriate locks in place and employees with access
                                  to these restricted areas have been reminded of
                                  required security. The OIG closed this
                                  recommendation in April 2003 after receiving
                                  documentation from the FBI that evidenced its
                                  reminder of required security to employees with access
                                  to restricted areas.
#10. Establish optimal operating The FBI’s April 2002 response to the recommendation
system capacities and implement stated that in September 2001, a mainframe system
procedures to alleviate the near  update was performed to rectify the issue of system
capacity usage.                   capacity at both Data Centers. Upon verification of the
                                  corrective actions by the OIG contractor, the
                                  recommendation was closed upon issuance of the final
                                  report.
     Source: OIG analyses as of April 2003




                                       - 115 -
                 FY 2001 GISRA Report’s Operational Controls:
                         Open Recommendation

     Recommendation                           FBI’s Progress
#8. Document               The FBI’s April 2002 and June 2002 responses to the
procedures for identifying recommendation stated that the Data Center
and restoring mission-     manuals have been updated as of
critical systems.          June 14, 2001, to reflect proper procedures for
                           restoring the FBI mission-critical systems on the
                           investigative and administrative mainframes. In the
                           FBI’s response dated June 2002, the FBI included a
                           copy of the updated procedures. However, the
                           documentation does not provide instructions as to
                           the order the in which systems should be restored.
                           Because the documentation the FBI submitted to the
                           OIG in June 2002 was not complete, the
                           recommendation remained open as of April 2003.
#9. Complete the           The FBI’s April 2002 response to the
production test exercise   recommendation stated that backup and recovery
involving the transfer of  procedures were tested for all investigative
production operations and applications in January 2002 and were scheduled to
applications to the backup be tested for administrative applications in
site and train Data Center October 2002. To close this recommendation, the
staff for this contingency FBI should provide documentation to the OIG
control.                   demonstrating the successful completion of the
                           administrative applications transfer test conducted in
                           the spring of 2003.
      Source: OIG analyses as of April 2003




                                       - 116 -
            FY 2001 GISRA Report’s Technical Controls:
                    Closed Recommendations

 Recommendation                               FBI’s Progress
#12. Fully           The FBI’s April 2002 response to the recommendations stated
implement and use    that the Security Access Request function was implemented in
the System Access    April 2001 and that the 12 accounts mentioned in the finding
Request function to  were not processed through the System Access Request.
document user logon Subsequent to this response, the FBI provided the OIG with
and verify that user documentation evidencing that the System Access Request
access is            function was fully implemented and being used to document
commensurate with    user logon and verify that user access is commensurate with
assigned             assigned responsibilities. This documentation resulted in the
responsibilities.    OIG closing the recommendation in December 2002.
#16. Ensure that     The FBI’s April 2002 response to the recommendation stated
the communication    that its Inspection Division verified that none of the identified
carrier signals are  modems were connected to the FBI network in August 2001.
not connected to     Upon verification of the corrective, the recommendation was
unencrypted network closed upon issuance of the final report in May 2002.
devices.
  Source: OIG analyses as of April 2003




                                     - 117 -
            FY 2001 GISRA Report’s Technical Controls:
                     Open Recommendations

 Recommendation                                  FBI’s Progress
#11. Implement and      The FBI’s April 2002 response to the recommendation stated
enforce DOJ             that limitations with Novell and Windows NT software
password policies by    prevented full compliance with DOJ directives. The OIG
re-setting and          disagreed with the FBI’s position and indicated that DOJ
monitoring operating    policies could be complied with through password masking.
system settings         FBI officials subsequently stated that they have implemented
accordingly.            the DOJ policy with respect to passwords, with the exception
                        of one, password masking, which is not available to ensure a
                        mix of alphabetic, numeric, and special characters. The OIG
                        has obtained information from Novell and found that since
                        1999, Novell has provided an enhancement to the Novell Client
                        software, which allows enforcement of a password policy using
                        locally stored data to ensure a mix of alphabetic, numeric, and
                        special characters. To close this recommendation, the FBI
                        should implement a password policy to ensure a mix of
                        alphabetic, numeric, and special characters and provide the
                        OIG with a screen shot demonstrating that password setting
                        have been implemented according to DOJ policy.
#13. Enforce DOJ        The FBI’s April 2002 response to the recommendation stated
security policies and   that controls are in place to limit a user’s access to only the
ensure sufficient       information he/she needs to perform his/her job and
controls for FBI        requested more information to further respond. The OIG
systems to operate      stated in December 2002 that the FBI continued to disagree
so that authorized      with this recommendation. However, the FBI has
users have access to    subsequently agreed that there were deficiencies with network
only the information    accounts, and consequently initiated and completed a major
they are entitled to.   effort to correct password deficiencies and ensure that
                        password control options are set properly and enforced. In
                        April 2003, the OIG stated that to close the recommendation,
                        the FBI should provide documentation that identifies users
                        with access to administrative and investigative systems as well
                        as their roles and responsibilities. After reviewing this
                        documentation, the OIG can determine if users have proper
                        access to the systems and satisfy the terms to this
                        recommendation.




                                     - 118 -
#14. Require that       The FBI’s April 2002 response to the recommendation stated
system                  that no automated process existed on its local networks to
administrators          assist system administrators with the function of periodically
periodically review     reviewing and deleting system accounts that have been
and delete all system   unused for more than 90 days, but the process would be
accounts that have      automated and centrally administered by the Enterprise
been unused for         Operations Center when Trilogy upgrades are completed in
more than 90 days.      October 2002. In order to close this recommendation, the OIG
                        requested the FBI to provide them with documentation
                        evidencing that it is requiring system administrators to
                        periodically review and delete all system accounts that have
                        not been used for more than 90 days. In April 2003, the OIG
                        informed the FBI that the updated status of this
                        recommendation was pending and would be provided based
                        upon the results of the FY 2003 financial statement audit of
                        the FBI.
#15. Enable account     The FBI’s April 2002 response to the recommendation stated
lockout on all          that account lockout settings have been set to comply with the
systems so that it      DOJ’s standards. In order to close this recommendation, the
occurs after three      OIG requested the FBI to provide them with documentation
unsuccessful logon      (screen shots) evidencing that account lockout has been
attempts.               enabled on all systems so that it occurs after three
                        unsuccessful logon attempts. Because the FBI’s responses
                        have not provided the OIG with appropriate documentation,
                        the recommendation remained open as of April 2003.
#17. Enforce the        The FBI’s April 2002 response to the recommendation stated
use of the FBI’s        that the Service Center application is now the only approved
Service Center as a     method for recording system changes as a result of its
centralized approval    February 2002 system upgrades. Subsequently, the FBI
point to track all      provided the OIG with documentation supporting that policies
change requests         and procedures existed for the centralized approved change
from initiation         management process. However, the OIG stated in December
through final           2002 that these polices were not being enforced. Although the
disposition.            OIG closed the recommendation in December 2002, in order to
                        track its status with the GISRA FY 2002 review of the FBI’s
                        ACS system, we considered the recommendation to be open
                        since the FBI could not demonstrate that policies were being
                        enforced.
#18. Implement the      The FBI’s April 2002 response to the recommendation stated
format and content      that it created and implemented format and content standards
standards for           for application development and modification by FY 2002.
information             However, in the FBI’s memorandum dated March 11, 2003,
technology              the FBI stated that it anticipates completion for the
development and         implementation of the format and content standards for
maintenance support     information technology development and maintenance support
test plans.             test plans to be December 2003. In order to close this
                        recommendation, the OIG requested the FBI to provide them
                        with documentation evidencing that the format and content
                        standards for IT development and maintenance support test
                        plans are fully implemented.



                                     - 119 -
#19. Update the        The FBI’s April 2002 response to the recommendation stated
Architecture Change    that the FBI did not concur with the recommendation as it was
Management Policy      written. As a result, the recommendation was considered
to reflect the FBI’s   unresolved upon final report issuance in May 2002. The FBI’s
current information    next response dated June 2002 stated that a FBI-wide
application and        Configuration Management (CM) policy was created and
system software        approved by the Chief Information Officer on October 1, 2001.
environment.           The FBI has since acquired a contractor to assist them in
                       complying with the FBI-wide Configuration Management (CM)
                       policy. The new CM procedures have been developed and
                       were to be validated in March 2003. Once validated, the FBI
                       will develop a plan for implementing the procedures through
                       the IRD. To close this recommendation, the FBI should
                       provide the OIG with documentation demonstrating that the
                       CM procedures as well as a copy of the developed plan for
                       implementing the CM procedures.
#20. Document          The FBI’s April 2002 response to the recommendation stated
procedures to          that as of March 2002, a review board now meets every two
establish the          weeks to ensure supervisory review and determine procedures
supervisory review     for any deviations that may occur. In order to close this
process of software    recommendation, the OIG requested the FBI to provide a copy
change when            of documented procedures for that process.
deviations from
normal procedures
occur.
#21. Enable            The FBI’s April 2002 response to the recommendation stated
auditing to capture    that the auditing functions were enabled only on servers that
the necessary          met required processing and storage capacity to support those
system information     functions. The response further stated that as obsolete
to comply with DOJ     servers are being replaced, auditing functions are enabled on
policy.                replacement servers and estimates a complete phase out of
                       obsolete servers by July 2003. In order to close this
                       recommendation, the OIG requested the FBI to provide
                       documentation evidencing that auditing (or some other
                       compensating control) is enabled on all servers to capture the
                       necessary system information in order to comply with DOJ
                       policy.




                                    - 120 -
#22. Require that         The FBI’s April 2002 response to the recommendation stated
audit trail activity be   that it is impractical to conduct regular reviews of audit trail
reviewed regularly.       activity for either all personnel or all information systems. As
                          a result, the recommendation was considered unresolved upon
                          final report issuance in May 2002. In December 2002, the OIG
                          stated that FBI continued to indicate that it is impractical to
                          conduct regular reviews of audit trail activity for either all
                          personnel or all information systems. However, the FBI has
                          since agreed that security audit is an essential part of system
                          security. The Security Division is systematically addressing
                          audit requirements for each FBI information system in the
                          ongoing Certification and Accreditation effort. The Information
                          Assurance Section has also begun the build-out of the
                          Enterprise Security Operations Center (ESOC) that will have
                          multiple security capabilities. To close this recommendation,
                          the FBI should provide the OIG with documentation
                          demonstrating that the initial and full operating capability of
                          the ESOC upon completion.

#23. Apply           The FBI’s April 2002 response to the recommendation stated
manufacturer         that in March 2002, manufacturer’s patches were implemented
patches in a timely  as a required part of the change management process to
manner to prevent    ensure that changes do not result in negative impacts to
system compromise    applications and/or users. In order to close this
to all network       recommendation, the OIG requested that the FBI provide
operating systems.   documentation evidencing the corrective action taken.
                     Because the FBI’s responses have not provided the OIG with
                     appropriate documentation, the recommendation remained
                     open as of April 2003.
  Source: OIG analyses as of April 2003




                                       - 121 -
3. Recommendations on the FBI’s Special Investigation Reports

                  Campaign Finance Investigation Report:
                        Open Recommendations

       Recommendation                                 FBI’s Progress
   IV.A (#9) The Manual of      The FBI’s July 1999 response to this recommendation
   Administrative               stated that the FBI would establish a working group to
   Operations and               revise the procedures governing the uploading of
   Procedures should be         documents and indexing of names in the ACS system.
   revised to require more      However, the FBI’s response dated August 2001, stated
   comprehensive                that the FBI did not establish a formal working group as
   mandatory indexing of        originally intended but instead relied upon the
   names appearing in an        Information Resources Division to work with other FBI
   FBI document, and entry      divisions to improve the ACS system’s procedures. The
   practices should be          FBI’s May 2003 response to this recommendation stated
   changed accordingly.         that the not all documents can be uploaded (into the
   Additionally, FBI policies   Electronic Case File) due to certain sensitivities and
   should be changed to         restrictions. However, the FBI issued ECs in July 2000
   require that all             and June 2002 that required ECs and e-mails to be
   documents be uploaded        uploaded into the ACS system, unless otherwise
   into the Electronic Case     prohibited. Regarding the mandatory indexing of names,
   File database.               the FBI stated that the VCF will facilitate indexing on
                                various web-based documents by providing data fields in
                                searchable database tables. The index is created once
                                the document is approved and serialized into the VCF.
                                The index data can be searched using search screens or
                                viewing the serialized document. Because the first
                                release of the VCF is not scheduled for completion until
                                December 2003, this recommendation remains open.




                                         - 122 -
IV.B (#10) Supplementary            The FBI’s July 1999 response to this recommendation
training for agents who are         stated that the FBI was developing a program to
principally responsible for the     provide agents with additional training on the ACS
information that is entered into    system once the new ACS system procedures are
the ACS system should be            adopted. The FBI’s August 2001 response stated that
performed.                          the IRD provided basic ACS system training in 1999 and
                                    2000 to over 200 special agents and close to 1,000 new
                                    special agents, while close to 200 special agents
                                    received basic ACS system training in 2001. The FBI’s
                                    May 2003 response stated that 43 veteran agents and
                                    1,374 new agents were trained on the ACS system
                                    between August 2001 and May 2003. Additionally, the
                                    FBI’s response stated web-based VCF training would be
                                    conducted between October 2003 and November 2003.
                                    To prepare for the VCF training, the FBI is assessing its
                                    employees’ basic computer literacy skills. This
                                    assessment identifies employees in need of additional
                                    computer skills so that appropriate training can be
                                    taken prior to the VCF training. Because it is not clear
                                    whether the ACS training provided to veteran agents
                                    has been adequate and we were unable to assess the
                                    FBI’s web-based training for the VCF (since it will not
                                    occur until October and November 2003), this
                                    recommendation remains open.
IV.C (#11) Agents should be         The FBI’s July 1999 response to this recommendation
made responsible for                stated that the working group addressing the issues
determining what information        concerning ACS would also review the problems with the
is entered into the IIIA system     IIIA system identified by the recommendation. However,
or for reviewing entries made       the FBI’s response dated August 2001 stated that while
by analysts to ensure their         the FBI did not establish a formal working group as
accuracy and completeness.          originally intended, it did advise users of the IIIA system
Additionally, the FBI should        of new system enhancements, policies, and procedures
consider increasing the number      through a newsletter. The response further stated that
of IIIA system analysts,            in 1999 and 2000: (1) additional training was provided
particularly in those field         to users of the IIIA system, and (2) several initiatives
offices that generate significant   were undertaken to improve the accuracy of information
amounts of foreign counter-         in the IIIA system. Additionally, the response stated
intelligence information.           that Trilogy’s new enterprise solution (VCF) would
Finally, when IIIA searches are     ultimately absorb the IIIA system (scheduled for
performed, original IIIA system     deployment in June 2004. The FBI’s May 2003 response
reports should be provided to       to this recommendation stated that significant changes
the parties who requested the       are planned for the IIIA system since the VCF
searches, rather than summary       development is not based on a system-by-system
electronic communications.          replacement, but rather a re-engineering of business
                                    practices and policies. The FBI is continuing to schedule
                                    and prioritize the functional components that must be
                                    integrated into the VCF for each delivery through June
                                    2004. Because replacement of the IIIA system is
                                    planned as part of releases two and three of the VCF
                                    scheduled for June 2004, this recommendation remains
                                    open.


                                           - 123 -
IV.D (#12) Any task force    The FBI’s July 1999 response to this recommendation
that is using the FBI’s      stated that appropriate training would be conducted
databases should obtain at   whenever a relevant task force is created. The FBI’s
least a fundamental          May 2003 response to this recommendation stated that the
appreciation for their       VCF training plan includes all Bureau task force members
operation.                   who will have access to the VCF application. Because the
                             VCF training has not yet been completed, this
                             recommendation remains open.




                                       - 124 -
IV.E (#13) Ensure that the     The FBI’s July 1999 response to this recommendation
FBI’s database operators       stated that the working group addressing the issues
are conversant with the        concerning the ACS system would also review ways of
format of Chinese and other    improving the process of entering and retrieving foreign
foreign names.                 names in FBI databases. However, the FBI’s response
Additionally, database         dated August 2001, stated that while the FBI did not
operators should inquire       establish a formal working group as originally intended, it
about whether the              did make enhancements to the IIIA system in July 2000 so
requesting party has in fact   that variations of a name are identified during a search.
determined the order of        The FBI’s May 2003 response to this recommendation
such names, and if in          stated that on May 3, 2002, the LTAU announced in an EC a
doubt, should always           project to adopt and implement standards for the uniform
perform an “around the         “Romanization” of foreign personal and place names.
clock” search.                 Additionally, in an EC dated May 8, 2002, the LTAU began
                               work on implementing standardization systems for
                               “Romanizing” Arabic by offering training to all applicable
                               FBI employees. According to the FBI, by the end of the
                               second quarter of FY 2003, 371 FBI employees had
                               received training in Arabic “Romanization,” while classes
                               continue to be held. Regarding Chinese “Romanization,”
                               the LTAU announced in an EC dated September 12, 2002,
                               that training on Chinese “Romanization” was being offered
                               to all applicable FBI employees. As of June 9, 2003, a total
                               of 80 FBI employees had been trained in Chinese
                               “Romanization” while classed continue to be held. The
                               FBI’s May 2003 response to this recommendation also
                               stated that the FBI selected a commercial-off-the-shelf
                               application for searching names. The software will search
                               names entered in any order and will create different
                               permutations of ordering. The software will not only search
                               the different orders of names, but also will have algorithms
                               to detect common or likely misspellings, sound-a-likes, and
                               cultural differences. Additionally, the LTAU worked with the
                               VCF project management team to create a keyboard for the
                               “Romanization” of names in accordance with the
                               U.S. Board on Geographic Names.

                               In addition to training, the FBI expects the VCF to help
                               database operators apply foreign names to searches within
                               databases. For example, the VCF will allow the addition of
                               STC for Asian names, Unicoded for other foreign names,
                               and it will deploy a name search engine that incorporates
                               variations on names. Because the first release of the VCF is
                               not scheduled for completion until December 2003, this
                               recommendation remains open.

      Source: OIG analyses as of May 2003




                                         - 125 -
                McVeigh Report: Closed Recommendations

#8. The FBI should             The FBI’s September 2002 response to this
evaluate its computer          recommendation stated that training was being
training in order to develop   assessed by a curriculum review committee. The
a clear understanding of       FBI’s April 2003 response to this recommendation
what agents need to            stated that the Training Division completed the design
perform their jobs             of instruments currently being used by new agents
effectively.                   and managers to assess what computer skills agents
                               need to perform their jobs and to determine the need
                               for additional improvements to the new agents’
                               computer training curriculum. These instruments,
                               which will evaluate whether the Training Division’s
                               computer training program is meeting the needs of
                               field offices and investigators, are in the process of
                               being tested. Based on a review of supporting
                               documentation provided by the FBI, we believe that
                               the FBI has adequately addressed this
                               recommendation.
#9. The FBI should             The FBI’s September 2002 response to this
consider whether computer      recommendation stated that the Training Division
usage should be a part of      intends to implement policy requiring all new agents
the core skills needed to      to possess core computer competency skills prior to
graduate from the new          graduation. The FBI’s April 2003 response to this
agents training academy.       recommendation stated that the Training Division
                               determined that computer training should be a core
                               requirement for graduation from the FBI Academy.
                               Accordingly, the Training Division has implemented a
                               policy requiring all new agents to pass an exam on
                               core computer competency skills prior to graduation.
                               Based on a review of supporting documentation
                               provided by the FBI, we believe that the FBI has
                               adequately addressed this recommendation.
#10. The FBI should            The FBI’s September 2002 response to this
consider mandatory             recommendation stated that the Training Division
refresher training for         works to encourage the use of investigative computer
veteran agents.                training for veteran agents. The FBI’s April 2003
                               response to this recommendation stated that the FBI
                               has recently implemented a program of continual
                               mandatory training for veteran agents, and all
                               employees (including the FBI’s cadre of intelligence
                               analysts). This mandatory training will include
                               investigative computer training. Based on a review of
                               supporting documentation provided by the FBI, we
                               believe that the FBI has adequately addressed this
                               recommendation.




                                         - 126 -
#13. The FBI should         The FBI’s September 2002 response to this
ensure that deadlines for   recommendation stated that the deadlines set within
the completion of leads is  the ACS system for completing “Immediate” and
clear and not undermined    “Priority” leads would be changed to one day by
by the automated system,    December 31, 2002. The current procedures for
such as the ACS system’s    specifying deadlines for routine matters will remain
setting of a 60-day deadlineunchanged. The FBI’s April 2003 response to this
for “immediate” leads.      recommendation stated these changes to the ACS
                            system were completed by August 26, 2002. Based
                            on a review of supporting documentation provided by
                            the FBI, we believe that the FBI has adequately
                            addressed this recommendation.
      Source: OIG analyses as of April 2003




                                       - 127 -
                McVeigh Report: Open Recommendations

     Recommendation                                FBI’s Progress
#1. The FBI should foster     The FBI’s September 2002 response to this
an attitude among all         recommendation stated that the FBI was engaging in
employees that information    programs to improve all of its records management
management is an essential    capabilities through its restructuring and creation of
part of the FBI’s mission     the RMD. The FBI undertook training of all
and that automation is a      employees in the areas of information management
key tool in managing the      requirements, procedures, and responsibilities during
storage, analysis, and        a 1-day stand down in 2001. Further, the FBI’s
retrieval of information.     response stated that future training in records
                              management was being planned. The FBI’s April
                              2003 response to this recommendation stated that
                              the RMD was actively promoting effective information
                              management within the Bureau and was encouraging
                              acceptance of new automation plans by Bureau
                              employees. Since 2002, RMD staff has worked
                              closely with the VCF and SCOPE data warehouse
                              program teams to ensure close coordination of
                              records and information management activities.
                              Additionally, the response stated that the RMD has
                              begun to identify, develop, and implement the quality
                              control mechanisms to ensure that record systems’
                              problems are quickly detected. Also, the RMD is
                              investigating the possibility of establishing an annual
                              awareness campaign. Further, the RMD will establish
                              a Records Management publicity team. Because the
                              RMD’s activities are ongoing and the first release of
                              the VCF – which will significantly change the FBI’s
                              information and workflow process – is not scheduled
                              for completion until December 2003, this
                              recommendation remains open.
#2. As part of its            The FBI’s September 2002 response to this
development of Trilogy, the   recommendation stated that the FBI was pursuing the
FBI should consider           simplification of its document management systems
whether its document          through the development of Trilogy and the VCF. The
management systems can        FBI’s April 2003 response to this recommendation
be simplified, such as by     stated that the RMD has taken part in the process to
having supervisors review     simplify the FBI’s document information systems
electronic copies of          through the implementation of the new electronic
documents, and whether its    record keeping system. The VCF system is designed
record keeping formats can    to develop a workflow process that will allow for
be reduced in number.         electronic signatures. The response further stated
                              that it is the responsibility of the VCF to work with the
                              FBI Public Key Infrastructure Team to implement
                              electronic signatures for the approval process.
                              Because the first release of the VCF is not scheduled
                              for completion until December 2003, this
                              recommendation remains open.




                                         - 128 -
#3. The FBI should             The FBI’s September 2002 response to this
evaluate whether inserts       recommendation stated that inserts would be
should be eliminated.          eliminated with the deployment of the VCF. Because
                               the first release of the VCF is not scheduled for
                               delivery until December 2003, this recommendation
                               remains open.
#4. The FBI should             The FBI’s September 2002 response to this
evaluate its practices         recommendation stated that the FBI was examining
regarding “originals” of FBI   how “originals” would be managed in the future,
created documents (such as     within the VCF applications. The FBI’s April 2003
FD-302s). If originals         response to this recommendation stated the FBI has
continue to be needed, the     determined that electronic versions of records in VCF
FBI should develop a           are the “record copies” as part of the Public Key
system that more clearly       Infrastructure/VCF – Record Management Application
identifies an original.        (RMA) development. Approval of the requirements
                               for a Public Key Infrastructure was obtained in
                               February 2003. Because the first release of the VCF
                               is not scheduled for delivery until December 2003,
                               this recommendation remains open.
#5. Any new automation         The FBI’s September 2002 response to this
system should be user          recommendation stated that the VCF will be in a web-
friendly, meaning that the     environment, familiar to computer users with
steps required to obtain       simplified workflow processes for document storage
information should be few      and retrieval. In the VCF, basic workflow processes
in number and intuitive.       will be accomplished through point and click
Information should be          capabilities. The submission of a document or
provided to the user           package to a case file for routing and approval will be
quickly.                       accomplished through a single “submit action.” Once
                               properly stored, every case and document will be
                               immediately available to all persons who have proper
                               security access through a web-based point and click
                               environment. Because the first release of the VCF is
                               not scheduled for delivery until December 2003, this
                               recommendation remains open.
#6. Any new automation         The FBI’s September 2002 response to this
system should include an       recommendation stated that the development
effective document tracking    (through Trilogy) of comprehensive automated
system. The FBI should         document creation, receipt, and management
consider whether a system      systems will eliminate much of the need for
that integrates the creation   traditional document tracking systems. FBI
of documents into the          employees will be able to access documents directly
tracking system is feasible    from their desktop computers, whether those
and appropriate.               documents were created by the FBI or received from
                               external sources and scanned into the Trilogy
                               systems. The FBI’s April 2003 response to this
                               recommendation stated that with the implementation
                               of VCF, systems and processes will be established to
                               effectively track documents and materials contained
                               in the FBI records systems. Because the first release
                               of the VCF is not scheduled for delivery until
                               December 2003, this recommendation remains open.


                                          - 129 -
#7. The FBI should work        The FBI’s September 2002 response to this
toward eliminating crisis      recommendation stated that the focus of the VCF
management software and        project has been to develop a user-friendly case
other independent systems.     management and program management tool that
The FBI should consider the    attempts to integrate the workflow involved in the
feasibility of developing an   recording of events and data with the natural flow of
automation system that         the investigation. The response further states that
expands to meet situations     the information intake process for a crisis response
rather than developing new     should be the same as intake for routine matters.
software that is compatible    The VCF project has defined the FBI’s case and
with other programs.           program management needs and requirements to
                               include crisis management as a component of the
                               workflow and case management. Because the first
                               release of the VCF is not scheduled for delivery until
                               December 2003, this recommendation remains open.
#11. The FBI should ensure     The FBI’s September 2002 response to this
that leads cannot be           recommendation stated that the VCF is being
“covered” without an           designed so as to permit leads to be “covered” as a
explanation of what has        separate function from the documentation of the lead
been done to the task          being covered. The FBI’s April 2003 response to this
assigned.                      recommendation stated that in January 2002, the
                               process to identify the VCF program requirements to
                               ensure that leads cannot be “marked covered without
                               an explanation of the action taken” was begun. That
                               phase of the process was completed on
                               November 22, 2002, with the delivery of the program
                               requirements to the VCF contractor. The contractor is
                               to complete the design and implementation phase of
                               the process by July 17, 2003. Upon completion of the
                               design and implementation phase, testing of the VCF
                               system, including the “lead coverage requirement”
                               will begin and is to be completed on
                               October 27, 2003. Because the first release of the
                               VCF is not scheduled for delivery until
                               December 2003, this recommendation remains open.
#12. Future automation         The FBI’s September 2002 response to this
systems should incorporate     recommendation stated that VCF will assign unique
a system to allow              lead “counters” to each lead in a single case. Split
supervisors to easily track    leads or leads created from an original lead will reflect
the status of leads. The       lead counters with a derivative or “parent-child
FBI should evaluate            relationship” which will facilitate the tracing of all
whether a lead tickler         leads to their origin. The response further states that
system is appropriate and      leads will be capable of being viewed from the
feasible.                      desktop computer by the lead originating office and
                               by all receiving offices to determine to whom the
                               leads are assigned or whether action on the lead has
                               occurred. Because the first release of the VCF is not
                               scheduled for delivery until December 2003, this
                               recommendation remains open.




                                          - 130 -
#14. The FBI should           The FBI’s September 2002 response to this
evaluate the feasibility of   recommendation stated that the VCF system of
developing a system of        universal lead counters unique to each case will
universal lead numbers to     facilitate lead creation, tracking, and action. The
eliminate the use of local    system for lead control will provide case agents and
lead numbers as a tracking    managers with a user-friendly tool to ensure lead
mechanism.                    accountability. Because the first release of the VCF is
                              not scheduled for delivery until December 2003, this
                              recommendation remains open.
#15. The FBI should           The FBI’s September 2002 response to this
evaluate the use of lead      recommendation stated that the VCF system of
numbers on leads and          universal lead counters unique to each case will
responding reports and        facilitate lead creation, tracking, and action. The
determine whether new         system for lead control will provide case agents and
policies, better enforcement  managers with a user-friendly tool to ensure lead
of existing policies,         accountability. Because the first release of the VCF is
improved training, or better  not scheduled for delivery until December 2003, this
automation is the best        recommendation remains open.
method of fixing the
problem.
       Source: OIG analyses as of April 2003




                                         - 131 -
                                                            APPENDIX 3

  OTHER REPORTS RELATING TO THE FBI’S IT PROGRAM

1. GAO Reports

       The GAO is the investigative arm of Congress. The GAO examines the
use of public funds, evaluates federal programs and activities, and provides
analyses, options, recommendations, and other assistance to help Congress
make effective oversight, policy, and funding decisions. Since 1998, the
GAO has issued several reports and related testimony that highlight
deficiencies with the FBI’s IT, including one report that provides an IT
recommendation.

      According to the “GAO’s Agency Protocols,” issued in
December 2002, the GAO’s recommendations are intended to improve the
economy, efficiency, and effectiveness of an agency’s operations and to
improve the accountability of the federal government for the benefit of the
American people. Consequently, the GAO monitors agencies’ progress in
implementing these recommendations. To accomplish this monitoring, the
GAO maintains a database of open recommendations. As new reports with
recommendations are issued, their recommendations are incorporated into
the database. This database serves both the GAO and the agencies by
helping them meet their record maintenance and monitoring responsibilities.

      The GAO’s goal is to remove all closed recommendations from the
database on an ongoing basis. However, toward the end of each fiscal year,
special attention is directed to this effort. The GAO removes a
recommendation from its database after determining that (1) the agency has
implemented the recommendation or has taken action that in substance
meets the intent of the recommendation, or (2) circumstances have changed
and the recommendation is no longer relevant. The open recommendation
database is available to the public on the GAO’s website (www.gao.gov).
Specific recommendations can be identified because the database is
searchable by agency, Congressional committee, and key words.
Congressional oversight and authorization committees, as well as the
Appropriations Committees, can use the database to prepare for hearings
and budget deliberations.

       Additionally, when the GAO issues a report containing
recommendations to the head of an agency, 31 U.S.C. Section 720 requires
that the agency head submit a written statement of the actions taken by the
agency on the GAO’s recommendations to the Senate Committee on
Governmental Affairs and the House Committee on Government Reform no
later than 60 days after the date of the report. The agency’s statement of
action is also to be submitted to the House and Senate Committees on

                                  - 132 -
Appropriations with the first request for appropriations that is submitted
more than 60 days after the date of the report. If the Congressional
requestor has asked that the distribution of the report be restricted, as
provided by the “GAO’s Congressional Protocols,” the 60-day period will
begin on the date the report is released.

      Because agency personnel serve as the primary source of information
on the status of recommendations, the GAO requests that the agency also
provide it with a copy of the agency’s statement of action to serve as
preliminary information on the status of recommendations. The GAO will
follow up by discussing the status of recommendations with cognizant
agency officials; obtaining copies of agency documents supporting the
recommendations’ implementation; and performing sufficient work to verify
that the recommended actions are being taken and, to the extent possible,
that the desired results are being achieved.

       While conducting an audit on the FBI’s counterterrorism program,54
the OIG found that the FBI had not implemented a GAO recommendation in
its report entitled, “Need for Comprehensive Threat and Risk Assessments of
Chemical and Biological Attacks.” Among the reasons identified by the OIG
was that the FBI does not have a system of management controls to ensure
timely implementation of GAO, OIG, or other agency issued
recommendations. Because of the FBI’s non-compliance with this GAO
recommendation, we examined whether the FBI has implemented
recommendations relating to IT that have been issued by the GAO in the last
five years.

      To assess the FBI’s progress in implementing recommendations
directed toward improving its information technology, we examined the
following GAO reports that discussed the FBI’s use and management of
information technology:

       •    the 2000 report on the FBI’s National Instant Criminal Background
            Check System (NICS);

       •    the 2000 report on the DOJ’s Campaign Finance Task Force; and

       •    the 2002 Enterprise Architecture Report.




       54
         The OIG report, entitled “A Review of the Federal Bureau of Investigation’s
Counterterrorism Program: Threat Assessment, Strategic Planning, and Resource
Management,” was issued in September 2002.

                                         - 133 -
      Based on our review of these reports, only the report on the NICS had
a recommendation that related to IT. We found that the FBI timely
implemented this recommendation. Because the remaining two reports
included some discussion of the FBI’s IT program, we summarized the
reports’ findings to supplement our analyses of the FBI’s progress in
improving its IT.

A. Report on the FBI’s National Instant Criminal Background
   Check System

      In February 2000 GAO issued “Gun Control: Implementation of the
National Instant Criminal Background Check System.” The National Instant
Criminal Background Check System is a computer system maintained by the
FBI that is designed to provide background screening for all types of
firearms bought from federal firearms licensees. In this report, the GAO:

      •   provided statistics on background checks, denials, and appeals;

      •   described enforcement actions taken against persons who allegedly
          falsify their status on firearm-purchase applications;

      •   discussed the NICS's computer system architecture, capacity
          management system availability, transaction response time,
          retention of records, monitoring activities, and the prospect of
          making the NICS a fingerprint-based system rather than a
          name-based system; and

      •   discussed pawnshop issues.

      The report stated that the FBI did not authorize NICS before it began
operations on November 30, 1998. System authorization was not obtained,
according to FBI officials, due to insufficient time and resources to formally
test security controls between the date that the FBI received the system
from the contractor and the Congressionally-mandated date for system
operation. However, while a formal test of security controls was not
conducted, the security officer responsible for NICS' authorization stated
that a subset of NICS' security requirements was assessed and a number of
vulnerabilities were disclosed. The FBI requested an interim approval to
operate NICS from the FBI's National Security Division, which is the FBI's
authorization authority. According to an FBI National Security Division
representative, the interim approval was granted for one year beginning
November 30, 1998.




                                    - 134 -
       However, the GAO’s report stated that, according to the security
officer responsible for NICS authorization, all authorization requirements —
such as certification testing — were not completed during the interim period
because of competing priorities, such as the authorization of NCIC 2000 and
the Integrated Automated Fingerprint Identification System. Additionally,
the GAO’s report stated that according to the DOJ, the completion of security
testing was overshadowed by more urgent issues directly impacting NICS'
ability to function; therefore, security testing was delayed. On
December 2, 1999, the National Security Division extended the interim
approval to operate NICS through April 2000. Further, the GAO’s report
stated that according to the security officer, security testing for NICS was
completed on December 21, 1999. The FBI planned to obtain full
authorization by March 31, 2000.

      The report further stated that because of the system vulnerabilities
that were identified before NICS went operational and the delays
experienced in authorizing the system, the FBI continued to lack an
adequate basis for knowing whether NICS assets (hardware, software, and
data) were sufficiently secure and were not vulnerable to corruption and
unauthorized access. Additionally, it had not yet been authorized as secure
in accordance with the DOJ's own requirements, and attempts to do so had
been delayed. The report also stated that further delays in authorizing NICS
would expose the system and the data it processes about individuals to
unnecessary risk. Therefore, it was extremely important that the FBI fulfill
its commitment to authorize NICS by March 31, 2000.

      We determined that the FBI timely implemented the report’s one IT-
related recommendation. This recommendation pertained to the certification
and accreditation of the NICS by March 31, 2000. According to the GAO’s
website, the recommendation’s status was closed.

      To confirm that the status of this recommendation was closed, we
interviewed FBI officials and reviewed documentation supporting the
authorization and accreditation of the NICS as of March 31, 2000.

B. Report on the DOJ’s Campaign Finance Task Force

      In May 2000, the GAO issued a report entitled, “Campaign Finance
Task Force: Problems and Disagreements Initially Hampered Justice’s
Investigation.” The objective of this review was to examine the
management and oversight, operations, and results of the Campaign Finance
Task Force from its inception through December 31, 1999.




                                   - 135 -
      Among its findings, the report stated that the FBI lacked an adequate
information system that could manage and interrelate the evidence that had
been gathered in relation to the Campaign Task Force’s investigations.
Specifically, the Campaign Finance Task Force was overwhelmed with
documents and other evidence and lacked sufficient staff and electronic
system resources to input and organize the information being gathered. The
report also stated that the lead investigator noted that after several months,
the large volume of documents obtained overwhelmed the Campaign
Finance Task Force’s electronic data management system and a new system
had to be purchased.

      This report did not contain any FBI IT-related recommendations.
However, the deficiencies described in this report are consistent with ones
reported by the OIG. The more recently issued McVeigh and ITIM reports
stated that similar vulnerabilities with the FBI’s information management
systems have continued, demonstrating that additional corrective actions are
necessary.

C. Report on the FBI’s Enterprise Architecture

      In February 2002, the GAO issued a report entitled,
“Enterprise Architecture Use Across the Federal Government Can Be
Improved.” The objectives of the report were to determine (1) the status of
federal agencies’ efforts to develop, implement, and maintain enterprise
architectures; and (2) OMB’s actions to oversee these efforts.

      The report stated that the FBI needed to fully establish the
management foundation that is necessary to begin developing,
implementing, and maintaining an enterprise architecture. While the FBI
implemented most of the core elements associated with establishing the
management foundation, it had not yet established a steering committee or
group that has responsibility for directing and overseeing the development of
the architecture.

       In addition, the GAO indicated that although establishing the
management foundation is an essential first step, important further steps
still need to be taken for the FBI to fully implement the set of practices
associated with effective enterprise architecture management. These
include having a written and approved policy for developing and maintaining
the enterprise architecture and requiring that IT investments comply with
the architecture.

    This report did not contain any FBI IT-related recommendations.
However, the recently issued ITIM report stated that the FBI still has not

                                   - 136 -
fully established an enterprise architecture, although progress is being
made. Specifically, a baseline architecture was being developed in a data
repository, which ultimately will be maintained in the FBI’s intranet. This
data repository, when complete, is intended to describe how all of the FBI’s
IT systems align with the business processes of the Bureau. Additionally,
the enterprise architecture office was developing a technical reference model
that will outline the technical architecture of the Bureau’s IT systems. Also,
the FBI was creating a commercial off-the-shelf roadmap of all
commercially-available hardware and software that will comply with the
FBI’s technical architecture. Despite the progress being made, the ITIM
report ultimately concluded that the FBI’s enterprise architecture
development was not far enough along to adequately support the FBI’s IT
investment management activities.

D. Summary of GAO Reports

       The three GAO reports we examined noted deficiencies with certain
aspects of the FBI’s IT program. The Gun Control report stated that the FBI
did not properly authorize an IT system (NICS) through accreditation and
certification. However, we found that the system was subsequently certified
and accredited as of March 31, 2000. Additionally, the report on the FBI’s
Campaign Finance Task Force stated that the FBI lacked an adequate
information system that could manage and interrelate the evidence that had
been gathered in relation to the Campaign Task Force’s investigations.
These deficiencies were similar to those reported by the OIG Campaign
Finance report. Further, the report on the FBI’s enterprise architecture
stated that the Bureau lacked a foundation for managing enterprise
architecture. The recently released ITIM report reiterated the importance of
having an established enterprise architecture when developing an IT
investment management process.

2. Other Reports on the FBI’s IT

      In addition to the OIG and the GAO, other entities have issued reports
in recent years that included analyses of the FBI’s IT management. One
report of particular relevance to IT security was issued by the
Webster Commission. This report entitled, “A Review of FBI Security
Programs” was issued in March 2002. This Commission, chaired by former
FBI Director William H. Webster, was established to investigate the
espionage of FBI Supervisory Special Agent Robert Hanssen.

    The report identified a wide range of problems affecting the FBI’s
computer systems and information security policies, including the following.


                                   - 137 -
     • Classified information had been moved into systems not
       properly accredited for protection of classified information.

     •   Until recently, the FBI had not begun to certify and accredit most of
         its computer systems, including many classified systems.

     •   Inadequate physical protections placed electronically-stored
         information at risk of compromise.

     •   The FBI’s approach to system design had been deficient. It had
         failed to ascertain the security requirements of the “owners” of
         information on its systems and identify the threats and
         vulnerabilities that must be countered.

     •   Classified information stored on some of the FBI’s most widely-
         utilized systems was not adequately protected because computer
         users lacked sufficient guidance about critical security features.

     •   Some FBI inspectors had insufficient resources to perform required
         audits. When audits were performed, audit logs were reviewed
         sporadically, if at all.

      According to the Webster Commission’s report, these findings resulted
from the FBI’s lack of attention to IT security in developing and managing
computer systems. The report highlights the importance of computer
security as it shows how breaches, such as those that GISRA audits continue
to identify, present national security risks.




                                   - 138 -
                                                    APPENDIX 4

       GLOSSARY OF ABBREVIATIONS AND ACRONYMS

ACID             Top Secret Accessor Identification
ACM              Architecture Change Management
ACS              Automated Case Support
ADP              Automated Data Processing
ADPT             Automated Data Processing and Telecommunications
ARCS             Automated Response and Compliance System
BPMS             Bureau Personnel Management System
C&A              Certification and Accreditation
CM               Configuration Management
CONOP            Concept of Operations Report
COOP             Continuity of Operations Report
DAA              Designated Approving Authority
DOJ              Department of Justice
EC               Electronic Communication
ESOC             Enterprise Security Operations Center
FBI              Federal Bureau of Investigation
FBIHQ            FBI Headquarters
FIPS             Federal Information Processing Standards
FISCAM           Federal Information System Controls Audit Manual
FMS              Financial Management System
FPDS             Federal Procurement Data Statistics
GAO              General Accounting Office
GISRA            Government Information Security Reform Act
IIIA             Integrated Intelligence Information Application
IPC              Information Presentation Component
IRD              Information Resources Division
IT               Information Technology
ITIM             Information Technology Investment Management
LAN              Local Area Network
LTAU             Language Training and Assessment Unit
MAOP             Manual of Administrative Operations and Procedures
MIOG             Manual of Investigative Operations and
                        Guidelines
MLC              Management Letter Comment
MW               Material Weakness
NICS             National Instant Criminal Background Check
                        System
NIST             National Institute of Standards and Technology
OIG              Office of the Inspector General




                           - 139 -
OMB          Office of Management and Budget
PMA          Property Management Application
QCMU         Quality Configuration and Methods Unit
RC           Reportable Condition
RMA          Record Management Application
RMD          Records Management Division
SCI          Sensitive Compartmented Information
SMF          System Management Facility
SPIU         Systems Programming and Integration Unit
STC          Standard Telegraphic Code
Task Force   Campaign Finance Task Force
TNC          Transportation Network Component
UAC          User Application Component
VCF          Virtual Case File
WAN          Wide Area Network




                       - 140 -
                               APPENDIX 5

FBI’S RESPONSE TO THE DRAFT REPORT




              - 141 -
- 142 -
- 143 -
- 144 -
                                                               APPENDIX 6


      OIG, AUDIT DIVISION ANALYSES AND SUMMARY
        OF ACTIONS NECESSARY TO CLOSE REPORT

     In its response to the draft report, the FBI agreed with all of our audit
recommendations and provided over 25 pages of additional support to
address the recommendations. Because of the length of the additional
support provided, we include as Appendix 5 of this final report only the FBI’s
summary response.

Recommendation number:

1.    Resolved. This recommendation is resolved based on the FBI’s
      agreement to develop, document, and implement Bureau-wide
      procedures to follow-up and close audit and investigative
      recommendations. The documentation provided by the FBI included
      two electronic communications that provided guidance for the follow-
      up of OIG and GAO audits. However, it is not clear as to whether this
      guidance has been institutionalized as policy through inclusion within
      the FBI’s formal policy manuals. This recommendation can be closed
      when we receive documentation demonstrating that the guidance
      documents provided, “DOJ OIG Financial and Non-Financial Audits”
      and “General Accounting Office,” or other specific audit follow-up
      procedures are institutionalized as policy within the FBI’s formal policy
      manuals.

2.    Resolved. This recommendation is resolved based on the FBI’s
      agreement to ensure that the ARCS database is complete. This
      recommendation can be closed when we receive documentation
      demonstrating that the Campaign Finance report has been entered
      into ARCS, and that vulnerabilities generated by system audits
      required by GISRA are being tracked.

3.    Resolved. This recommendation is resolved based on the FBI’s
      agreement to ensure that managers are held accountable for the
      tracking, resolution, and timely implementation of OIG
      recommendations. As stated for recommendation 1, the
      documentation provided does not appear to be institutional policy.
      This recommendation can be closed when we receive documentation
      demonstrating that the guidance documents provided, or other specific
      audit follow-up procedures, are institutionalized as policy within the
      FBI’s formal policy manuals, and that the ARCS database is complete.



                                    - 145 -
